<html>
<title> - DATA COLLECTION ISSUES IN RELATION TO THE REAUTHORIZATION OF THE MAGNUSON-STEVENS FISHERY CONSERVATION AND MANAGEMENT ACT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
  DATA COLLECTION ISSUES IN  RELATION TO THE REAUTHORIZATION OF THE 
       MAGNUSON-STEVENS FISHERY CONSERVATION AND MANAGEMENT  ACT 

=======================================================================

                           OVERSIGHT HEARING

                               before the

                  SUBCOMMITTEE ON FISHERIES, WILDLIFE,
                       OCEANS AND INSULAR AFFAIRS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         Tuesday, May 21, 2013

                               __________

                           Serial No. 113-20

                               __________

       Printed for the use of the Committee on Natural Resources

         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

81-284 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
   Office Internet: bookstore.gpo.gov Phone: toll free (800) 512-1800; 
          DC area (202) 512-1800 Fax: (202) 512-214 Mail: Stop IDCC, 
                      Washington, DC 20402-0001



                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            EDWARD J. MARKEY, MA, Ranking Democratic Member

Don Young, AK                        Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F. H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Tom McClintock, CA                   Jim Costa, CA
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Cynthia M. Lummis, WY                    CNMI
Dan Benishek, MI                     Niki Tsongas, MA
Jeff Duncan, SC                      Pedro R. Pierluisi, PR
Scott R. Tipton, CO                  Colleen W. Hanabusa, HI
Paul A. Gosar, AZ                    Tony Cardenas, CA
Raul R. Labrador, ID                 Steven A. Horsford, NV
Steve Southerland, II, FL            Jared Huffman, CA
Bill Flores, TX                      Raul Ruiz, CA
Jon Runyan, NJ                       Carol Shea-Porter, NH
Mark E. Amodei, NV                   Alan S. Lowenthal, CA
Markwayne Mullin, OK                 Joe Garcia, FL
Chris Stewart, UT                    Matt Cartwright, PA
Steve Daines, MT
Kevin Cramer, ND
Doug LaMalfa, CA
Vacancy

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
               Jeffrey Duncan, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON FISHERIES, WILDLIFE, OCEANS
                          AND INSULAR AFFAIRS

                       JOHN FLEMING, LA, Chairman
    GREGORIO KILILI CAMACHO SABLAN, CNMI, Ranking Democratic Member

Don Young, AK                        Eni F. H. Faleomavaega, AS
Robert J. Wittman, VA                Frank Pallone, Jr., NJ
Glenn Thompson, PA                   Madeleine Z. Bordallo, GU
Jeff Duncan, SC                      Pedro R. Pierluisi, PR
Steve Southerland, II, FL            Carol Shea-Porter, NH
Bill Flores, TX                      Alan S. Lowenthal, CA
Jon Runyan, NJ                       Joe Garcia, FL
 Vacancy                             Edward J. Markey, MA, ex officio
Doc Hastings, WA, ex officio



                                ----------                              
                                 CONTENTS
                                ----------                              
                                                                   Page

Hearing held on Tuesday, May 21, 2013............................     1

Statement of Members:
    Fleming, Hon. John, a Representative in Congress from the 
      State of Louisiana.........................................     1
        Prepared statement of....................................     2
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     5
        Prepared statement of....................................     7
    Sablan, Hon. Gregorio Kilili Camacho, a Delegate in Congress 
      from the Northern Mariana Islands..........................     3
        Prepared statement of....................................     5

Statement of Witnesses:
    Beal, Robert, Executive Director, Atlantic States Marine 
      Fisheries Commission.......................................    22
        Prepared statement of....................................    24
    Behnken, Linda, Executive Director, Alaska Longline 
      Fishermen's Association....................................    56
        Prepared statement of....................................    57
    Bonzek, Christopher F., Fishery Data Analyst, North East Area 
      Monitoring and Assessment Program (NEAMAP), Department of 
      Fisheries Science, Virginia Institute of Marine Science, 
      College of William and Mary................................    63
        Prepared statement of....................................    65
    Breidt, F. Jay, Ph.D., Department of Statistics, Colorado 
      State University and Member, Committee on the Review of 
      Recreational Fisheries Survey Methods, Ocean Studies Board, 
      Division on Earth and Life Studies, National Research 
      Council, The National Academies............................    71
        Prepared statement of....................................    73
    Colby, Captain Mike H., President, Double Hook Charters, 
      Clearwater, Florida........................................    92
        Prepared statement of....................................    93
    Donaldson, David M., Interim Executive Director, Gulf States 
      Marine Fisheries Commission................................    30
        Prepared statement of....................................    32
    Fisher, Randy, Executive Director, Pacific States Marine 
      Fisheries Commission.......................................    17
        Prepared statement of....................................    19
    Horton, Christopher, Midwestern States Director, 
      Congressional Sportsmen's Foundation and Member of the 
      Marine Fisheries Advisory Committee's Recreational 
      Fisheries Working Group....................................    78
        Prepared statement of....................................    80
        Clarification Addendum to prepared statement.............    82
    Merrick, Dr. Richard L., Chief Science Advisor and Director 
      of Scientific Programs, National Marine Fisheries Service, 
      National Oceanic and Atmospheric Administration, U.S. 
      Department of Commerce.....................................     8
        Prepared statement of....................................    10
    Stokesbury, Dr. Kevin D. E., Associate Professor and Chair, 
      Department of Fisheries Oceanography, School for Marine 
      Science and Technology, University of Massachusetts-
      Dartmouth..................................................    83
        Prepared statement of....................................    84

                                     



   OVERSIGHT HEARING ON ``DATA COLLECTION ISSUES IN RELATION TO THE 
   REAUTHORIZATION OF THE MAGNUSON-STEVENS FISHERY CONSERVATION AND 
                            MANAGEMENT ACT''

                         Tuesday, May 21, 2013

                     U.S. House of Representatives

    Subcommittee on Fisheries, Wildlife, Oceans, and Insular Affairs

                     Committee on Natural Resources

                            Washington, D.C.

    The Subcommittee met, pursuant to notice, at 10:33 a.m., in 
room 1334, Longworth House Office Building, Hon. John Fleming 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Fleming, Wittman, Southerland, 
Runyan, Hastings; Sablan, Pallone, Bordallo, Shea-Porter, and 
Lowenthal.
    Also Present: Representative Keating.
    Dr. Fleming. The Committee will come to order. The Chairman 
notes the presence of a quorum, which, under Committee Rule 
3(e), is two Members. The Committee on Natural Resources is 
meeting today to hear testimony on data collection issues 
related to the reauthorization of the Magnuson-Stevens Fishery 
Conservation and Management Act. Under Committee Rule 4(f), 
opening statements are limited to the Chairman and Ranking 
Member of the Committee, so that we can hear from our witnesses 
more quickly. However, I ask unanimous consent to include any 
other Members' opening statements in the hearing record, if 
submitted to the Clerk by close of business today.
    [No response.]
    Dr. Fleming. Hearing no objection, so ordered.

    STATEMENT OF THE HON. JOHN FLEMING, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Dr. Fleming. Today's hearing is the second in a series we 
will be holding this Congress on the reauthorization of the 
Magnuson-Stevens Fishery Conservation and Management Act. As 
you may remember, we started the reauthorization process in the 
last congress, and we will continue to hear testimony on the 
key aspects of this important law.
    In hearings that this Subcommittee held last Congress and 
so far this year, there has been one continuing message: We 
need better data. I think we will all agree that good science 
is critical to good management decisions. For fishery 
scientists to make good recommendations, and then for fishery 
managers to make good management decisions, they must have good 
data.
    This has become even more apparent with the 2009 rewrite of 
the National Standard Number One Guidelines. This revision 
resulted in increased levels of buffers when both scientific 
and management uncertainties were present. This change has 
highlighted the fact that data collection programs in certain 
regions of the country have been neglected. While data is 
limited in certain regions, we hope today's witnesses will give 
us some ideas for how this can be turned around.
    One of today's witnesses will describe a cooperative 
research program in which a portion of the fishery quota has 
been reserved for research purposes, and a cooperative program 
between a university, the States, commercial fishermen, and 
Federal scientists has yielded significant fishery information 
without cost to the Federal Government. This is the type of 
program that could be replicated in other areas of the country 
without increasing Federal spending: something we all need to 
think more about.
    And while cooperative research is nothing new, it certainly 
has benefits. On the East Coast a number of years ago, NOAA was 
on the verge of closing the monkfish fishery until a 
cooperative research initiative that involved agency, 
scientist, and commercial fishermen showed that the fishery was 
in much better shape than the agency surveys had indicated. 
Without those cooperative research surveys, that fishery would 
likely be closed today.
    In addition to using new ideas and new technology, we need 
to do a better job of prioritizing what funding we have now.
    The 2006, 2007 amendments to the Magnuson-Stevens Act 
required each council, along with their scientific and 
statistical committees, to develop a priority list of the 
information they needed for management purposes. This 5-year 
research priority list was required to be submitted to the 
Secretary and the regional science centers. It is unclear 
whether the science centers have made changes to their funding 
priorities based on the council's suggestions. But it is clear 
that, in some regions, the information necessary for good 
management has been lacking.
    In addition to better information, we continue to hear from 
our witnesses that there needs to be better transparency in 
both the collection of data and how the data is used. Involving 
fishermen in the collection of data through things like 
cooperative research will make the management process better 
for everyone.
    And even in cases where fishery information is available, 
we have heard that agency scientists are reluctant to 
incorporate data from outside sources in their stock 
assessments. This needs to change.
    Finally, we need to make sure that data is delivered to 
fishery managers in a timely manner. Basing management 
decisions on 3 or 4-year-old information is not likely to 
produce good management results. And when fishermen do not 
trust the information that management decisions are being made 
on, or the information does not match what they are seeing on 
the water, the whole system is undermined. This is especially 
apparent in the Gulf of Mexico red snapper fishery.
    [The prepared statement of Dr. Fleming follows:]

          Statement of The Honorable John Fleming, Chairman, 
    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

    Good morning. Today's hearing is the second in a series we will be 
holding this Congress on the reauthorization of the Magnuson-Stevens 
Fishery Conservation and Management Act. As you may remember, we 
started this reauthorization process in the last Congress and we will 
continue to hear testimony on the key aspects of this important law.
    In hearings that this Subcommittee held last Congress and so far 
this year, there has been one continuing message--we need better data.
    I think we will all agree that good science is critical to good 
management decisions. For fishery scientists to make sound 
recommendations and then for fishery managers to make good management 
decisions, they must have good data.
    This has become even more apparent with the 2009 rewrite of the 
National Standard #1 Guidelines. This revision resulted in increased 
levels of buffers when both scientific and management uncertainties 
were present. This change has highlighted the fact that data collection 
programs in certain regions of the country have been neglected.
    While data is limited in certain regions, we hope today's witnesses 
will give us some ideas for how this can be turned around.
    One of today's witnesses will describe a cooperative research 
program in which a portion of the fishery quota has been reserved for 
research purposes and a cooperative program between a university, the 
states, commercial fishermen, and Federal scientists has yielded 
significant fishery information without cost to the Federal Government. 
This is the type of program that could be replicated in other areas of 
the country without increasing Federal spending--something we all need 
to think more about.
    And while cooperative research is nothing new, it certainly has 
benefits. On the east coast a number of years ago, NOAA was on the 
verge of closing the monkfish fishery until a cooperative research 
initiative--that involved agency scientists and commercial fishermen--
showed that the fishery was in much better shape than the agency's 
surveys had indicated. Without those cooperative research surveys, that 
fishery would likely be closed today.
    In addition to using new ideas and new technology, we need to do a 
better job of prioritizing what funding we do have. The 2006/2007 
amendments to the Magnuson-Stevens Act required each Council, along 
with their Scientific and Statistical Committees, to develop a priority 
list of the information they needed for management purposes. This five-
year research priority list was required to be submitted to the 
Secretary and the regional science centers. It is unclear whether the 
science centers have made changes to their funding priorities based on 
the Councils' suggestions, but it is clear that in some regions, the 
information necessary for good management has been lacking.
    In addition to better information, we continue to hear from our 
witnesses that there needs to be better transparency in both the 
collection of data and how that data is used. Involving fishermen in 
the collection of data--through things like cooperative research--will 
make the management process better for everyone.
    And even in cases where fishery information is available, we have 
heard that agency scientists are reluctant to incorporate data from 
outside sources in their stock assessments. This needs to change.
    Finally, we need to make sure that data is delivered to fishery 
managers in a timely manner. Basing management decisions on three- or 
four-year old information is not likely to produce good management 
results. And when fishermen do not trust the information that 
management decisions are being made on or the information does not 
match what they are seeing on the water, the whole system is 
undermined. This is especially apparent in the Gulf of Mexico red 
snapper fishery.
    I look forward to hearing the testimony from today's witnesses.
                                 ______
                                 
    Dr. Fleming. I look forward to hearing from our witnesses, 
and now recognize the Ranking Member for 5 minutes for any 
statement that he may have.

    STATEMENT OF THE HON. GREGORIO KILILI CAMACHO SABLAN, A 
     DELEGATE IN CONGRESS FROM THE NORTHERN MARIANA ISLANDS

    Mr. Sablan. Thank you very much, Mr. Chairman, and good 
morning, everyone. Today we will hear testimony on the 
importance of data collection to fisheries management under the 
Magnuson-Stevens Act. One common theme we will likely hear 
throughout the discussion is that, in many cases, data is 
insufficient to manage fish stocks sustainably without large, 
precautionary buffers. This uncertainty frustrates fishermen, 
who would be allowed a greater catch if science were to 
improve. It also frustrates managers who, in the absence of 
precise and accurate information about the health of target 
stocks, species, habitat, and environmental conditions, face 
difficulty in setting catch limits with buy-in from the fishing 
community.
    On one hand, we have to find ways to work smarter, using 
technology and innovation to improve data collection while 
reducing the burden on taxpayers and the regulated community. 
Some of our witnesses today will discuss cooperative research 
programs and alternative data collection strategies that can 
help accomplish these goals.
    On the other hand, though we also have to recognize that, 
like in so many industries in this country, no one could make a 
living for very long fishing without significant investment 
from the Federal Government. And while sustaining some 
industries depend on roads, ports, or procurement contracts, 
sustaining fisheries depends on data. Unfortunately, Federal 
support for fishery science has remained stagnant in recent 
years, as data needs have increased.
    Given these resource constraints, we have done a good job, 
overall, of managing our fisheries under the Magnuson-Stevens 
Act, particularly since the bipartisan 2006 reauthorization 
added science-based annual catch limits and accountability 
measures. The status of stocks report recently released by NOAA 
shows that an additional six fish stocks were rebuilt in 2012, 
and that the percentage of stocks with known status that were 
over-fished fell from 14 percent to 10 percent.
    The most recent economic figures show that the value of 
U.S. fisheries is at an all-time high. However, the fact that 
we have insufficient information to determine whether or not 
more than half of federally managed fish stocks are over-fished 
reminds us that we still have a lot of work to do.
    The situation is further complicated by changes in the 
diet, habitat, and range of target species due to climate 
change. A paper published last week in the journal ``Nature'' 
concluded that climate change has been forcing fish northward 
to cooler waters for the better part of a century. This 
disturbing trend has major implications for the people of the 
Northern Mariana Islands and other tropical communities that 
depend on fish, not just for livelihoods, but for their lives. 
When the waters around our shores become too hot for tropical 
species, it is unlikely that there will be anything else to 
replace them when they leave. We will need even more data and 
resources to understand the impacts climate change is having on 
our oceans, and to integrate that information into stock 
assessments and management strategies.
    As many a scientist has said, counting fish is difficult 
because you can't see them and they move around. While this is 
clearly true and challenging, I am confident that with the 
proper investments we can continue strengthening the science 
that informs fishery management. I look forward to hearing from 
our witnesses on how we might use innovative strategies and 
partnerships to improve data quality and quantity to preserve 
fish stocks, fishing jobs, and coastal communities now and in 
the future.
    And I yield back my time, Mr. Chairman.
    [The prepared statement of Mr. Sablan follows:]

  Statement of The Honorable Gregorio Kilili Camacho Sablan, Ranking 
   Member, Subcommittee on Fisheries, Wildlife, Oceans, and Insular 
                                Affairs

    Thank you, Mr. Chairman.
    Today we will hear testimony on the importance of data collection 
to fisheries management under the Magnuson-Stevens Act. One common 
theme we will likely hear throughout the discussion is that in many 
cases, data is insufficient to manage fish stocks sustainably without 
large precautionary buffers. This uncertainty frustrates fishermen, who 
would be allowed a greater catch if science were to improve. It also 
frustrates managers who, in the absence of precise and accurate 
information about the health of target stocks, forage species, habitat, 
and environmental conditions face difficulty in setting catch limits 
with buy-in from the fishing community.
    On one hand, we have to find ways to work smarter, using technology 
and innovation to improve data collection while reducing the burden on 
taxpayers and the regulated community. Some of our witnesses today will 
discuss cooperative research programs and alternative data collection 
strategies that can help accomplish these goals. On the other hand, 
though, we also have to recognize that like in so many industries in 
this country, no one could make a living for very long fishing without 
significant investment from the Federal government. And while 
sustaining some industries depends on roads, ports, or procurement 
contracts, sustaining fisheries depends on data. Unfortunately, Federal 
support for fisheries science has remained stagnant in recent years as 
data needs have increased.
    Given these resource constraints, we have done a good job overall 
of managing our fisheries under the Magnuson-Stevens Act, particularly 
since the bipartisan 2006 reauthorization added science-based annual 
catch limits and accountability measures. The ``Status of the Stocks'' 
report recently released by NOAA shows that an additional six fish 
stocks were rebuilt in 2012, and that the percentage of stocks with 
known status that were overfished fell from 14 percent to 10 percent. 
The most recent economic figures show that the value of U.S. fisheries 
is at an all-time high. However, the fact that we have insufficient 
information to determine whether or not more than half of federally 
managed fish stocks are overfished reminds us that we still have a lot 
of work to do.
    The situation is further complicated by changes in the diet, 
habitat, and range of target species due to climate change. A paper 
published last week in the journal ``Nature'' concluded that climate 
change has been forcing fish northward to cooler waters for the better 
part of a century. This disturbing trend has major implications for the 
people of the Northern Mariana Islands and other tropical communities 
that depend on fish not just for our livelihoods, but for our lives. 
When the waters around our shores become too hot for tropical species, 
it is unlikely that there will be anything else to replace them when 
they leave. We will need even more data and resources to understand the 
impacts climate change is having on our oceans, and to integrate that 
information into stock assessments and management strategies.
    As many a scientist has said, counting fish is difficult because 
you can't see them and they move around. While this is clearly true and 
challenging, I am confident that with the proper investments we can 
continue strengthening the science that informs fishery management. I 
look forward to hearing from our witnesses on how we might use 
innovative strategies and partnerships to improve data quality and 
quantity to preserve fish stocks, fishing jobs, and coastal communities 
now and into the future.
                                 ______
                                 
    Dr. Fleming. The Ranking Member yields back.
    And I now recognize the full Committee Chairman, Mr. 
Hastings, for opening statement.

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Hastings. Thank you, Mr. Chairman, and thank you again 
for the courtesy of allowing me to make my statement.
    I want to thank you for taking the lead on this important 
issue relating to the reauthorization of the Magnuson-Stevens 
Fishery Conservation and Management Act. This Act, like many 
other statutes dealing with natural resource use, requires 
sound science so that our country and future generations can 
enjoy the economic benefits of its renewable resources.
    We have heard testimony at previous hearings that some 
regions of the country have serious data needs. While the 
Pacific Northwest in my area has enjoyed robust data collection 
programs, I hope we will look at ways to get better data from 
those regions that are in need without taking away from those 
regions whose programs have proven effective.
    Currently, more than 60 percent of the seafood landed in 
the U.S. is harvested off Alaska and the West Coast. 
Maintaining these important and valuable fisheries by 
continuing to collect necessary data is important. While the 
NOAA fishery data collection programs in my region of the 
country are critical, in many of the fisheries off Alaska and 
West Coast, significant data is collected or paid for by 
industry.
    While some fisheries are able to shoulder these costs, an 
increasing burden is being placed on our fishermen, making us 
less competitive in the global marketplace. Data is critical 
for these fisheries to operate efficiently. But if additional 
data are necessary, Federal agencies need to work with 
fishermen to find new technologies or other innovative means of 
collecting and paying for these added burdens.
    Additional surveys and new technologies obviously cost 
money. It is clear that Federal budgets are stretched thin. So 
we, therefore, need to look at ways to do things better than 
relying on the same data collection tools that we used 50 years 
ago. We will hear from one witness today whose fishery is 
willing to undertake a new type of data collection, electronic 
monitoring, which uses cameras to supplement on-board observer 
coverage in the fishery. As I understand it, this proposal is 
being held up by lawyers because of the debate about whether 
the program is intended for data collection or enforcement 
purposes. Unfortunately, this dispute is delaying the use of a 
promising new tool for fishery managers.
    And speaking of lawyers, as a result of litigation, the 
lack of stock assessment on the Atlantic sturgeon led to a 
questionable listing under the Endangered Species Act by the 
National Marine Fisheries Service. A benchmark stock assessment 
is now underway that will likely set the record straight. But 
until that happens, time and money are being spent on 
determining whether other activities might be endangering 
sturgeon, and potentially forcing restricting measures when the 
initial listing may not have even been necessary in the first 
place.
    Those of us from the Pacific Northwest know all too well 
how Endangered Species Act listings can result in an expansive 
amount of regulation on literally every activity tied to 
watersheds, rivers, or estuaries where a listed species has 
been identified. The Atlantic Sturgeon listing resulted from a 
lawsuit by a group seeking to exploit a weakness in the Federal 
science, and is based on a lack of recent data. This is the 
latest example of certain groups exploiting scientific 
weaknesses to support questionable ESA listings, filing 
countless lawsuits, and forcing Federal agencies into closed-
door settlements that results in arbitrary deadlines and costly 
regulatory measures that are not based on sound science or 
data.
    So, Mr. Chairman, I hope this hearing will spark some new 
thinking about what we can do to get much-needed information so 
that we can maximize the use of our fishery resources. So I 
look forward to the testimony of our witnesses and their 
thoughts on whether the Magnuson-Stevens Act requires amending, 
or whether we can achieve better data and implement new 
technology without major changes to the Act.
    And with that, Mr. Chairman, thank you for the courtesy, 
and I yield back the time.
    [The prepared statement of Mr. Hastings follows:]

          Statement of The Honorable Doc Hastings, Chairman, 
                     Committee on Natural Resources

    Mr. Chairman, I want to thank you for taking the lead on this 
important issue related to the reauthorization of the Magnuson-Stevens 
Fishery Conservation and Management Act. This Act, like many other 
statutes dealing with natural resource use, requires sound science so 
that our country, and future generations, can enjoy the economic 
benefits of its renewable natural resources.
    We have heard testimony at previous hearings that some regions of 
the country have serious data needs. While the Pacific Northwest has 
enjoyed robust data collection programs, I hope we will look for ways 
to get better data for those regions that are in need without taking 
away from those regions whose programs have been proven effective. 
Currently, more than 60 percent of the seafood landed in the U.S. is 
harvested off Alaska and the West Coast. Maintaining these important 
and valuable fisheries by continuing to collect the necessary data is 
important.
    While the NOAA fishery data collection programs in my region of the 
country are critical, in many of the fisheries off Alaska and the West 
Coast, significant data is collected or paid for by industry. While 
some fisheries are able to shoulder these costs, an increasing burden 
is being placed on our fishermen making us less competitive in the 
global marketplace. Data is critical for these fisheries to operate 
efficiently, but if additional data are necessary, Federal agencies 
need to work with fishermen to find new technologies or other 
innovative means of collecting and paying for these added burdens.
    Additional surveys and new technology cost money. It is clear that 
Federal budgets are stretched thin. We therefore need to look at ways 
to do things better rather than relying on the same data collection 
tools that we used fifty years ago.
    We will hear from one witness today whose fishery is willing to 
undertake a new type of data collection--electronic monitoring--which 
uses cameras to supplement on-board observer coverage in the fishery. 
As I understand it, this proposal is being held up by lawyers because 
of the debate about whether the program is intended for data collection 
or enforcement purposes. Unfortunately, this dispute is delaying the 
use of a promising new tool for fishery managers.
    And speaking of lawyers--as a result of litigation, the lack of a 
stock assessment on Atlantic sturgeon led to a questionable listing 
under the Endangered Species Act by the National Marine Fisheries 
Service. A benchmark stock assessment is now underway that will likely 
set the record straight, but until that happens, time and money are 
being spent on determining whether other activities might be 
endangering sturgeon, and potentially forcing restrictive measures when 
the initial listing may not even have been necessary. Those of us from 
the Pacific Northwest know all too well how Endangered Species Act 
listings can result in an expansive amount of regulation on literally 
every activity tied to watersheds, rivers, or estuaries where a listed 
species has been identified. The Atlantic sturgeon listing resulted 
from a lawsuit by a group seeking to exploit a weakness in the Federal 
science and is based on a lack of recent data. This is the latest 
example of certain groups exploiting scientific weaknesses to support 
questionable ESA listings, filing countless lawsuits, and forcing 
Federal agencies into closed-door settlements resulting in arbitrary 
deadlines and costly regulatory measures that are not based on sound 
science or data.
    Mr. Chairman, I look forward to today's testimony and I hope it 
will spark some new thinking about how we can get much-needed 
information so that we can maximize the use of our fishery resources. I 
also look forward to hearing from our witnesses today and am interested 
in their thoughts on whether the Magnuson-Stevens Act requires amending 
or whether we can achieve better data and implement new technology 
without changes to the Act.
                                 ______
                                 
    Dr. Fleming. I thank the gentleman, the Chairman, for his 
statement. And now we would like to hear from our witnesses. I 
will introduce them.
    First, Dr. Richard Merrick, Chief Science Advisor, National 
Marine Fisheries Service, National Oceanic and Atmospheric 
Administration; Mr. Randy Fisher, Executive Director, Pacific 
States Marine Fisheries Commission; Mr. Robert Beal, Executive 
Director, Atlantic States Marine Fisheries Commission; and Mr. 
David Donaldson, interim Executive Director, Gulf States Marine 
Fisheries Commission.
    First of all, witnesses, like all witnesses, your written 
testimony will appear in full in the hearing record. So I ask 
that you keep your oral statement to 5 minutes, as outlined in 
our invitation letter to you--under Committee Rule 4(a).
    Our microphones are not automatic. And also, be sure the 
tip is close to you, so we can hear you.
    And I will explain the timing lights, they are very simple. 
You start off on the green. After 4 minutes it turns yellow. 
You have 1 minute left. And at the end of that 1 minute, which 
will be a total of your 5 minutes, it turns red and we ask that 
you go ahead and conclude any remarks, if you haven't already. 
Therefore, the Chair recognizes Dr. Merrick for 5 minutes, sir.

  STATEMENT OF DR. RICHARD L. MERRICK, CHIEF SCIENCE ADVISOR, 
    NATIONAL MARINE FISHERIES SERVICE, NATIONAL OCEANIC AND 
                   ATMOSPHERIC ADMINISTRATION

    Dr. Merrick. Good morning, Chairman Hastings, Chairman 
Fleming, and Ranking Member Sablan. Thank you for having me 
here to talk about data collection. My name is Richard Merrick.
    And, as you recognized, NOAA Fisheries is dedicated to 
conservation, protection, and management of our living marine 
resources to ensure functioning, green ecosystems, and 
continuing recreational and economic opportunities for the 
American public. NOAA is an acknowledged world leader in the 
use of fishery science to rebuild over-fished stocks and to end 
over-fishing.
    Our science-based approach to management, as mandated 
within the Magnuson-Stevens Act, the MSA, has proven to provide 
better resource management than would occur without this 
advice. This, in turn, has led to improved productivity and 
sustainability of fisheries and fishery-dependent businesses.
    I grew up in a family that ran a charter boat business in 
Atlantic City, New Jersey. So it was logical that my first job 
with NOAA was as a fishery observer in the Shelikof Strait of 
Alaska's pollock fishery. I spent the remaining 30 years or so 
with the Agency using fishery-related data to support NOAA's 
stewardship mission. And today I will provide some observations 
on the importance of the core data that we collect to support 
this mission, and I will focus on stock abundance and catch.
    Our ship-based surveys of fish abundance are important to 
science-based management. We conduct these standardized surveys 
over the range of fish stocks, often on an annual basis, to 
measure the change in the fish numbers of biomass over time. 
These data are all key inputs to many of our stock assessments.
    These surveys are conducted in every region, using NOAA-
owned fishery research vessels, as well as charter commercial 
fishing boats. We also partner with industry, State, and 
academic researchers to conduct cooperative surveys. 
Collaborative work like that in the Bering Sea and the Gulf of 
Alaska groundfish fisheries provides valuable data and enhances 
our communication between scientists, fishermen, and our 
partners.
    Other partnerships like NEAMAP in the Mid-Atlantic and CMAP 
in the Gulf of Mexico, which I think you will hear about, are 
also important for collecting data on stocks near shore.
    Fishery catch data are as important as ship survey data. In 
some cases, it is the only information we have to manage 
stocks. We collect data on landed catch and at-sea discards in 
a variety of ways. For commercial catch data, we obtain those 
from dealers, from the vessel trip reports that fishermen 
provide, from fishery observers, and from the use of electronic 
monitoring techniques like electronic reporting of catches and 
video cameras aboard vessels. Our fishery commissions run 
programs like GulFIN, PacFIN, and the ACCSP, which are 
essential to obtain data from fishing activities in State 
waters.
    Obtaining adequate recreational catch data is equally 
important, particularly because recreational fisheries are a 
significant component of the total catch of a stock in the Gulf 
of Mexico in the South Atlantic regions. Our marine 
recreational information program, or MRIP, which became 
operational last year, is applying new and improved methods to 
the challenge of estimating total catch by the millions of 
recreational salt water anglers.
    Finally, I would like to quickly highlight three challenges 
to our data collection and stock assessment activities.
    One key challenge is the continuing improvement of the 
quality of our data analyses. And this is vital to maintaining 
and enhancing the accuracy and precision of the assessments, 
and the credibility of the management activities. One solution 
here is to develop new survey methods, and we look to our 
partners and our stakeholders for advice on how we can best 
improve our data collection. As you may hear from Dr. 
Stokesbury, we have worked with the University of Massachusetts 
School of Marine Science and Technology, or SMST, for many 
years to develop techniques that would improve Atlantic sea 
scallop assessments, and we are now collaborating with SMST to 
use video to count fish in a trawl net. So, implementing these 
new approaches will mean more science for the dollar.
    We have also embarked on a series of science center program 
reviews to identify strengths, weaknesses, and opportunities 
for improvement. And this year we will review all of our 
science center's data collection programs, beginning this June. 
A second challenge arises from our growing understanding that 
historical data sets are becoming less reliable in protecting 
future stock performance, given the changing ocean environment. 
This makes our ecosystem process studies all the more 
important.
    Finally, funding is the third challenge. And since passage 
of the reauthorized MSA, the Administration has consistently 
requested to increase funding for these activities, and we 
greatly appreciate the support that Congress has given us. 
However, the Fiscal Year 2013 budget presents some unique 
challenges to our ability to implement the science that 
underpins fisheries management.
    So, I would like to thank you again for your support to 
date, and for the opportunity to discuss fisheries data. And I 
look forward to answering your questions in a few minutes.
    [The prepared statement of Dr. Merrick follows:]

Statement of Dr. Richard L. Merrick, Chief Science Advisor and Director 
  of Scientific Programs, National Marine Fisheries Service, National 
  Oceanic and Atmospheric Administration, U.S. Department of Commerce

Introduction
    Good morning, Mr. Chairman and Members of the Committee. Thank you 
for the opportunity to testify before you today on fisheries data 
collection. My name is Richard L. Merrick, and I am the Chief Science 
Advisor and Director of Scientific Programs for the National Marine 
Fisheries Service (NMFS) within the National Oceanic and Atmospheric 
Administration (NOAA). NMFS is dedicated to the stewardship of living 
marine resources through science-based conservation and management, and 
the promotion of healthy ecosystems. As a steward, NMFS conserves, 
protects, and manages living marine resources to ensure functioning 
marine ecosystems and recreational and economic opportunities for the 
American public.
    NMFS is an acknowledged international leader in fishery science, 
rebuilding overfished stocks, and preventing overfishing. Today, we 
know more about our fish stocks than ever before, and it is vital that 
our science not regress, as this would inevitably lead to declines in 
our stocks and a loss in the economic and social values they provide.
    Our progress in making fisheries management more effective is based 
on the principle that management is based on sound science. National 
Standard 2 of the Magnuson-Stevens Fishery Conservation and Management 
Act (Magnuson-Stevens Act) mandates that all fisheries conservation and 
management measures must be based upon ``the best scientific 
information available'' (16 U.S.C. 1851(a)(2)). While we face 
challenges to securing accurate, precise, and timely data for stock 
assessments, on balance, our science-based management has consistently 
proven to provide better resource management than without this advice. 
This has, in turn, led to improved productivity and sustainability of 
fisheries and fishery-dependent businesses. In some fisheries, 
particular the Northeast, the science has indicated the need to rebuild 
stocks but uncertainty in the science has confounded finding exactly 
the level of fishery restrictions needed to accomplish that rebuilding. 
In other fisheries, particularly in the Southeast, the large numbers of 
stocks exceed our current capacity to deploy surveys and conduct 
assessments of the status of these stocks. The quality and extent of 
our stock assessment enterprise has room for growth.
    Sustainability of our Nation's fisheries is based on continual 
monitoring of fish catch and fish stock abundance. Because this data-
intensive endeavor is costly, NMFS and our partners have always focused 
on getting the most of the highest-priority and highest-quality data by 
fully using the funding Congress has provided for this vital work. This 
funding and the work it supports enables us to sustain and enhance our 
fisheries. NMFS continues to make substantial progress toward improving 
the quality of the science available to effectively manage commercial 
and recreational fisheries, benefiting coastal communities and the 
United States (U.S.) economy both today and for generations to come. We 
greatly appreciate the increased funding that Congress has provided to 
make U.S. fishery management, and its preeminence worldwide, possible.
    Today, I will discuss how our fisheries science is conducted and 
how this science underpins and provides for good management. In 
particular, I will focus on methods we use to collect the data, what 
types of data are collected, how these data are used in fishery 
management, and the importance of our partners in our collection of 
data. I will also describe some of the recent advances we have made in 
our science.
How fishery surveys are conducted--including through the use of Federal 
        vessels, charter vessels, or through other cooperative 
        arrangements
    Long-term monitoring of fish abundance provides an indicator of the 
abundance of stocks over time, and as such are invaluable inputs to 
stock assessments. Abundance data tell us the number or weight of a 
particular stock of fish in the ocean. Information on fish abundance is 
best obtained from standardized, fishery-independent surveys covering 
the extensive geographic range of the fish stocks. The average catch 
rate of fish typically is measured using standardized methods at 
hundreds of sampling locations over the range of a suite of fish 
stocks. A diversity of conventional survey methods is employed, 
including bottom, mid-water, and surface trawls; longlines; gillnets; 
and traps, as appropriate for the particular target, habitat, and 
region. In addition, our surveys incorporate state-of-art technology, 
including various sonars and optical systems to survey reef fish in the 
Southeast and Atlantic sea scallops in the Northeast. These surveys are 
repeated, typically annually, to measure the change in catch rate over 
time, which is the cornerstone information of the fishery assessment 
models. In some cases, fishery-dependent data from fishermen's logbooks 
can be statistically processed to provide additional indicators of 
trends in fish abundance.
    NOAA surveys in support of stock assessments are conducted in every 
region; 62 fish surveys were conducted in fiscal year 2012. These 
surveys are conducted on NOAA fishery survey vessels and on NOAA-owned 
small boats, as well as on chartered commercial fishing vessels, state-
owned boats, and UNOLS (university-owned) ships.
    NOAA survey vessels are a key source of fisheries-independent data. 
Seven ships in the NOAA fleet conduct many of the cruises to survey 
fish abundance. The fleet includes four new Dyson-class vessels with 
state-of-the art technological capabilities, with a fifth vessel in 
this class becoming available in 2014. The timing of these cruises, 
survey designs, and sampling methodologies are adapted to the specific 
region and stocks.
    We augment NOAA vessel surveys with cooperative surveys involving 
industry, academic, and state government partners. These surveys 
commonly use chartered commercial vessels and employ local fishermen, 
who provide critical local knowledge of the region's stocks and 
fisheries. The surveys conducted using chartered vessels provide 
important data streams from regions and time periods when NOAA ships 
are not available. For example, since the 1970s, NMFS has conducted its 
primary groundfish surveys in the Bering Sea, Gulf of Alaska, and the 
Pacific coast by chartering local fishing vessels of suitable 
characteristics to work with NMFS scientists on board, using 
standardized sampling gear and strict statistical protocols to collect 
the data to support some of our most valuable fisheries. In the 
Northeast, NMFS charters a commercial vessel from the region for the 
annual surf clam and quahog survey. In some surveys, the chartered 
fishing vessels may be partially funded through research set-asides or 
other forms of cooperative research. These collaborative surveys 
provide valuable data and enhance communication between assessment 
scientists and fishermen. Other surveys are conducted on commercial 
fishing vessels with universities (e.g., the NEAMAP or Northeast Area 
Marine Assessment Program with the Virginia Institute of Marine 
Science), and state agencies (e.g., the Maine-New Hampshire Surveys 
Inshore Groundfish Trawl Survey with the Maine Department of Marine 
Resources and New Hampshire Fish and Game Department).
    NOAA also charters state vessels for some surveys. State vessels 
are generally smaller than the NOAA vessels, and can operate in 
shallower near-shore and estuarine areas. This is particularly 
important for providing data on stocks that occur in these habitats. 
For example, the Southeast Area Monitoring and Assessment Program, 
commonly known as SEAMAP, is a collaboration dating back to 1977 
involving NMFS, the Gulf States Marine Fisheries Commission, and the 
states bordering the Gulf of Mexico. Through funds transferred to the 
Commission and individual states via grants and cooperative agreements 
to conduct the surveys, SEAMAP provides much of the fisheries-
independent data used in Gulf of Mexico stock assessments.
How landings and other harvest-related data are gathered and used
    The catch monitoring programs strive to measure total catch, or the 
amount of fish removed through fishing. Rarely are fishery catch 
monitoring programs focused on single species or fisheries; instead, 
they are generally designed to monitor multiple species and fisheries 
over large geographic areas. One component--landed catch information--
is obtained by monitoring commercial landings, largely in partnership 
with the states and the marine fisheries commissions. In some Alaskan 
fisheries, where the catch is processed at sea, fishery observers 
provide catch data. Observers also conduct at-sea monitoring of bycatch 
and collect information on discards in numerous fisheries in all 
regions. For recreational fisheries, NMFS' Marine Recreational 
Information Program is applying new and improved methods to the 
difficult challenge of estimating total catch by the millions of 
recreational saltwater anglers nationwide.
    NMFS has a strong partnership with the states and the interstate 
marine fisheries commissions to conduct efficient and cost-effective 
monitoring of commercial landings and recreational catches. The 
federally funded Fisheries Information Networks have provided a means 
through which NMFS has been able to work collaboratively with its 
partners to design and implement well-integrated data collection 
programs that meet the management needs of both state-managed and 
federally managed fisheries. Cooperative regional programs--such as the 
Atlantic Coastal Cooperative Statistics Program, the Gulf Fisheries 
Information Network, the Pacific Fisheries Information Network, the 
Pacific Recreational Fisheries Information Network, the Western Pacific 
Information Network, and the Alaska Fisheries Information Network--have 
worked effectively to eliminate unnecessary overlaps, standardize data 
elements and collection methods, and improve the timeliness of data 
processing, statistical analysis, and dissemination of catch statistics 
to all partners. Much of the commercial landings and recreational catch 
data is actually collected, processed, and managed by state agency 
personnel in accordance with procedures developed in collaboration with 
NMFS. Continued funding of the Fisheries Information Networks will be 
crucial for maintaining our current capabilities for monitoring 
commercial and recreational catches.
    NMFS' National Fisheries Information System Program has provided a 
mechanism for cross-regional collaboration and sharing of ideas on how 
best to improve the timeliness, quality, and accessibility of 
commercial and recreational fishery catch information. The Fisheries 
Information System Program has been working to continue to develop 
electronic dealer reporting programs and electronic logbook reporting 
programs to provide more timely and accurate updates on commercial 
landings. The Fisheries Information System Program and the Fisheries 
Information Networks have also been working together to develop and 
implement information management architectures that will enable 
comprehensive access to complete and up-to-date state and Federal catch 
statistics within each region, as well as at the national level. 
Cooperative efforts are now also focused on improving quality 
management of catch data collection programs through enhanced reviews 
and evaluations of the current procedures for quality assurance and 
quality control. Improving the timeliness, accessibility, and quality 
of catch information is extremely important to facilitate the work of 
fishery managers in monitoring the success of implemented fishery 
management regulations.
    Fisheries observers are trained biologists placed on board 
commercial fishing and processing vessels, as well as in some shoreside 
processing plants. They are the most reliable and most unbiased source 
of data on the actual at-sea performance of commercial fisheries. They 
collect data on bycatch, enabling accurate estimations of total 
mortality, a key component of stock assessment modeling. In some 
fisheries, they provide data on catches. They also provide high-quality 
data on interactions with protected species. This information is 
important to ensure that protected species stocks remain healthy and 
their interactions with fisheries are minimized, so that harvest 
opportunities are affected as little as possible. In fiscal year 2012, 
NMFS logged more than 83,000 observer days in 47 fisheries and employed 
974 contracted observers. The observer programs were supported by a 
combination of government funds and industry funds.
    Recreational fisheries are a significant, and sometimes the 
dominant, component of the total catch, particularly in the Gulf of 
Mexico and South Atlantic regions. NMFS has made a substantial effort 
to monitor those fisheries and incorporate data from recreational 
fisheries into fish stock assessments. These data are collected as part 
of NMFS' Marine Recreational Information Program.
Types of biological data collected and how the data are used for 
        management purposes
    Data on fish biology are collected to learn about fish longevity, 
growth, reproduction, movement, and other factors. The biological 
information we collect includes age data for many of our most important 
stocks. With the addition of fish age data, we are able to apply more 
complex and sophisticated stock-assessment models that provide better 
information on changes in fish abundance over time, more direct 
information on fish mortality rates caused by fishing, and more precise 
forecasts of future changes in fish abundance and potential annual 
catch limits. This provides important information about fluctuations in 
productivity and recruitment of new fish into the stock.
    The sources of fish biology information are diverse, with important 
information coming from NMFS monitoring programs, academic studies, 
cooperative research, and other programs. Some important sources are 
fisheries-dependent, which provide key demographic information about 
the fish that are removed from the populations by fishing. For example, 
fisheries observers and dockside monitors take observations (e.g., 
length, weight, sex, and maturity) and collect otoliths (ear bones) 
from fish. The otoliths and their growth rings (similar to the annual 
growth rings in trees) are analyzed in on-shore laboratories. This 
suite of information provides important data for stock assessment 
models, and is vital for tracking changes in stock dynamics. Biological 
data are also collected on NMFS fishery-independent surveys where it 
can be matched to environmental data collected on those surveys. Other 
sources of data on fish biology include cooperative research and 
academic studies. Waiting to get these age data is one of the factors 
that adds time between conducting a survey and updating the assessment 
using the whole, longer time series of catch, abundance, and biological 
data.
How stock assessments are conducted
    All of the data discussed here provide the inputs for stock 
assessments. Passage of the Magnuson-Stevens Fishery Reauthorization 
Act in 2006 resulted in the need for more timely stock assessments to 
ensure overfishing has ended, to set Annual Catch Limits that prevent 
overfishing, and to track progress toward rebuilding overfished stocks.
    NMFS manages 500-plus stocks; however, we had the data and capacity 
to assess an average of only 108 stocks each year from 2008 to 2012. 
Stocks without quantitative assessments have Annual Catch Limits set 
through alternative methods (e.g., averages of recent catches). Of 
these 500-plus stocks, 230 have been identified for inclusion in the 
Fish Stock Sustainability Index. These Fish Stock Sustainability Index 
stocks constitute over 90 percent of U.S. commercial landings, and many 
are important to recreational fisheries. For the Fish Stock 
Sustainability Index stocks, NMFS has been able to assess about 80 per 
year, including annual or biannual updating of important assessments, 
which maintains their status as adequate assessments, as well as some 
first-time assessments. These efforts have increased the number of FSSI 
stocks with adequate assessments from 119 in 2005 to 132 in 2012. For 
the purpose of tracking performance, an assessment is considered to be 
adequate for five years after its most recent update. The overall FSSI 
score--which tracks our knowledge about the stocks and about our 
progress in ending overfishing and rebuilding stocks--has increased by 
63 percent since 2000. That substantial increase shows that investment 
in both science and management improves the sustainability of 
fisheries.
    Assessment Process--Typically a major ``benchmark'' stock 
assessment involves two sets of workshops culminating in a peer-
reviewed assessment. These workshops are open to the public, and 
constituents are encouraged to participate. The first workshop 
typically focuses on data--specifically the catch, abundance, and 
biology data used to calibrate the assessment models. Agency and 
university researchers, fisheries management council representatives, 
and partners get together to summarize and evaluate data sources, 
collection methods, reliability, and applicability of data for 
population modeling. Through a collaborative process, the workshop 
participants develop recommendations on which data inputs to include in 
assessments. Participation by fishermen is extraordinarily important, 
because their on-the-water observations of fish behavior help 
scientists correctly interpret factors such as unexpected changes in 
standardized index surveys.
    The second workshop is held to calibrate the mathematical computer 
model, which generates a simulation of the fish population over time. 
NOAA has several standardized models that it maintains in a Toolbox. 
These models use sophisticated statistical approaches for dealing with 
data gaps and uncertainties, to blend the available data, and to 
forecast results with appropriate confidence intervals. Conceptually, 
this is similar to NOAA's National Weather Service dynamic models, 
which use multiple observations to calibrate complex atmospheric models 
that predict the weather. Even though fish stock assessments operate on 
much longer time scales than weather models--months and years rather 
than hours and days--they similarly combine and incorporate many 
different complex observations into a holistic picture of the 
situation. NOAA scientists run the model with inputted abundance, 
biological, and catch data, which gives us the information to develop a 
stock assessment report that is the basis for a catch limit.
    Independent external scientists review the stock assessment report 
and evaluate the quality of the assessment. They may conclude that the 
science is sound, recommend changes to improve the stock assessment, 
or, in some cases, reject some or all of the attempted analyses in the 
assessment. The peer-review process provides fishery managers and 
constituents with confidence in the integrity of assessments and 
assurance that they represent the best available science. The Magnuson-
Stevens Act clarifies that such peer reviews are a valuable part of the 
management process. The Regional Fishery Management Councils' 
Scientific and Statistical Committees use the peer-reviewed stock 
assessment results as the basis for providing fishing level 
recommendations to their respective Councils. NMFS is working with the 
Councils and their Scientific and Statistical Committees as each 
Council works to implement regionally relevant protocols for peer 
reviews and to expand the role of Scientific and Statistical Committees 
in providing fishing level recommendations.
    Stock Assessment Quality--In addition to the peer review of 
assessments, NMFS is working to improve the quality of the data and 
analyses used in stock assessments. This is vital for maintaining and 
enhancing the accuracy and precision of our stock assessments and the 
credibility of the management actions that depend on them.
    The agency complies with the requirements of the Information 
Quality Act, including OMB's guidance on transparency and balanced 
review of the influential science that is conducted. We have embarked 
on a lengthy process for a comprehensive update of National Standard 2 
of the Magnuson-Stevens Act, which provides guidance on the scientific 
integrity of information used for the conservation and management of 
living marine resources. We anticipate publishing the final rule in the 
Federal Register soon.
    NMFS has also embarked on a systematic process of science program 
reviews to identify strengths, weaknesses, and opportunities for 
improvement. These reviews will be repeated on a five-year cycle. The 
process began in fiscal year 2012, with every NMFS Science Center and 
the Office of Science and Technology conducting a comprehensive 
strategic review of their programs. Now in our second year in fiscal 
year 2013, the agency has initiated a comprehensive review of the 
programs that contribute data to stock assessments. The Science Center 
reviews of data collection processes will be complete this year.
How Federal fishery surveys and assessments are prioritized
    Surveys are prioritized and scheduled to ensure data are available 
on a timely basis to support scheduled assessments. However, most 
surveys are repeated either annually or biennially to ensure a time-
series is available to support the stock assessments. A single survey 
is difficult to use in assessment models. Note also that most surveys 
collect data on multiple species. For example, bottom trawl surveys in 
the Northeast simultaneously collect data on all 20 stocks in the 
Multispecies Groundfish assemblage, as well as numerous other species. 
Even highly specialized surveys provide information on stocks other 
than the target stock. For example, the annual scallop dredge surveys 
are used to provide the scallop abundance data needed for scallop stock 
assessments, and they also provide data on yellowtail flounder used in 
the latter's assessment.
    Stock assessments are prioritized and scheduled regionally through 
discussions between the Councils and NMFS Regional Office and Science 
Center staffs. Priorities are established by evaluating the commercial 
importance of a stock, the age and quality of the existing stock 
assessment, and biological characteristics of the stock. Schedules are 
usually set annually on a three-year rolling basis, and are posted 
online (see http://www.sefsc.noaa.gov/sedar/ for an example).
    The amount and quality of data has a direct effect on the precision 
of the stock assessment result. For example, an economic study in 
Alaska showed that maintaining annual frequency of surveys, compared to 
slowing to biennial surveys, allowed for rapid detection of increases 
in stock abundance and tens of millions of dollars in added value of 
the catch.
How socio-economic data are collected and used
    NMFS' socio-economic data collection program directly supports 
Agency efforts to identify management options that achieve conservation 
objectives while minimizing impacts to fishery participants. These 
efforts result in a management strategy that is consistent with the 
long-term sustainability of the resource as well as the fishery and 
fishing communities. Underpinning this capability are the economic and 
sociocultural data collection programs and surveys that provide the 
information base for meeting statutory mandates for cost-benefit 
analysis and social impact assessments of regulatory actions (e.g., 
fishing ground closures, gear prohibitions, effort reductions, catch 
quotas, etc.). On the commercial side, economic questions are added to 
logbook programs, observer programs, and permit programs to provide 
cost-effective survey vehicles in a number of fisheries. This 
information is used to help estimate the economic value of those 
fisheries. In other commercial fisheries, NMFS relies upon one-time 
surveys that are updated periodically but, ideally, within three to 
five years depending upon survey type. In terms of recreational 
fisheries, NMFS routinely collects expenditure data from saltwater 
anglers every five years and conducts occasional surveys of for-hire 
operations, as well as other angler surveys deemed essential for 
assessing the economic effects of regulations on this group of 
stakeholders.
    In addition to supporting the required management assessments for 
implementing stewardship regulations, the socio-economic data are 
increasingly used to support integrated analyses. For example, BLAST 
(Bioeconomic Length-structured Angler Simulation Tool) is a fully 
integrated and dynamic decision support tool for assessing the benefits 
associated with recreational fishing management options, including 
changes in bag limits, season length, and rebuilding plans. Initial 
applications have been to cod and haddock in the Northeast. A key 
feature of the model is that it integrates recreational fishing 
behavior with age-structured stock assessment models, enabling NMFS to 
realistically project future economic and biological conditions. This 
ecosystem approach to fisheries management provides insight into the 
short- and long-run effects of alternative fisheries policy on both the 
economic and biological health of important recreational fisheries.
    Socio-economic analyses are then used to evaluate the societal 
impacts of management options, which enables fishing regulations to be 
developed that meet requirements to sustain fish stocks while 
minimizing impacts to employment and economic benefits. The Agency is 
also working to develop improved methods for balancing the prevention 
of overfishing against the short-term loss of fishing opportunity.
    How Federal funding is being used for data collection purposes
NOAA uses appropriated funds from several budget lines to support its 
data collection, including the following PPAs:

NMFS:
   Fishery research and management (staff support for all areas)
   National Catch Share Programs (observers and landings data)
   Expand Annual Stock Assessments (surveys and stock assessment 
        support)
   Economics and Social Science Research (social science data and 
        analyses)
   Fishery Statistics (landings data, MRIP, bio-sampling)
   Fishery Information Networks (landings data, MRIP)
   Survey and Monitoring (surveys)
   Reducing Bycatch (observers)
   Enforcement and Observers (observers)
   Cooperative Research (bio-sampling, surveys)
   Regional Studies (surveys)
Office of Marine and Aviation Operations:
   Marine Operations and Maintenance (surveys)
Has the new recreational statistics data program been fully developed 
        and implemented, and does the program meet the goals envisioned 
        by Congress?
    Under the Marine Recreational Information Program, revised methods 
were developed that are being incorporated to substantially reduce 
sources of error and improve the accuracy of effort and catch estimates 
based on a combination of telephone, mail, and access point surveys. An 
improved estimation method was developed and implemented in 2012 to 
provide more accurate 2004-2011 recreational catch statistics for the 
Atlantic coast and Gulf of Mexico. In addition, a new sampling design 
for the Atlantic and Gulf onsite surveys of angler catch was 
implemented in 2013. These revised recreational data sets have already 
been incorporated into stock assessments.
    The Marine Recreational Information Program has also been working 
with our state partners--including Florida, North Carolina, and 
Louisiana--to develop and test new methods that use angler registries 
to survey anglers for production of trip estimates. Following 
completion of major pilot efforts underway in calendar years 2012 and 
2013, a new survey design to replace the coastal household telephone 
survey will be selected and implemented, beginning in 2014, for the 
Atlantic and Gulf coasts. The Marine Recreational Information Program 
and our partners are also developing and testing a number of other 
possible improvements to the current suite of surveys, including:
   Implementing electronic reporting and conducting pilot projects to 
        improve sampling for validation in the Southeast Headboat 
        Survey.
   Pilot testing of electronic logbook reporting with dockside 
        validation for the Gulf of Mexico Charterboat fishery.
   Pilot projects to test improved survey designs that reduce sources 
        of potential error and improve survey coverage in Washington, 
        Oregon, and California.
   Development and testing of new survey methods and improved designs 
        that will enhance data collection and catch statistics in 
        Hawaii, Puerto Rico, and the Virgin Islands, and in Atlantic 
        highly migratory species fisheries.
   Development of methods to produce preliminary estimates more 
        frequently than bi-monthly, which will improve in-season 
        management.
How can new technologies help fishery managers achieve better and more 
        timely information for management purposes?
    NMFS is continually striving to improve and augment its processes, 
methods, and programs for commercial fishery data collection and 
analysis. For example, in the Gulf of Mexico, commercial landings data 
are collected in cooperation with the five Gulf states and the Gulf 
States Marine Fisheries Commission, and are used to track progress 
toward reaching the Annual Catch Limits of managed stocks. By shifting 
from paper dealer reports, submitted semi-monthly, to electronic dealer 
reporting, submitted weekly, more timely data are generated to more 
accurately project when a fishery will reach the Annual Catch Limit. 
This will enable commercial fishermen to more efficiently plan their 
fishing activities, and reduce the risks of exceeding an Annual Catch 
Limit.
    Two fisheries in the Bering Sea-Aleutian Islands Groundfish Fishery 
Management Plan in Alaska currently employ video compliance monitoring. 
The technical requirements for these applications are relatively 
simple; for example, they do not involve complex requirements for 
species identification or measurements. Under Amendment 80, video 
monitoring is used by about half of the vessels in the Alaska head and 
gut catch processor and pollock catcher processor fleets to meet the 
regulations that ensure that no pre-sorting activities occur prior to 
observer sampling. The regulations for Amendment 91 to this Fishery 
Management Plan contain the second electronic monitoring requirement 
that NMFS has implemented in Alaska. Amendment 91 created Chinook 
salmon prohibited species catch limits on the Bering Sea pollock 
fishery for the first time. To monitor the Chinook salmon limits, NMFS 
is striving for a census, or a full count, of Chinook salmon bycatch in 
each haul by a catcher/processor and each delivery by a catcher vessel. 
A camera located in the observer sampling station provides views of all 
areas where salmon could be sorted from the catch as well as the secure 
location where salmon are stored, thus allowing observers to 
comprehensively monitor the salmon bycatch while still performing their 
other required duties.
    Other means of electronic monitoring, including the use of digital 
video cameras, are currently being transitioned to operations 
regionally. For example, NMFS--in cooperation with the Pacific States 
Marine Fisheries Commission and the Pacific Fishery Management 
Council--will implement video monitoring in the West Coast Groundfish 
Trawl fishery. The agency is in the process of implementing region-
specific video monitoring programs cooperatively with industry 
partners. Cooperatively developing electronic monitoring systems with 
local fishermen who work in the affected fisheries is key to ensuring 
that the systems being developed are practical and will reliably and 
efficiently provide the needed data. The program's goal is to implement 
a blended mix of electronic and fishery observer monitoring to provide 
more cost-effective and timely reporting of fish catches.
    NMFS is also striving to conduct more surveys using a number of 
advanced sampling technologies that can achieve higher standardization 
and, in some cases, can directly measure fish abundance at each survey 
location, not just a standardized catch rate. With such information, 
NMFS will be able to provide more precise and accurate assessments 
sooner. At present, these technologies are still in the developmental 
phase, and collecting the data is only the first step toward an 
assessment. Optical and sonar sensors produce huge volumes of data, and 
NMFS is just beginning to work on methods to process these data types 
and bring the results into our assessments. In the future, these 
technologies will enable greater efficiency and increased accuracy and 
precision for our assessments, but these benefits will take some years 
to be realized.
    NMFS also expects to develop new and innovative approaches to 
surveying fish stocks in hard-to-survey areas. For example, we are 
funding a multi-year research project with an academic partner to 
explore the use of towed camera arrays for use in surveying reef fishes 
in the Gulf of Mexico and Pacific Islands. If feasible, shifting to 
this approach would dramatically increase the effectiveness and 
efficiency of our reef fish surveys--meaning more science for the 
dollar. In another example, NMFS scientists are engaged with academic 
partners to develop improved methods for surveying Atlantic sea 
scallops. This includes the Woods Hole Oceanographic Institution's 
towed camera technology and the University of Massachusetts' dropped 
camera system that uses video stills on scallop beds for analysis.
What are the challenges to ensuring NMFS ability to collect abundance 
        data for stock assessments?
    There are a number of challenges to collecting abundance data for 
stock assessments. I will highlight three. First is the ability to 
understand the relationship between fish stocks and the environment and 
determining how that will impact future stock abundance. Given the 
impacts of climate change, historical datasets are becoming less 
reliable in predicting future stock productivity. This makes ocean 
``process'' studies increasingly important. Expanded funding requested 
in a variety of budget lines in NOAA's fiscal year 2014 budget will 
increase focus on these important studies. The second challenge is 
finding ways to sample hard-to-survey bottom types such as coral reefs. 
Advanced sampling techniques, such as video technology can help and the 
agency is expanding partnerships to explore these techniques. The third 
challenge is that the capacity of the NOAA Fleet to support fishery 
surveys has eroded over time due to increased lifecycle costs of 
vessels. While advanced sampling technologies offer cost and data 
collection efficiencies to supplement ship surveys, these systems and 
moored sensors must be deployed and serviced by the NOAA Fleet, and 
there are many vital survey operations that still must be conducted by 
scientists and fishermen working off of the NOAA ships. The fiscal year 
2014 President's Budget Request includes an increase for OMAO to 
provide more Days at Sea and fully utilize the NOAA Fleet assets. This 
increase would support a utilization rate of about 94 percent--an 
approximate 40 percent increase over fiscal year 2012.
How can the Act be modified to provide better data collection 
        activities, and how can these activities improve the scientific 
        underpinnings of our current management activities?
    The quality of scientific advice provided to management has been a 
major reason the United States has become a model of responsible 
fisheries management. Direction provided by the Magnuson-Stevens Act 
has been crucial to NOAA's scientific program. However, this is not to 
say that we cannot continue to improve the scientific guidance we 
provide.
    The conference, Managing Our Nation's Fisheries--cosponsored by the 
eight Regional Fishery Management Councils and NMFS--concluded a little 
over a week ago. The conference focused on three broad themes: (1) 
improving fishery management essentials, (2) advancing ecosystem-based 
decisionmaking, and (3) providing for fishing community sustainability. 
Presentations and discussions that occurred at this meeting frequently 
focused on the importance of improved scientific advice. We expect to 
analyze the results of these discussions for guidance on 
reauthorization of the Magnuson-Stevens Act. These analyses and our 
continuing discussions with Congress, our partners, and stakeholders 
should lead to further improvements in our scientific advice under the 
Magnuson-Stevens Act umbrella.
    Thank you again for the opportunity to discuss fisheries data 
collection programs under the Magnuson-Stevens Act. I am available to 
answer any questions you may have.
                                 ______
                                 
    Dr. Fleming. Thank you, Dr. Merrick.
    The Chair now recognizes Mr. Fisher for 5 minutes.

 STATEMENT OF RANDY FISHER, EXECUTIVE DIRECTOR, PACIFIC STATES 
                  MARINE FISHERIES COMMISSION

    Mr. Fisher. Thank you, Mr. Chairman. My name is Randy 
Fisher. I am the Executive Director of Pacific States Marine 
Fisheries Commission. The Commission represents the States of 
Washington, Oregon, Idaho, California, and Alaska. The 
Commission manages a bunch of large projects that focus on 
scientific inventory and economic research and data collection. 
Today I will focus on two data collection activities and I will 
offer some thoughts on the future of some of the activities 
that we are involved with.
    The first data collection activity I will focus on is the 
Recreational Fisheries Information Network, or RecFIN. RecFIN 
is a cooperative effort between the State fishery agencies of 
Washington, Oregon, California, the Commission, and the 
National Marine Fisheries Service. The RecFIN data base 
contains recreational fisheries data from 1980 to the present.
    The primary source of this data in the data base comes from 
sampling programs that are funded by the National Marine 
Fisheries Service and the State agencies. The survey is spread 
out over 800 fishing sites on the 3 West Coast States. About 57 
percent are in California; 10 percent are in Oregon; and 33 
percent in Washington. The number of marine anglers in these 
States total 1.4 million. Total cost of this program is about 
$5.7 million, with the National Marine Fisheries Service 
contributing $2 million, or about 36 percent of the cost.
    Each of these States have marine fishing licenses, with an 
annual average cost of $44 and a daily cost of about $14. A 
total of about 40 percent of all ocean boat angler trips were 
sampled in Oregon in 2011. The State of Washington conducted 
their ocean boat survey and Puget Sound boat survey in 2011. 
Sampling rates were about 40 percent of all ocean trips. In 
California in 2011, over 90,000 angler trips were sampled 
during a 12-month sampling period.
    Two States utilize their angler license frame for 
estimating fish efforts in certain modes of fishing. These 
include the Puget Sound boat trips in Washington and private 
access and night boat trips in California. All other modes of 
fishing in the three States are estimated from direct field 
counts. Catch information is estimated by month and made 
available to the three States and the Pacific Fisheries 
Management Council.
    The second data of activity is our Pacific Fisheries 
Information Network, or PacFIN. This network is the Nation's 
first regional data program. Data from commercial fisheries 
occurring in the ocean and off the coasts of Washington, 
Oregon, Alaska, and California, and British Columbia provided 
to PacFIN's central data base. PacFIN's central data base 
includes fish tickets and vessel registration provided by the 
States and the fisheries agencies. In addition, data sources 
supply specific species composition and catch by area, 
developed from the port sampling and trawl books. Best 
estimates of catch of each of the groundfish species by month, 
area, and gear type are developed from sources from the 
National Marine Fisheries Service, U.S. Coast Guard, Alaska 
Department of Fish and Game, and the Canadian Department of 
Fisheries and Oceans.
    On the West Coast we have 272 federally licensed commercial 
groundfish vessels; 119 of these are involved in the catch 
share program. Annual cost of this program is around $6 
million. Historically, the National Marine Fisheries Service 
has contributed close to $3 million, or about 50 percent of the 
cost. However, in 2013, this will be decreased to about $2.4 
million.
    Concerning the future of new technology, I will discuss 
three that we are involved with. First, electronic fish tickets 
and electronic compliance monitoring. Pacific States Marine 
Fisheries Commission continues to develop and support 
expansions of software applications to the current West Coast 
electronic fish ticket program. eTicket software is provided 
free to registered fish buyers in all the States, and can 
capture up to 27 West Coast fish tickets. A web portal was 
developed to provide download access to software and updated 
and submitted tickets. In addition, software was developed to 
simplify the installation process and to automate the process 
of submitting data directly to a web portal.
    The program has been fairly successful. For instance, 23 
percent of the fish tickets, representing 70 percent of the 
pounds, were captured electronically in Oregon. With respect to 
compliance monitoring program, an electronic data capture 
application was developed to capture data from plant monitors. 
This program has been in place since the beginning of the West 
Coast catch share program.
    Second, electronic log books. In the West Coast, electronic 
log books are a State requirement for each of the States' set 
of log books. The exception is the trawl book, or a single log 
book for each of the States. The Commission is considering 
adopting one of two electronic log books currently in use, one 
developed in Alaska and the other in the Northeast.
    The third, electronic monitoring cameras. The Pacific 
States Marine Commission has been very involved in developing 
the electronic monitoring compliance program in West Coast and 
Alaska. The program does not replace the current 20 percent 
biological sampling that has existed on the West Coast for some 
time. The focus on compliance monitoring is to account for all 
fish that are caught and those that are discarded.
    The goals of this are simple. First, we want to maintain 
integrity of the existing system to gather biological data. 
Second, we want to save money for fishermen and management. 
Third, we want to ensure the compliance of landing and discard 
data. Fourth, we want to integrate with electronic logbooks. 
And, fifth, we will look for opportunities to add to stock 
assessments. We have looked closely at the Canadian system, and 
it works. Basically, it compares camera footage to a skipper's 
logbook. Any differences are the basis for further 
investigation and possible enforcement actions. We are 
currently comparing observer data to camera images to ensure 
the confidence of the catch and discards.
    The fishermen may have to change how they fish, but the 
cost savings may be attractive enough to make them change. We 
still have to work out some examples. For example, what is a 
discard? We have to work out some enforcement issues. What 
happens if someone puts a bucket over a camera? And we have to 
look at costs. If you carry a camera instead of an observer, 
how much will it cost the fisherman? We may have----
    Dr. Fleming. Mr. Fisher, thank you. Your entire testimony 
will appear in the written record, but you are already a minute 
over the allotted five.
    Mr. Fisher. Sorry.
    Dr. Fleming. So we thank you.
    [The prepared statement of Mr. Fisher follows:]

            Statement of Randy Fisher, Executive Director, 
               Pacific States Marine Fisheries Commission

    Good Morning. My name is Randy Fisher and I am the Executive 
Director of the Pacific States Marine Fisheries Commission. The 
Commission represents the States of Washington, Oregon, Idaho, 
California and Alaska.
    The Commission manages a number of large projects that focus on 
scientific, inventory and economic research and data collection.
    Today I will focus on three data collection activities, and I will 
offer some thoughts on the future, based on activities in which the 
Commission are involved.
    The first Data Collection activity I will focus on is our 
Recreational Fisheries Information Network or RecFIN.
    RecFIN is a cooperative effort between the state fishery agencies 
in Washington, Oregon, and California, the Pacific States Marine 
Fisheries Commission (the Commission), and National Marine Fisheries 
Service (NMFS). The four goals of RecFIN are:
   Develop and implement a State/Federal cooperative program for a 
        coastwide marine recreational fisheries data system;
   Coordinate collection, management, and dissemination of Pacific 
        coast marine recreational fishery data;
   Provide the data in a central location on a timely basis in the 
        format needed to support state and Federal work on Pacific 
        marine recreational fisheries; and
   Reduce and avoid duplication of data collection efforts between 
        RecFIN members.
    The data base contains recreational fishery data for the years 
1980-89 and 1993 to the present. The primary source of data in the 
RecFIN data base comes from the following five state sampling programs: 
Oregon Recreational Boat Survey and the Oregon Shore and Estuary Boats 
Survey; Washington Ocean Sampling Program and the Washington Puget 
Sound Boat Survey; and the California Recreational Fisheries Survey. 
These programs are funded by NMFS along with state agency funding in 
all three states. The survey is spread out over about 800 fishing sites 
coastwide in the three states. Of these sites, about 57 percent are in 
California, 10 percent in Oregon and 33 percent in Washington State.
    The number of marine anglers in these states total 1,400,000. Total 
cost of this program is $5,700,000 with the National Marine Fisheries 
Service contributing $2,000,000 or 36 percent of the cost. Each of 
these states have marine licenses with an annual average cost of $43.54 
and a daily cost of $14.24.
    Pacific States Marine Fisheries Commission provided partial funding 
for sampling in Oregon and Washington through the RecFIN. Sampling was 
conducted by the states. A total of about 40 percent of all ocean boat 
angler trips were sampled in Oregon in 2011, where sampling occurred 
from March through October. A pilot survey funded through the Marine 
Recreational Information Program (MRIP) from National Marine Fisheries 
Service, allowed for winter sampling and sampling of minor ports that 
has not been done in a few years. As a result sampling occurred year 
round in 2011 in Oregon.
    The State of Washington conducted their Ocean Boat survey and the 
Puget Sound Boat Survey in 2011. Sampling occurred throughout the year 
in Puget Sound and also year round on the coast. Sampling rates were at 
about 40 percent of all ocean boat trips.
    In California, in 2011, over 90,000 angler trips were sampled 
during the 12 month sampling program.
    Two states utilized their angler license frame for estimation of 
fishing effort in certain modes of fishing. These include Puget Sound 
Boat trips in Washington and shore and private access and night boat 
effort in California. All other modes of fishing in the three states 
are estimated from direct field counts.
    All catch and effort information for each sampling month from the 
various surveys are loaded into the RecFIN data base maintained at 
PSMFC with a one-month lag time. Detailed explanations of the sampling 
conducted, sampling methodology and estimation statistics of the 
various sampling programs along with catch and effort information and 
estimates by month are available for all three states (Oregon, 
Washington, and California) and the Pacific Fishery Management Council.
    The second Data Collection activity is our Pacific Fisheries 
Information Network or PacFIN. This network is the nation's first 
regional fisheries data network. PacFIN is a joint Federal and state 
project focused on fisheries data collection and information 
management. PacFIN provides timely and accurate data to aid effective 
management of fisheries and fishery resources.
    Data from fisheries occurring in ocean areas off the coasts of 
Washington, Oregon, California, Alaska, and British Columbia are 
provided to the PacFIN central data base.
    The PacFIN central data base includes fish-ticket and vessel 
registration data provided by the Washington, Oregon, and California 
state fishery agencies. In addition the data sources supply species-
composition and catch-by-area proportions developed from their port 
sampling and trawl logbook data systems.
    The National Marine Fisheries Service, Northwest Region, supplies 
the central data base with limited-entry permit data and also 
incorporated is the vessel data provided by the U.S. Coast Guard. The 
National Marine Fisheries Service, Alaska Fishery Science Center inputs 
weekly aggregates developed from their tow-by-tow observer data base.
    The data for the Alaska groundfish fishery are provided by the 
Alaska Department of Fish and Game and the National Marine Fisheries 
Service, Alaska Region in the form of monthly aggregates, for fish 
caught in Alaska waters but landed in Washington ports.
    The Department of Fisheries and Oceans, Canada also makes a 
contribution to this West Coast fisheries data system.
    The best estimates of catch for each groundfish species by month, 
area, and gear-type are developed from the source data just-mentioned.
    PacFIN staff provides historical landings data since 1981 as well 
as support with data retrievals, analyses and review of the National 
Marine Fisheries Service's catch share calculations for the West Coast 
trawl rationalization/Individual Fishing Quota program. This 
information is used to provide Quota Shares/Quota Pounds to the fleet.
    On the West Coast we have 272 federally licensed vessels, 119 of 
those are in the Catch Share Program.
    The annual cost of this program is has been around $6,000,000. 
Historically the National Marine Fisheries Service has contributed 
close to $3,000,000 or 50 percent of the cost, however in 2013, this 
will drop to $2,400,000.
    The third Data Collection Activity is our Alaska Fisheries 
Information Network of AKFIN.
    AKFIN was established in 1997 with the goal to acquire and 
consolidate the vast quantity of data generated by the Alaska 
fisheries, to provide quantitative analyses and interpretations of 
these data, and then to disseminate the processed information to 
fishery analysts, scientists, economists, and other administrative 
agencies.
    AKFIN maintains an extensive data library from which information is 
used to fulfill data requests. AKFIN provides direct access to much of 
the information maintained in the data library via a secure connection.
    The primary purpose is to provide complex data sets to fisheries 
analysts and economists to support the Council's decisionmaking 
process.
    AKFIN consolidates the agency data sources into a single, 
comprehensive data base, applying value-added information to provide a 
standardized view of the Alaska commercial fisheries data for analytic 
purposes.
    AKFIN supports the data needs of fisheries analysts and economists 
by consolidating commercial fisheries data and dispensing that data 
upon request using custom programming service and on-line tools. 
Information is aggregated from the Alaska Department of Fish and Game, 
Division of Commercial Fisheries, Commercial Fisheries Entry 
Commission, National Marine Fisheries Service Alaska Region, Alaska 
Fisheries Science Center, North Pacific Science Center, North Pacific 
Fishery Management Council and Pacific States Marine Fisheries 
Commission.
    AKFIN reports catch data, harvest and value from commercial 
fisheries in Alaska using the best available data from data source 
agencies. Once these data are incorporated into its system, AKFIN 
reports information from several critical perspectives, which are used 
to identify and quantify impacts related to changes in fisheries 
management. These include species, area, gear, vessel, processor, 
community, and fishery participants by season.
    AKFIN has an online reporting tool that provides authorized stock 
assessors, social scientists, and economists with direct access to 
AKFIN's analytical data base and metadata resources. This tool allows 
users to access prepared reports and to formulate ad-hoc queries that 
can be saved and shared with other analysts.
    Concerning the future and new technology, I will discuss three that 
we are involved with:

      First--Electronic Fish Tickets and Electronic Compliance 
            Monitoring
      Second--Electronic Log Books
      Third--Electronic Monitoring u i.e. Camera's
First--Electronic Fish Tickets and Electronic Compliance Monitoring:
    The Pacific States Marine Fisheries Commission continues to develop 
and support the expansion software applications for the current West 
Coast Electronic Fish Ticket Reporting and Compliance Monitoring 
Program. E-ticket software is provided free to registered fish buyers 
in all here states and can capture data for any of the 27 West Coast 
tickets. A web portal was developed to simplify creation of reporting 
organizations and provide download access to software, updated and 
submitted tickets. In addition, software was developed to simplify the 
installation process and automate the process of submitting the data. 
The submission updates shifted data access by email to a direct web-
reporting process.
    This application has been in use since 2007 when it was adopted by 
the National Marine Fisheries Service as the official landing records 
for the whiting fishery. With the introduction of the Catch Shares 
program in 2011, Pacific States Marine Fisheries Commission (PSMFC) 
electronic tickets were identified as the official record for all catch 
share landings.
    In 2012 Oregon adopted the PSMFC electronic fish ticket as the 
official record for all its different fish tickets. Oregon dealers who 
submit tickets electronically are no longer required to submit paper 
copies of these tickets. This program has been fairly successful in 
use. 23 percent of the fish tickets, representing 70 percent of the 
landed pounds are captured electronically in Oregon.
    Washington is next, adopting the electronic ticket for one of its 
six ticket types. In 2012, electronic tickets accounted for less than 1 
percent of the total number of tickets submitted but captured almost 19 
percent of the pounds landed.
    With respect to the Compliance Monitoring program, an electronic 
data capture application was developed to capture the data from the 
monitors and submit it to PSMFC.
    This program has been in place since the beginning of the West 
Coast Catch Shares program.
Second--Electronic Log Books:
    On the West Coast, Log Books are a state requirement and each state 
has its own set of log books. The exception is the Trawl logbooks which 
is a single logbook adopted by all three states.
    In 2008, PSMFC developed an electronic log book at the request of 
the trawl fleet. Pacific States Marine Fisheries Commission is 
considering adopting one of two electronic
    logbooks currently in use, one developed in Alaska, the other in 
the Northeast. PSMFC has a grant to adapt the Northeast logbook for use 
with the highly migratory fleet fishing primarily out of the Southwest.
    We believe electronic log books will be a tool in the future 
especially in IFQ Fisheries. For this to be effective it will require a 
Federal Log Book program by regulation.
Third--Electronic Monitoring--i.e. Cameras:
    Pacific States Marine Fisheries Commission has been very involved 
in developing an Electronic Monitoring Compliance Monitoring Program 
for the West Coast and Alaska. This program does not replace the 
current 20 percent biological sampling program that has existed on the 
West Coast for some time. The focus is on compliance that is accounting 
for all the fish that are caught and those that are discarded.
    In 2013, we will have cameras on 7 fixed gear boats, 2 whiting 
boats and 13 trawlers.
Goals:
    The goals of the projects are simple. First, we want to first 
maintain the integrity of the existing system that gathers biological 
data, second we want to save some money for the fishermen and 
management, third, we want to insure the confidence of the landing and 
discard data.
    Fourth, we want to integrate with electronic logbooks and,
    Fifth, we want to look for opportunities to add to stock assessment 
interaction.
    We have looked closely at the Canadian system and it works. 
Basically, it compares camera footage to the skipper's log book. Any 
differences are the basis for further investigation and possible 
enforcement action.
    We are currently comparing observed data to camera images to insure 
we are confident in accounting for catch and discards.
    In order for us to move to cameras the Pacific and North Pacific 
Councils and the National
    Marine Fisheries Service have to be confident that cameras can 
work.
    Fishermen may have to change how they fish.
    We will have to work out definitions, i.e. ``what is a discard''. 
We have to work out enforcement issues, i.e., ``what happens if someone 
puts a bucket over the camera'', and we have to work out cost issues 
i.e., ``if you carry a camera instead of an observer, how much will 
that cost the fisherman''.
    We have had many discussions with the fleet, with enforcement, and 
with the scientists and the bottom line is that these are show 
stoppers.
    Concerning amendments to the Act that could provide better data 
collection activities, I do not have any specific recommendations.
    I believe the Act provides the framework that can result in better 
data collection.
    Our experience has been that better data collection is usually 
related to better funding.
                                 ______
                                 
    Dr. Fleming. Mr. Beal, you are now recognized for 5 
minutes.

 STATEMENT OF ROBERT BEAL, EXECUTIVE DIRECTOR, ATLANTIC STATES 
                  MARINE FISHERIES COMMISSION

    Mr. Beal. Thank you, Mr. Chairman. Good morning, Mr. 
Chairman and members of the Subcommittee. I am Bob Beal, the 
Executive Director of the Atlantic States Marine Fisheries 
Commission. The Commission was formed in 1942 by the 15 
Atlantic coastal States in recognition that they can do more 
working cooperatively than they can working independently. It 
is a particular pleasure to appear before the Subcommittee 
today to comment on data collection issues in relation to the 
reauthorization of the Magnuson-Stevens Act.
    Data provide the basis for the U.S. fisheries management. 
The Commission alone relies on quality data to support its 25 
fishery management programs. Success, in terms of sustainable 
management, stakeholder confidence, lies in the accuracy, 
reliability, and timeliness of the data. Given the Atlantic 
coastal fishery resources generate billions of dollars of 
economic activity and hundreds of thousands of jobs, it is 
essential that we continue to invest in the collection and 
management of high quality and timely data.
    The Commission and its member States support various 
fishery-dependent and fishery-independent data collection 
methods. Both types are critical for our management process. 
Fishery-dependent data is collected directly from commercial 
and recreational fishermen through harvester and dealer 
reports, observer programs, and broad surveys of the 
recreational sector. Fishery-independent data provides insights 
into the status of fish stocks without the biases inherent to 
commercial and recreational catch information.
    The Commission coordinates two regional, independent data 
collection programs: the South Atlantic component of the 
Southeast Area Monitoring and Assessment Program, SEAMAP, and 
the Northeast Area Monitoring and Assessment Program, which is 
NEAMAP.
    The Commission also coordinates several species-specific 
research activities for horseshoe crab, American lobster, red 
drum, and northern shrimp.
    With regards to how new technologies can improve the 
management process, I will speak to the program that the 
Commission knows best, the ACCSP, the Atlantic Coastal 
Cooperative Statistic Program. In the past 10 years, ACCSP has 
made significant advances in electronic reporting on the 
Atlantic Coast. In 2003, ACCSP created the Standard Atlantic 
Fisheries Information System, or SAFIS. This is an online, 
electronic reporting system designed to meet the increasing 
need for real-time commercial landings data.
    Over time, the use of SAFIS has expanded throughout the 
Atlantic Coast to become the de facto dealer reporting system, 
providing up-to-date landings information. To date, SAFIS 
includes 4 million dealer records, approximately half-a-million 
trip records, and 6,700 volunteer angler records.
    While the current data collection programs are adequate to 
support species stock assessments and responsible stewardship, 
there are opportunities for improvements. Several important 
State and species-specific surveys have been discontinued or 
significantly reduced over the past 5 years. We need to restore 
this survey work and provide dedicated and consistent long-term 
funding.
    One significant example is the horseshoe crab trawl survey 
that will not occur this year, due to lack of funding. The 
survey was historically funded by NOAA fisheries, and then 
through private donations for the past 2 years. However, the 
funding is not available for this year's survey. This gap in 
horseshoe crab data will directly impact the Commission's 
ability to assess the crab population and establish appropriate 
harvest quotas. Also, SEAMAP has to reduce sea days and 
sampling intensity due to level funding and rising costs.
    Regarding recreational data collection, the implementation 
and refinement of the MRIP program, the Marine Recreational 
Information Program, must be supported by adequate resources 
and State Federal partnerships. Over the past 5 years, the 
focus of MRIP has been the development of new methodologies to 
address the previous survey shortcomings. Now the program is 
focusing on implementing these new methodologies. As these 
methodologies are implemented, it is critical that the States 
and Federal Government work together to implement these new 
methodologies and evaluate the impact and effect that they 
have.
    MRIP is designed to meet the national standards by 
providing good precision at a regional level. The survey is not 
designed to provide robust, State-level recreational harvest 
estimates. To address this unmet need, many Atlantic coastal 
States have diverted State funds, ACCSP funds, and 
Interjurisdictional Fisheries Act funds to support increased 
MRIP sampling. Support should be provided to MRIP to produce 
harvest estimates with reasonable precision at each State 
level.
    The ACCSP has made significant progress during the past 15 
years. However, as this program continues to mature, resources 
will be needed to expand its scope and value. ACCSP can be 
expanded to include fishery-independent surveys to bring both 
fishery-dependent and independent data into one data warehouse. 
This will reduce the time and effort needed to conduct stock 
assessments. This step currently takes many months or longer to 
complete.
    Also, ACCSP can be expanded to include traceability of 
Atlantic seafood products with the goal of improving economic 
return for domestic fisheries. This program could be similar to 
the successful Gulf trace program--Gulf seafood trace program.
    In closing, it is important to reiterate that good data 
supports sound science and informed decisions. We must seek 
efficiencies in how we collect and manage data, as well as 
ensure that there is consistent, dedicated funding over the 
long term. The alternative is more precautionary decisions 
which lead to foregone harvest and reduced economic returns to 
the coastal communities and States that depend on them.
    I would be pleased to answer any questions when we get to 
that part of the hearing.
    [The prepared statement of Mr. Beal follows:]

             Statement of Robert Beal, Executive Director, 
              Atlantic States Marine Fisheries Commission

    Chairman Fleming and Members of the Subcommittee, I am Robert Beal, 
Executive Director of the Atlantic States Marine Fisheries Commission 
(Commission). The Commission is comprised of the fifteen Atlantic 
coastal states and carries out a diverse array of programs for its 
members with the goal of restoring and sustaining Atlantic coastal 
fisheries. The Commission provides a forum for interstate cooperation 
on fisheries that cross state borders and thus cannot be adequately 
managed by a single state. Congress authorized the Commission in 1942; 
and granted us increased management authority in 1984 with the Atlantic 
Striped Bass Conservation Act, and again in 1993 with the Atlantic 
Coastal Fisheries Cooperative Management Act (Atlantic Coastal Act). I 
hope to be a resource to the Subcommittee as it continues the process 
of reauthorizing the Magnuson-Stevens Fishery Conservation and 
Management Act (MSFCMA).
    I commend the Chairman for holding the second MSFCMA 
reauthorization hearing of 2013 on the issue of data collection. Data, 
both fishery-dependent (as in catch and effort) and fishery-independent 
(as in data collected through scientific surveys), provide the basis 
for the marine fisheries management in the United States. The 
Commission alone relies on data to conduct and assess its 25 fishery 
management programs. The ultimate success of these programs in terms of 
sustainable management and stakeholder confidence lies in the accuracy, 
reliability, and timeliness of the data we use to inform our stock 
assessments and decisionmaking. Given that Atlantic coastal fishery 
resources generate billions of dollars of economic activity to the 
Nation and hundreds of thousands of jobs in our coastal communities, it 
is essential that we continue to invest in the collection and 
management of high quality and timely data. Without good data, there is 
no successful management of America's fisheries.
ATLANTIC STATES MARINE FISHERIES COMMISSION FISHERY-RELATED DATA 
        COLLECTION ACTIVITIES
    The Commission and its member states support various fishery-
dependent and fishery-independent data collection methods, and use data 
compiled by those methods to conduct stock assessments and develop 
fishery management plans (FMPs). Fishery-dependent and independent data 
collection methods and the data that they provide are critical to our 
stock assessment and fisheries management processes. Operating with 
insufficient data could cause the Commission and the states to 
implement overly conservative management measures to address increased 
uncertainty in landings and population estimates and ensure species 
sustainability.
Fishery-Dependent
    Fishery-dependent data is collected directly from commercial and 
recreational fishermen through harvester and dealer reports, observer 
programs, and broad surveys of the recreational sector. The Commission 
and its member states participate in and use three primary data 
collection programs: the Atlantic Coastal Cooperative Statistics 
Program (ACCSP), NOAA Fisheries Commercial Fisheries Statistics, and 
the Marine Recreational Information Program (MRIP).
            ACCSP
    ACCSP is a cooperative state-Federal marine fisheries statistics 
data collection program that integrates data from multiple state/
Federal sources into a single data management system to meet the needs 
of fishery managers, scientists, and fishermen. ACCSP was established 
to be the principal source of fishery-dependent information on the 
Atlantic coast. The ACCSP provides data for a number of fisheries 
management purposes. These include: FMPs, dealer reporting compliance; 
quota and compliance monitoring; stock assessments; landings history 
and trends (e.g., track past commercial catch levels by state, revenue 
data by vessel); quality control against other sources; fisheries 
characterizations; develop catch-per-unit-effort indices; and fishery 
participant information (counts of fishermen, dealers, and/or vessels). 
ACCSP is housed within the Commission but functions separately. The 
Commission is a partner within ACCSP, and provides administrative and 
logistical support services to the ACCSP.
            NOAA Fisheries, Fisheries Statistics Division
    ACCSP created the Data Warehouse, an online data base populated 
with fishery-dependent data supplied by their program partners. These 
publicly searchable data are also used by the NOAA Fisheries, Fisheries 
Statistics Division and compiled as part of the Fisheries of the U.S. 
data set.
            MRIP
    MRIP was mandated by the last Magnuson-Stevens Reauthorization to 
replace Marine Recreational Fishery Statistics Surveys (MRFSS) and 
improve the collection, analysis, and use of recreational saltwater 
fishing information. Overseen and conducted by NOAA Fisheries, MRIP is 
a two part survey comprised of a field intercept component and an 
effort survey. Field interviews are generally conducted at the end of 
an angler's fishing trip at fishing access sites, while the effort 
survey is conducted via telephone interviews to individual households. 
I will discuss MRIP in greater detail in a following section.
Fishery-Independent
    Fishery-independent monitoring provides insight into the status of 
fish stocks without the biases inherent to commercial and recreational 
catch information. The Commission coordinates two regional fishery-
independent data collection programs u the South Atlantic component of 
the Southeast Area Monitoring and Assessment Program (SEAMAP) and the 
Northeast Area Monitoring and Assessment Program (NEAMAP), as well as 
several species-specific research surveys for horseshoe crab, American 
lobster, red drum, and northern shrimp.
            NEAMAP
    NEAMAP is a cooperative state/Federal fishery-independent research 
and data collection program established in 1998 for the coastal waters 
from Maine to North Carolina. Its partners include the states from 
Maine to North Carolina, the Commission, NOAA Fisheries Northeast 
Fisheries Science Center (NEFSC), the Mid-Atlantic and New England 
Fishery Management Councils, and the U.S. Fish and Wildlife Service 
(USFWS). The program was developed to respond to the lack of adequate 
survey coverage and coordination in the coastal waters of the Mid-
Atlantic/Northeast Region. In particular, its Southern New England/Mid-
Atlantic (SNE/MA) NEAMAP Nearshore Trawl Survey was designed by 
scientists and stakeholders to address a void in shallow water sampling 
created when the Federal trawl survey changed research vessels and 
decreased sampling coverage in nearshore waters. Piloted in 2006, the 
SNE/MA Nearshore Trawl Survey is about to complete six full years of 
surveys. The survey samples inshore waters from Cape Hatteras, North 
Carolina, northward to Martha's Vineyard, Massachusetts in the spring 
and fall of each year. As of 2012, the survey has sampled over six 
million fish, representing 173 species. In total, it has collected over 
800,000 individual length measurements and age and diet information for 
more than 80,000 fish. The survey data complements results from the 
NOAA NEFSC Trawl Survey, which samples in deeper, offshore waters of 
the Mid-Atlantic and New England. NEAMAP also includes the Maine-New 
Hampshire Inshore Trawl Survey, as well as the Massachusetts Inshore 
Trawl Survey.
    In addition, the use of a commercial fishing vessel has enhanced 
public acceptance of the survey approach. The scientific, industry, and 
public acceptance of the survey and its results confirm its value. 
Having successfully completed 13 fishery-independent surveys, NEAMAP 
has established a solid start to a long-term series of fishery-
independent data. With additional years of sampling, NEAMAP will become 
an increasingly valuable source of fishery-independent data to support 
and improve stock assessments.
            SEAMAP
    SEAMAP is a cooperative program that facilitates the collection, 
management, and dissemination of fishery-independent data in the 
Southeastern U.S. and Caribbean through long-term surveys. Implemented 
in the early 1980s, SEAMAP represents one of the longest running 
fishery-independent data series in the nation. The Commission manages 
the South Atlantic region of SEAMAP. Partners in SEAMAP-South Atlantic 
include the state marine fisheries agencies of North Carolina, South 
Carolina, Georgia, and Florida; the South Atlantic Fishery Management 
Council; NOAA Fisheries; and USFWS. SEAMAP provides funds to involve 
regional member organizations in the coordination of fishery-
independent sampling activities in light of the fact that no single 
state or Federal fishery management agency has the resources to meet 
the objectives of existing management plans alone. SEAMAP's integrated 
approach to fishery-independent data collection can fulfill priority 
data needs for the development of FMPs in the Southeast region. The 
long-term goal is a web-based information system that facilitates data 
entry, error checking, data extraction, dissemination, and summary of 
fishery-independent data and information for all ongoing SEAMAP-South 
Atlantic surveys and special studies. It is envisioned that the data 
system would be a relational data base for simultaneous access to a 
number of fishery-independent data programs. Spatial presentations of 
SEAMAP and other South Atlantic fishery-independent data will be 
available through a developing regional GIS Service managed by the 
Florida Fish and Wildlife Research Institute for the South Atlantic 
Fishery Management Council.
            Species-Specific Surveys
    The Commission also coordinates a number of species specific 
surveys along the Atlantic coast, including horseshoe crab, lobster, 
red drum, and northern shrimp surveys.
    The Horseshoe Crab Trawl Survey is the only fishery-independent 
survey designed to sample the horseshoe crab population in coastal 
waters. Its data are a critical component of the Commission's coast 
wide stock assessment and the newly adopted Adaptive Resource 
Management (ARM) framework that incorporates both shorebird and 
horseshoe crab abundance levels to set optimized horseshoe crab harvest 
levels for the Delaware Bay area.
    The American lobster stock was recently evaluated through a stock 
assessment, and the need for more data on juvenile lobster data was 
apparent. To address this need, the states of Maine through New York 
performed a collaborative Ventless Lobster Trap Study from 2006 to 
2011. Currently, the study has been discontinued due to a lack of 
funding.
    The Adult Red Drum Longline Survey began in 2006 and covers the 
waters of North Carolina, South Carolina, and Georgia. The main purpose 
of the study is to determine annual abundance estimates for the adult 
offshore component of red drum, a critical but missing ingredient in 
evaluating the status of the red drum population, especially the adult 
portion, and developing a successful red drum management program.
    An annual trawl survey for northern shrimp is conducted in the 
western Gulf of Maine each summer aboard the R/V Gloria Michelle. The 
survey is a collaboration of the NEFSC's Ecosystems Survey Branch, the 
Commission, and biologists from Maine, New Hampshire, and 
Massachusetts. The survey is a valuable tool for consistently 
evaluating the stock's condition and forms the basis of the management 
program's annual specification setting process. It is funded wholly 
through Atlantic Coast Act funding.
    In addition to these broad cooperative surveys, numerous nearshore 
surveys are conducted by the states. These surveys, which are largely 
funded by the Atlantic Coastal Act and the Interjurisdictional 
Fisheries Act, provide critical nearshore fisheries data for use in 
interstate and regional stock assessments. These surveys include: 
American lobster sampling in New England; monitoring state quotas of 
black sea bass, summer flounder, and striped bass in the Mid-Atlantic; 
and surveying flounders, drum, shrimp and crabs in the South Atlantic.
MRIP
    The Commission has participated in the redesign and implementation 
of MRIP. State marine fisheries agency representatives and Commission 
staff serve on several MRIP committees (National Registry, Data 
Management, Operations, Executive Steering Committee) to guide the 
Program redesign. Committee responsibilities include technical aspects 
like field survey design and catch estimation methodology, as well as 
making annual funding recommendations to NOAA Fisheries on priority 
pilot studies to support. The Commission has taken on an additional 
role by administering a number of MRIP grants to the Atlantic states to 
build and maintain state and Federal angler registries (participant 
information), and field survey site registries (boat ramps, ports, etc. 
where anglers are interviewed by MRIP). Finally, the Commission also 
provides a venue for MRIP to communicate progress and receive 
stakeholder feedback at its quarterly meetings where NOAA Fisheries 
staff periodically present the latest MRIP developments.
    For several recreationally important species managed by the 
Commission, MRIP data are used to estimate annual and bi-monthly catch 
levels in order to monitor landings and develop annual regulations. 
Data are also utilized in a number of Commission stock assessments, 
again to characterize harvest and discards, the sizes and ages of fish 
caught recreationally, and as indices to track trends in stock 
abundances.
    Despite the Commission's reliance on MRIP data and its involvement 
in the Program redesign, the states and Commission share continuing 
concerns about the implementation and utility of the recreational 
survey and resulting data. A primary concern is the high magnitude of 
uncertainty in the catch estimates. This uncertainty undermines 
stakeholder confidence and the ability of fishery managers to make 
informed decisions.
    Finally, the pace at which MRIP is progressing has been slow. 
Following the 2006 National Research Council review of the old 
recreational survey program (MRFSS), it has taken several years to 
conduct pilot studies, perform follow-up studies, independently peer 
review the results, and complete the logistical, legal, and information 
management steps needed in order to implement the new field survey and 
catch estimate methodology. Until very recently (this year), the 
Commission and the states continued to use MRFSS estimates for its 
fisheries management planning.
    With ever decreasing funding levels for fisheries management and 
data collection, the ACCSP has been increasingly relied on to provide 
funding support for MRIP improvements. Since 2008, ACCSP has committed 
over $2.6 million to projects that seek to achieve sufficient precision 
at the state level. MRIP is designed to meet Federal standards by 
providing good precision at a regional level (Regional Fishery 
Management Council). Unfortunately, this Federal standard falls far 
short of what the Commission and states require to meet stakeholder 
demands for state-specific regulations.
CURRENT DATA COLLECTION PROGRAMS AND THE ROLE OF NEW TECHNOLOGIES IN 
        IMPROVING THE MANAGEMENT PROCESS
    With regards to how new technologies can help fishery managers 
achieve better and more timely information, I will speak to the program 
that the Commission knows best--the ACCSP. In the past ten years, the 
ACCSP has made significant advances in electronic reporting on the 
Atlantic coast. In 2003, ACCSP created the Standard Atlantic Fisheries 
Information System (SAFIS), an online electronic reporting system 
designed to meet the increasing need for real-time commercial landings 
data. In 2004, NOAA Fisheries Northeast Region adopted SAFIS for 
federally permitted seafood dealers, encompassing dealers from Maine to 
North Carolina. Over time, the use of SAFIS has expanded throughout the 
Northeast (implemented by Maine, New Hampshire, Massachusetts, Rhode 
Island, Connecticut), the Mid-Atlantic (New York, New Jersey, Delaware 
and Maryland) and South Atlantic (South Carolina and Georgia) to become 
the de-facto dealer reporting system.
    Initially developed as a dealer reporting system, SAFIS has grown 
to include five distinct applications, and not just for commercial 
landings, but also recreational. These five SAFIS applications (eDR, 
eTRIPS, e-1 Ticket, eLogbook, and SMS) function independently, but all 
are maintained within the same data base and share standards and codes 
that are ACCSP compliant. To date, SAFIS includes over four million 
dealer records, approximately 465,000 trip records, and over 6,700 
volunteer angler records.
    In 2010, ACCSP launched a completely revised version of SAFIS. 
Staff and program partners listened to the needs of users for the 
updated system to be faster and more flexible. Some of the major 
enhancements included the ability to collect highly migratory species 
data; a much faster interface; automatically generated pricing 
information; flexibility in creating favorites (species, gear, 
fishermen, dealers, disposition); and overall improved reporting 
capabilities.
    Benefits SAFIS provides to the state, regional, and Federal 
partners on the Atlantic coast include:
   Up-to-date information on species caught and their impact on 
        fisheries and quotas;
   Confidential access to data-of-record by fishermen and dealers;
   Access to state and Federal reporting requirements through online 
        data entry that eliminates duplicative reporting;
   Integrated highly migratory species reporting;
   Automatically generated pricing information;
   Flexibility in creating favorites (e.g., species, gears, fishermen, 
        dealers, and disposition) so reporting is quick and easier than 
        ever; and
   Management tools to facilitate maintenance of partner-owned data 
        such as participants, online permits, and vessels.
    Below is a description of each of the SAFIS applications, as well 
as the partners that are implementing the application as of February 
28, 2013.
1. Electronic Dealer Reporting (eDR)
    The electronic dealer reporting application was the first 
application developed and implemented. It was first launched in the 
Northeast Region for Federal fisheries. This application is now 
employed by Maine, New Hampshire, Massachusetts, Rhode Island (the 
first state to implement eDR), Connecticut, New York, Delaware, New 
Jersey, Maryland, and NOAA Fisheries and SE. Fields that must be 
entered for a completed report include fisherman, port, date landed, 
time landed, date purchased, vessel number, species, disposition, gear, 
quantity, and price.
2. Electronic Trip Reporting (eTRIPS)
    eTRIPS was developed to meet the complex needs of collecting catch 
and effort data from fishermen. This application is now employed by 
Massachusetts, Rhode Island, Connecticut, New York, New Jersey and 
Maryland. These trip reports, or log books in some fisheries, provide 
catch and effort data from a permitted fishing entity (fishermen or a 
vessel) or a single vessel. Trips may be categorized as commercial, 
party/charter, or recreational.
    This application allows fishermen to create trip reports after 
entering in the required fields in the trip, effort and catch 
categories. Similar to the eDR application, interactive reports can be 
made to illustrate progress and history of catch and effort.
    Currently the ACCSP is engaged in developing a Mobile App version 
of the eTrips system designed to run on tablet computers and smart 
phones. This should greatly reduce the reporting burden on fishermen, 
improve data accuracy, and result in timelier reporting.
3. Voluntary Recreational Logbooks (eLogbook)
    eLogbook was first developed as a part of the Striped Bass Bonus 
Program in New Jersey. This application is now employed by 
Massachusetts, Rhode Island, New York, Connecticut, and Delaware. This 
application is a powerful way to empower anglers in the data collection 
process. eLogbook formulates summaries of information on all species 
caught by the angler. This valuable tool is a way to provide narrow 
strategies for any given set of conditions and is a more efficient way 
for anglers to take a look at the past and save the daily entries.
4. Single Trip Ticket Reporting (e-1Ticket)
    South Carolina, Georgia, and NMFS--SE are currently employing the 
e-1Ticket application. e-1Ticket combines elements of both trip (vessel 
and/or fisherman) and dealer reporting into a single application that 
emulates the standard practice in the southeast.
5. SAFIS Management System (SMS)
    SMS is a web-based application providing administrative tools to 
SAFIS administrators for management of information such as user 
accounts, participants, or permits. It is often used to monitor quotas.
    Where electronic reporting has been comprehensively deployed, much 
of the need for more timely and accurate data in dealer and fisherman 
reporting has been resolved. Agencies that are using the system are 
better able to manage quotas and perform compliance monitoring. 
Improved data on the activities of individual license holders will make 
the creation and management of limited entry fisheries, when desired by 
the states, much more timely and accurate. The standardization of 
coding has greatly reduced the amount of time needed to create the 
consolidated data sets that are needed for larger scale management and 
assessment activities.
    However, many agencies still are using a mixture of conventional 
(paper) reporting and electronic reporting. Where this occurs, it 
becomes impossible to have data available in anything like the 
timeframe that an all electronic solution provides. The data are 
limited by the slowest mechanism, paper. Paper reports can take several 
months or longer to receive and process. While they are in process, 
it's necessary for managers to estimate catch that is reported on 
paper. This can lead to errors that can have a negative impact on the 
fisheries and those that prosecute them.
    The SAFIS system is designed specifically to be expandable so long 
as data are reported within the ACCSP standard. SAFIS can be deployed 
to its partners at no direct cost. It is estimated that coastwide SAFIS 
results in as much as $10 million in cost avoidance for data management 
and software development.
RECOMMENDATIONS FOR IMPROVEMENTS
    While many of the current fishery-dependent and fishery-independent 
data programs are adequate to support species stock assessments and 
responsible stewardship, there is opportunity for improvements. As 
stated earlier, sound fisheries data is the foundation of robust 
fisheries science and management, as well as stakeholder confidence.
    The recommendation for improvements would be to provide funding 
opportunities to restore the state survey work that has been 
discontinued or significantly reduced over the past five years. The 
species-specific surveys require dedicated and predictable long-term 
funding. These surveys are for important species such as American 
lobster, red drum, and horseshoe crab. The most stark example is the 
Horseshoe Crab Trawl Survey that will not occur this year due to lack 
of funding. This survey was historically funded by NOAA Fisheries and 
then through private donations for the past two years. This gap in 
horseshoe crab data will directly impact the Commission's ability to 
assess the crab population and establish appropriate harvest quotas.
    Regarding recreational data collection, the implementation and 
refinement of MRIP must be supported by adequate resources and state/
Federal partnerships. Over the past five years, the focus of MRIP has 
been the development of new methodologies to address survey 
shortcomings. Many of the new methodologies have been implemented on a 
small scale through various pilot studies. As these methodologies are 
implemented along the Atlantic coast, MRIP staff and the states need to 
be in close coordination to address any issues that may arise.
    As noted earlier, MRIP is designed to meet Federal standards by 
providing good precision at a regional level (Regional Fishery 
Management Council). The survey is not designed to provide robust state 
level recreational harvest estimates. To address this unmet need, many 
Atlantic coast states have diverted state, ACCSP, and 
Interjurisdictional Fisheries Act funds to support increased MRIP 
sampling. These diverted funds reduce the states' ability to collect 
other critical fisheries data. Support should be provided to MRIP to 
produce harvest estimates with reasonable precision for each state 
along the coast.
    The ACCSP has made significant progress during the past 15 years, 
however, the program still requires additional funding to become fully 
operational coastwide. The ACCSP has made significant progress during 
the past 15 years. As this program continues to mature, resources will 
be needed to expand its scope and value to fisheries managers and 
scientists. ACCSP can be expanded to include fishery-independent 
surveys to bring both fishery-dependent and independent data into one 
data warehouse. This will reduce the time and effort needed to conduct 
stock assessments by allowing scientists to access the majority of 
fishery data in one warehouse. This step currently takes many months or 
longer to complete. Also, ACCSP can be expanded to include traceability 
of Atlantic seafood products with the goal of improving the economic 
return of domestic fisheries. This program could be similar to the Gulf 
Seafood Trace program that has successfully implemented by Gulf States 
Marine Fisheries Commission.
    SEAMAP has been level funded since 2009 despite increasing fuel and 
other operational costs for on-the-water surveys. The result, in most 
recent years, has been cutbacks in days at sea and sampling intensity, 
which over the long-term can decrease the value of SEAMAP data and 
accuracy of stock assessments for South Atlantic species. Additional 
funding could also be used to initiate new surveys for pelagic species, 
plankton, and crustaceans to address information gaps currently 
inhibiting stock assessments of several species like wahoo, bluefish, 
and blue crab in the South Atlantic. SEAMAP partners have formally 
outlined new survey designs and budgets, if funds become available
    In closing, it is important to reiterate that good data supports 
sound science and informed decisions. We will never fully understand 
every detail of the complex marine environment; however, we can improve 
our understanding to ensure the responsible stewardship of the shared 
Atlantic coast fisheries resources. The lack of resolution in fisheries 
science leaves prudent managers with the need to make more 
precautionary decisions. These decisions can lead to forgone harvest 
and reduce the economic returns to the coastal communities and states 
that depend on them. The Commission looks forward to working closely 
with you, our other Federal partners, and our stakeholders to ensure 
timely and complete data is collected to support successful fisheries 
management. I would be pleased to answer any questions you or the 
Committee might have.
                                 ______
                                 
    Dr. Fleming. Thank you, Mr. Beal.
    And finally, Mr. Donaldson, you are recognized for 5 
minutes.

 STATEMENT OF DAVID M. DONALDSON, INTERIM EXECUTIVE DIRECTOR, 
            GULF STATES MARINE FISHERIES COMMISSION

    Mr. Donaldson. Thank you, Mr. Chairman, Subcommittee 
members. And I appreciate the opportunity to provide testimony 
about the Gulf Commission's data program activities and issues. 
I also want to take the opportunity to thank you for all your 
past support for these critical activities, and hope it 
continues in the future. As mentioned, my name is David 
Donaldson. I am the Interim Executive Director of the Gulf 
States Marine Fisheries Commission, as well as the data program 
manager.
    The Commission was established by Congress in 1949 and is 
an organization of the five Gulf States. Its objective is the 
conservation, development, and full utilization of fisheries 
resources in the Gulf of Mexico. The Commission has been 
collecting data cooperatively with the five Gulf States and 
NOAA fisheries since the early 1980s. It believes that quality 
data is the cornerstone to sound management of our natural 
resources. Without these key data, it is very difficult to make 
the necessary decisions.
    The Commission coordinates four major areas of data 
collection that I will highlight. But before I do, it is 
important to point out that while the Commission oversees these 
activities, the States are the actual collectors, the ones out 
in the field getting their hands dirty collecting this 
information.
    The first program is the Fisheries Information Network, or 
GulFIN. It is a cooperative program and collects catch effort 
and biological data from the recreational fisheries, via the 
Marine Recreational Information Program, and the commercial 
fishermen via the State trip ticket programs. These data 
provide baseline information for assessments of in-shore and 
off-shore species. And without these data, effective 
assessments cannot be conducted.
    I mentioned MRIP, which is still being implemented and is 
not fully developed. In the past, the emphasis has been on new 
methodologies and there is a desire in the Gulf to focus more 
on implementation affecting real change and improving the 
recreational data in the Gulf.
    One area that needs to be explored is new and innovative 
data collection tools, such as iSnapper. These tools have the 
potential to improve the timeliness of the data. And not only 
that, but it creates buy-in from the community, which is 
critical in the recreational fisheries to restore confidence in 
the data.
    While these tools are important, it is critical that the 
underlying methods utilized are statistically valid to ensure 
that data are usable and leads to improved assessments.
    Another long-term program coordinated by the Commission is 
the Southeast Area Monitoring Assessment Program, or SEAMAP, 
which collects long-term standardized fishery independent data 
in the Gulf of Mexico. SEAMAP is the only region-wide mechanism 
for support--or for monitoring the status of populations and 
habitat. Fishery-independent data is becoming more and more 
critical in stock assessments, due to the regulations and 
restrictions placed on commercial and recreational fishermen. 
Therefore, the fishery-independent data are needed to tune the 
stock assessment models, which leads to better and more 
accurate results of those assessments.
    One of our newer programs is our economic data program that 
provides economic performance and contribution data of the 
fisheries in the Gulf, as well as assesses the economic effects 
of management decisions for those fisheries.
    And the last program is our sport fish restoration program, 
which focuses on issues related to monitoring of artificial 
reefs and invasive species.
    All these programs provide critical data for sound 
management of the resources in the Gulf of Mexico. And while 
these programs have made great strides in improving the 
available data, it has been an uphill battle securing adequate 
funding for these activities. There have been several issues 
that we have been contending with, including not realizing full 
program funding, which has resulted in data gaps; funding cuts 
leading to the reduction of critical data; and probably the 
most damaging is level funding, resulting in the deterioration 
of core activities.
    For example, GulFIN has been level-funded for the last 10-
plus years, SEAMAP for the last 5 years, and our economic 
program has never received any long-term funding. So without 
dedicated funding, it limits the managers' abilities to 
effectively deal with the resources and make sound decisions.
    Again, thank you for the opportunity, and I will answer 
questions when appropriate.
    [The prepared statement of Mr. Donaldson follows:]

     Statement of David M. Donaldson, Interim Executive Director, 
                Gulf States Marine Fisheries Commission

INTRODUCTION
    Established by both state and Federal statutes in July 1949, the 
Gulf States Marine Fisheries Commission (Commission) is an organization 
of the five states (Texas, Louisiana, Mississippi, Alabama, and 
Florida) whose coastal waters are the Gulf of Mexico. It has as its 
principal objective the conservation, development, and full utilization 
of the fishery resources of the Gulf of Mexico to provide food, 
employment, income, and recreation to the people of the United States.
    The Commission has been collecting data cooperatively with the five 
Gulf States and NOAA Fisheries since the early 1980's. It believes that 
the cornerstone to sound management of natural resources begins with 
the collection of sufficient, long-term quality data. In addition, 
adequate resources need to be allocated toward these activities to 
ensure that necessary information is available to fisheries managers. 
Over the years, funding levels have stagnated for these fisheries 
programs which has lead to a decrease in quality data and made it more 
difficult to manage these important resources. The Commission has four 
major areas of data collection that will be highlighted.
Gulf Fisheries Information Network
    The Fisheries Information Network (GulfFIN) is a state-Federal 
cooperative program to collect, manage, and disseminate statistical 
data and information on the commercial and recreational fisheries of 
the Southeast Region. It is intended to coordinate marine commercial 
and recreational fisheries data collection and data management 
activities through cooperative planning, innovative uses of statistics 
and design, and consolidation of appropriate data into a useful data 
base system.
Recreational data
    This recreational component provides for the NOAA Fisheries Marine 
Recreational Information Program (MRIP) dockside surveys in Louisiana, 
Mississippi, Alabama, Florida and Puerto Rico for shore, for-hire, and 
private modes. MRIP was created through a review and some adjustments 
to the Marine Recreational Fisheries Statistics Survey, or MRFSS, which 
has been in place since the 1970s. MRIP is designed to meet two 
critical needs:

    1.  Provide detailed, timely, and scientifically sound estimates 
that fisheries managers, stock assessors and marine scientists need to 
ensure the sustainability of ocean resources.
    2.  Address stakeholder concerns about the reliability and 
credibility of recreational fishing catch and effort estimates.

    The Commission has provided coordination of the dockside angler 
surveys for Louisiana, Mississippi, Alabama, and Florida since 1998 and 
is also responsible for converting data into an electronic format and 
providing quality control methods prior to delivering data to NOAA 
Fisheries. These dockside survey data are used to estimate angler catch 
rates using MRIP methodology. The states also conduct weekly telephone 
calls to charter boat captains in Louisiana, Mississippi, Alabama, and 
Florida to obtain estimates of charter boat fishing effort. NOAA 
Fisheries uses this survey data to produce expanded estimates of catch, 
landings, and effort.
    The implementation of MRIP is still ongoing and is not fully 
developed at this time. In the past, there has been an emphasis on 
testing new methodologies and there is a need to implement these 
methods so real improvement of the data can be realized. Several major 
changes in program design have been implemented that are improving the 
accuracy of recreational fishery landings estimates. Landings from 
2004-2012 have been re-estimated using new modeling techniques that 
will provide stock assessment scientists with better and more accurate 
numbers. MRIP is beginning to utilize data from state angler license 
data bases to make effort surveys more efficient in contacting marine 
recreational anglers. Additional research is ongoing and will test new 
data collection tools (such as iSnapper) that could improve the 
timeliness and accuracy of data using online or electronic reporting 
instruments.
    Innovative tools like iSnapper can potentially improve the 
timeliness of the data but also involve the fishing community which 
creates buy-in to the process. It is important to note that while these 
tools can be useful, the underlining collection methods need to be 
statistically valid in order to make the data useable. These changes, 
and additional ongoing research, have laid the foundation for further 
recreational survey enhancements in the coming months and years.
    Texas Parks and Wildlife Department (TPWD) also collects data from 
the recreational fishery in coastal inshore and Gulf waters. TPWD has 
been collecting data from shore anglers and private boat anglers since 
1974 using a dockside angler interview survey. TPWD has been collecting 
data from the for-hire fleet since 1983. TPWD collects similar landings 
data for key management species, like MRIP, with the only major 
difference being TPWD does not collect data on discarded catch. Data 
from TPWD recreational surveys are provided annually to NOAA Fisheries 
and are used along with the MRIP data for fishery management decisions 
in Gulf waters.
Biological data
    Since 2002, GulfFIN has also coordinated a biological data 
collection program that focuses on collecting ageing structures from 
priority species in the recreational and commercial fisheries to 
address data needs identified by stock assessment scientists. Sampling 
is designed to statistically collect random length-frequency 
measurements, age, sex, and reproductive information to aid in stock 
assessments. All states in the Gulf of Mexico participate in this 
activity and data for key species such as red snapper, king mackerel, 
greater amberjack, and gray triggerfish have been provided for past and 
ongoing stock assessments. Due to a lack of funding, the GulfFIN 
biological sampling program is likely going to end in 2014. That would 
break a 10 year time series of ageing data that has been repeatedly 
utilized by stock assessment scientists for key management species in 
the Gulf of Mexico.
Commercial data
    The commercial component of GulfFIN is a trip-ticket data reporting 
system that is utilized by Texas, Louisiana, Mississippi, Alabama, and 
Florida. This system collects commercial landings reports submitted by 
commercial finfish dealers when commercial fishermen complete their 
trips. GSMFC provides coordination of data reporting and warehouses 
copies of the clean state data at GSMFC. These electronic landings data 
are accessed by NOAA Fisheries and are utilized in analyses by stock 
assessment scientists at the state and Federal level. In recent years, 
an electronic trip ticket reporting system has been offered as a 
reporting tool for commercial dealers. The electronic system provides 
data in a timelier manner and allows for additional data quality 
control when dealers are filling out landings reports.
Data Management System
    All of the commercial and recreational data collected by GulfFIN 
are housed by GSMFC using the GulfFIN Data Management System (DMS). The 
GSMFC uses the DMS to maintain marine commercial and recreational 
fisheries data to accommodate fishery management/research and other 
needs in the Gulf of Mexico, Southeast and Caribbean. The DMS is 
designed using standard protocols and documentation for data formats, 
input, editing, quality control, storage, access, transfer, 
dissemination, and application. The GSMFC maintains historical and 
current year's data in the system and provides support to outside users 
of the system. In addition to the commercial data, regular loads of 
recreational and biological data into the DMS are accomplished.
Funding Issues
    Originally the GulfFIN program was proposed as a $7 million dollar 
project to accomplish all of the intended goals. Despite receiving only 
half of the proposed funding, GulfFIN has accomplished many significant 
goals like coordination of the MRFSS/MRIP, commercial trip ticket 
programs in all Gulf States, and a successful biological sampling 
program. For the past several years, GulfFIN has received level funding 
even though the cost of sampling and collecting data has increased 
significantly. Appropriating additional funds for the GulfFIN program 
will become essential for continuing these essential base recreational 
and commercial data collection programs.
Southeast Area Monitoring and Assessment Program
    The Southeast Area Monitoring and Assessment Program (SEAMAP) is a 
State/Federal/University program for collection, management, and 
dissemination of fishery-independent data and information in the 
southeastern United States. SEAMAP is a cooperative program whereby 
Texas, Louisiana, Mississippi, Alabama, Florida, South Carolina, North 
Carolina, Georgia, Puerto Rico, the U.S. Virgin Islands, the United 
States Fish and Wildlife Service, and the National Marine Fisheries 
Service (NMFS) jointly plan and conduct surveys of economically 
significant fish and shellfish and the critical habitats that support 
them. The main goal of SEAMAP is to collect long-term, standardized, 
fishery-independent data on the condition of regional living marine 
resources and their environment.
    SEAMAP has sponsored long-term (1982 to present) and standardized 
research vessel surveys that have become the backbone of fisheries and 
habitat management in the region. The long-term dataset obtained 
through SEAMAP surveys provides the only region-wide mechanism for 
monitoring the status of fish populations and habitats. Through its 
cooperative nature, SEAMAP has the ability to sample the entire 
coastline from North Carolina through Texas during the same time period 
and describe the distribution and abundance of fish populations 
throughout their range in order to better evaluate the status of 
recreational and commercially utilized fish stocks.
    Current SEAMAP surveys in the Gulf of Mexico include an annual 
spring and fall plankton survey, a biannual winter plankton survey, a 
reef fish trap/video survey, a reef fish hook and line survey, a summer 
and fall shrimp and finfish trawl survey, and an inshore bottom 
longline survey.
    One of the primary roles of SEAMAP is the collection of data for 
stock assessments of marine resources. All of the surveys described 
above are designed to address this objective. The problem with current 
data collection is that we have limited resources (funding, personnel, 
vessel availability, infrastructure, etc.), and there is little 
potential to collect additional data without additional resources. Over 
the next decade, SEAMAP will continue to add to the existing data time 
series, collecting as much new information as possible to improve stock 
assessments, and will expand efforts to collect the types and volume of 
data required for adequate assessment of environmental perturbations or 
damages.
Plankton Sampling
    Plankton and environmental sampling are carried out during 
dedicated plankton surveys and on other resource surveys (trawl) at 
predetermined stations arranged in a fixed, systematic grid pattern 
across the entire Gulf of Mexico. Most but not all stations are located 
at 56 km or \1/2\ degree intervals along this grid. Sampling is 
conducted primarily within 0.5 to 1m of the ocean surface and down to a 
maximum depth 200 m (or to within 2 to 5 m of the bottom) with standard 
SEAMAP neuston and bongo nets, respectively. Physical oceanographic 
data (temperature, salinity, fluorescence, oxygen) are collected at 
each station and chlorophyll measurements are taken at three depths.
    The original plan for SEAMAP plankton surveys called for seasonal 
(quarterly) Gulf-wide surveys over both continental shelf (10-200 m 
depth) and open ocean waters (>200 m to the EEZ). This goal has never 
been achieved and, as a result, SEAMAP plankton surveys have yet to 
encompass the spawning seasons and spawning habitats/areas of all Gulf 
of Mexico species. The most significant sampling and data deficiencies 
are open ocean waters in summer, fall and winter months; shelf waters 
during spring; and the west Florida shelf in summer and fall months. 
The importance of these data deficiencies were obvious when researchers 
tried to respond to the Deepwater Horizon oil spill.
    Data from expanded Gulf-wide monitoring and early life history 
studies would fill major gaps in our knowledge of fish and invertebrate 
spawning seasonality and early life histories. The expansion of sample 
and specimen analyses would fill major data gaps and, in many cases, 
first ever data on developmental stages, species-specific vital rates 
(age, growth and mortality) and trophic dynamics. These data, in 
conjunction with other data collected during current and expanded 
surveys, would provide a more complete and detailed picture of the Gulf 
of Mexico ecosystem. Information would be used to develop ecosystem 
models for the Gulf of Mexico, as well as providing a baseline for any 
future ecosystem impact assessments.
Reef Fish Sampling
    The SEAMAP Reef Fish Survey provides indices of the relative 
abundance of fish species associated with topographic features located 
on the continental shelf of the Gulf of Mexico from Brownsville, TX to 
the Dry Tortugas, FL at depths between 9 m to 150 m. The survey is 
conducted annually between the months of April to August, during the 
snapper spawning season. The number of camera sites sampled annually 
has ranged from 125 to 490. Video cameras are used as the main sampling 
gear because trawls and bottom longlines snag on the sea bed, other 
gear types are highly selective, and the area sampled is too deep for 
SCUBA divers. Stationary video cameras are non-destructive to sensitive 
reef habitat, and are relatively non-selective of reef fish species. 
Fish traps are used to capture fish for aging and reproductive studies. 
The SEAMAP Vertical Line Survey uses bandit reels to sample reef fish 
over natural hardbottom, artificial reefs, and around oil and gas 
platforms. Bandit gear is highly selective in that it does not catch 
all species of fish that may be present at a location.
    Enhancement of current reef fish sampling activities would include: 
1) increasing the sampling effort (both spatial and temporal coverage) 
for the SEAMAP Reef Fish Survey, and 2) increasing biological sampling 
in all survey activities to improve age and growth information. In 
addition, the SEAMAP Vertical Line Survey of oil/gas platforms and 
natural reef habitats using bandit reel sampling gear and side scan 
sonar would be expanded to improve data on red snapper and other reef 
fish species. These enhancements would help reduce the variance of 
species-specific data and also provide age and growth information on 
age 2-5 red snapper which are under sampled in all other SEAMAP 
surveys.
Trawl Sampling
    The current SEAMAP groundfish trawl survey is conducted semi-
annually in the summer (June-July) and fall (October-November). A 42-ft 
shrimp trawl is used to collect specimens from Brownsville, TX to Key 
West, FL in 5 to 60 fm of water. Due to funding limitations, areas off 
southwest Florida are not sampled in the fall. The trawl is towed for 
30 minutes, and catch is either worked up in its entirety or is 
subsampled if the catch is over 22 kg. During the trawl surveys, 
plankton samples are also collected using a 61 cm bongo frame and 0.335 
mm mesh net and/or a 12 m Neuston frame with a 0.947 mm mesh net.
    Future temporal and spatial expansion of trawl surveys would 
improve the precision of estimates for all species, as well as provide 
coverage for Florida waters that are not sampled currently during the 
fall season. The expansion of biological sampling (i.e., stomach 
content, and age and growth analyses) would improve the stock 
assessments for those species sampled, as well as provide a basis for 
trophic and predator-prey analyses. This information is essential for 
the development of multispecies and integrated ecosystem assessments.
Bottom Longline Sampling
    SEAMAP currently employs an Inshore Bottom Longline Survey to 
monitor coastal shark and adult finfish populations in the near shore 
waters of the north central Gulf of Mexico. This nearshore survey 
complements the NMFS bottom longline survey using the same gear and 
methodology except that it takes place in the shallow waters of the 
north central Gulf of Mexico.
    Several enhancements could be incorporated into current bottom 
longline surveys that would expand the scope of bottom longline 
sampling and provide important data needed for better understanding the 
dynamics of upper level predators and other key managed species 
(snappers and groupers). Expansion of the summer bottom longline survey 
activities would improve precision associated with indices of abundance 
used for stock assessment. The additional activities would also result 
in an increased ability to examine spatial patterns in intraspecific 
differences in the life history, diets, abundance and movements of 
predatory fishes in the Gulf of Mexico.
Baitfish Sampling
    SEAMAP currently does not sample specifically for baitfish. 
Baitfish form the basis of the marine food web in the Gulf of Mexico. A 
pelagic bait survey would collect information on Gulf menhaden 
(Brevoortia patronus) and similar pelagic baitfish species as a measure 
of estuarine productivity for ecosystem and stock assessment analysis. 
The approach would employ a number of separate state-based fishery-
independent projects to address concerns. Increasing existing seine 
sampling by state partners spatially and temporally would decrease 
variability in the data. A push-net survey could be conducted to 
compare existing seine data for the application of the push-net data as 
an index of abundance in future stock assessments. Genetic samples 
could be analyzed from the seine and push-net studies to validate 
species identification and determine frequency of co-occurrence by 
location. Finally, fish scales for aging purposes could be collected 
from fishery-independent surveys to determine the age structure across 
the range of the species from the fishery-independent samples to begin 
comparison with the fishery-dependent age composition data which has 
been collected since the late-1970s.
Collection of Ecosystem Data
    Increased collection of environmental and ecosystem information 
through fishery-independent sampling in the Gulf of Mexico would 
provide a wealth of data that can be used to expand single species 
stock assessments. More importantly, these data would provide crucial 
inputs to the development of integrated ecosystem assessments for this 
region. Understanding spatio-temporal patterns of species distribution 
is central to managing the Gulf of Mexico's marine populations, 
communities and ecosystems. Spatio-temporal patterns of species 
distribution can be directly related to differences in vital rates 
(e.g., growth, mortality and fecundity), as well as inter-specific 
interactions (e.g. competition and predation).
Additional Fishery Independent Data Collection Activities
    In addition to SEAMAP activities, the Gulf States collect 
additional fishery independent data to improve the quality of data 
available for stock assessments. The amount of appropriation provided 
to the states to support their fishery monitoring programs are 
determined by a formula based on a state's total marine fisheries 
landings. Historically, the Gulf of Mexico has had three `maximum' 
states by fisheries volume and value. This funding, prior to its 
elimination by NOAA in 2012, supported the five Gulf States' long-term, 
fishery-independent monitoring programs which are used to gauge the 
health of various commercially and recreationally important fish 
stocks. The value of this monitoring data is critical and the ability 
of the Gulf States' marine agencies to conduct stock assessments of 
near-shore and off-shore species hinges upon the quality and duration 
of these datasets and will be critical to future regional management 
success.
Economic Data Program
    Most fisheries management decisions are made primarily utilizing 
biological data. While this data is useful in describing the state of 
the biomass, or stock of the fishery, they do not describe the economic 
elements such as employment, business performance, or contribution of a 
fishery to the economy. Existing economic data for commercial and 
recreational fisheries in the U.S. Gulf of Mexico (Gulf) for state and 
Federal waters have often been, and in some cases still remain, 
piecemeal, outdated, and not fully relevant to fisheries managers and 
recreational and commercial stakeholders.
    This void of economic data has been challenging in the Gulf given 
recent hurricanes, manmade disasters such as Deepwater Horizon, severe 
floods, unprecedented long-lasting drought and the increase in complex 
fishery management decisions that require economic analysis as mandated 
through various state and Federal laws. For example, through the 
Magnuson-Stevens Fishery Conservation and Management Act (MSA), 
Executive Order 12866, and the National Environmental Policy Act, etc., 
Federal agencies, such as NOAA Fisheries, are mandated to perform 
economic analysis when changes to fisheries management policies are 
proposed. Through these legislative actions, attempts are made to 
determine the effects that possible adjustments to management polices 
might have on fisheries stocks and local and regional economies. An 
assessment of possible fisheries actions, however, requires reliable 
and current economic data in order for economic models of specific 
fisheries and multistate economies to be built. The availability of 
economic data is, therefore, one of the most significant building 
blocks to conducting economic and policy analysis.
    In an effort to improve data collection and fisheries management of 
the recreational and commercial fisheries in the Gulf, an Economic Data 
Program was formed in 2008. Funding for this effort currently ends in 
2014. The Economic Data Program is a cooperative partnership among 
Texas, Louisiana, Mississippi, Alabama, Florida, the Gulf States Marine 
Fisheries Commission (Commission), and NOAA Fisheries. The program 
monitors the economic performance and contribution of prioritized 
fisheries of the Gulf and contributes to the assessment of the economic 
effects of fishery management decisions on specific fisheries and 
regional economies. In conjunction with the Gulf Fisheries Information 
Network (GulfFIN), the Commission coordinates, plans, and conducts 
specific economic data collection projects throughout its five member 
states.
Current Economic Data Collection Activities
    Projects that are currently underway, or have been completed since 
the conception of the program, include an economic survey of the 
inshore shrimp fleet, a marine angler expenditure survey, an economic 
survey of fishing related businesses (processors and dealers), a marine 
recreational use economic survey, and a valuation of recreational 
species survey. Results from these surveys primarily aid in the 
development of economic business performance analysis, economic 
contribution analysis using regional input-output models, and 
evaluation of the potential economic effects from proposed fishery 
management alternatives. Additionally, the analysis can be used to 
understand the economic impacts from natural and manmade disasters. It 
is the intent that the collection of dependable economic data will 
further maximize the economic benefits of fisheries resources while 
reducing the negative costs to fishing communities in the Gulf.
Inshore Shrimp Fleet
    Cited as one of the most valuable fisheries within the United 
States, the Gulf commercial shrimp fishery constitutes fishing pressure 
from both an offshore fleet and an inshore shrimp fleet. Following 
recent data collection efforts conducted by NOAA Fisheries for 
federally permitted vessels that harvest shrimp in waters offshore, the 
Commission has been in the process of providing the first systematic 
economic analysis of an important economic segment--the inshore shrimp 
industry--which had not previously been examined with such depth and 
rigor. This has been accomplished through two annual multi-state 
economic mail surveys aimed at collecting information on revenue, 
operating costs, annual expenditures, employment data, and vessel 
characteristics of the inshore shrimp fleet. This information has been 
used to determine the economic performance and the economic 
contributions the inshore shrimp fleet has on regional sales, income, 
and employment in the Gulf. The information gathered has also 
contributed to more informed decisionmaking on a variety of commercial 
fishing policy decisions and issues such as the recent Seafood 
Compensation Program through the Deepwater Horizon Settlement 
Agreement.
Fishing-related Businesses
    As fisheries management policies change, the economic impacts of 
these actions extend past commercial fishing fleets to supporting 
fishing related businesses. Understanding the linkages between specific 
fisheries industries and the regional economy can be helpful in 
determining the potential impacts of management decisions. The 
Commission has, therefore, been in the process of collecting economic 
data to determine the economic performance and the economic 
contributions that seafood dealers and processors, or shoreside firms, 
have on local and regional economies in the Gulf. This data collection 
effort is the first systematic, multi-state effort to understand the 
economics of these shore-side firms. The effort has been conducted 
through onsite interviews for commercial seafood processors and as a 
mail survey for dealers and retailers. Up-to-date economic data being 
collected includes revenue, operating costs, annual expenditures, 
employment data, and characteristics of the fishing-related businesses. 
Furthermore, this data collection effort documents the current economic 
conditions of commercial seafood fishing related businesses. The 
information collected can also be used to estimate the regional 
economic contribution of the industry, number of jobs, and amount of 
revenue that commercial seafood fishing related-businesses add to the 
Gulf economy.
Marine Angler Recreational Fishery
    Recreational fishing provides not only relaxation for stakeholders, 
but also economic contributions to the surrounding economy. In the 
Gulf, for example, residents participate in marine fisheries 
recreation, which contributes to the economy. A continued understanding 
of how marine angler expenditures influence local and regional 
economies in the Gulf through sales, income, and employment, provides 
key economic information, which can be used in fisheries management 
decisions. As part of a national initiative, the Commission and NOAA 
Fisheries have solicited saltwater anglers' expenditures on fishing 
trips throughout the Gulf in order to assess the size and economic 
contribution of the marine recreational fishing industry to the 
regional economy. Where possible, the survey used the MRIP intercept 
for trip expenditures and a mail follow-up survey for equipment and 
durable expenditures. The survey results provide estimates of marine 
recreational angler expenditures and the economic contribution of the 
marine angler recreational fishery to the Gulf.
Marine Recreational Use
    Economic contributions from recreation to local and regional 
economies extend from other types of marine recreation besides 
consumptive ocean uses like recreational fishing. Such non-consumptive 
activities might include scenic landscape viewing, wildlife watching, 
kayaking, scuba diving, and boating. Determining and accounting for the 
economic contributions that these activities have on the economy is 
important when making marine resource and fishery management decisions, 
policies, and priorities. As a result of a national effort, the 
Commission, in partnership with NOAA Fisheries, has collected 
participation, effort, and expenditures related to ocean recreation 
activities, with the primary focus on non-consumptive uses. The effort 
sampled the general public using a survey panel where individuals were 
notified in advance so that they were able to keep track of their 
activities and expenditures. Similar to the marine angler economic 
survey, these survey results also provide estimates of expenditures and 
the economic contribution of marine recreational use to the Gulf in 
terms of jobs, income, and sales.
Valuation of Recreational Species
    It is important that the fisheries management process consider the 
potential changes in economic value when promulgating new fishing 
regulations. For sportfishing policy changes, this requires estimates 
of anglers' valuation of regulations or anglers' valuation of the 
resulting harvest levels. There is considerable research on preferences 
for harvest levels and the values of anglers fishing from private boats 
or from the shore. Less research has been conducted to measure such 
values on for-hire fishing trips. To improve this, the Commission and 
NOAA Fisheries have partnered on a mail survey to generate new 
estimates of anglers' valuation of changes in regulations for key 
Federal and state managed recreational species on for-hire and private 
boat trips in the Gulf. The survey includes questions about recent 
recreational fishing activities, preferences for different types of 
fishing trips, and angler household characteristics. The fishing trip 
preference portion of the survey includes a stated preference choice 
experiment with questions that ask anglers to choose between 
hypothetical fishing trips. There are versions of the survey for 
choices between charter fishing trips and choices between private boat 
trips.
Future Economic Data Collection Activities
    Given the experiences garnered through the recent aforementioned 
economic data collection activities, the Commission is well poised to 
move from one time data collection efforts to longitudinal economic 
data collection efforts. Proposed longitudinal economic data collection 
activities include the following: Economic Surveys of the Inshore 
Shrimp Harvesting Industry, Economic Surveys of the Blue Crab 
Harvesting Industry, Economic Surveys of the Oyster Harvesting 
Industry, Economic Surveys of the Finfish Harvesting Industry, Fishing 
Related Businesses Economic Surveys, Marine Recreational Angler 
Economic Surveys, and Marine Recreational Use Economic Surveys. 
Economic data collection will use online, mail, and in-person surveys 
that follow accepted survey methods.
    In addition to aiding in the promulgation of fisheries management 
policies under the current MSA and its future reauthorization, results 
from the Commission's Economic Data Program can also assist other 
programs and efforts aimed at economic enhancement and management of 
the recreational and commercial fishing activities in the Gulf. For 
example, the Economic Data Program has recently contributed to the 
development of state level Fisheries Management Plans under the 
Commission's Interjurisdictional Fisheries Program. Given that the 
Economic Data Program can gauge the economic performance of key Gulf 
seafood and recreational fishing industries; this may in turn also 
allow for a more targeted approach for the newly developed marketing, 
sustainability, and traceability activities in the region. There may be 
opportunities where technological applications such as electronic 
seafood traceability efforts may also be able to collect key economic 
indicators that can be integrated with the aforementioned surveys and 
analysis. The Economic Data Program can also be used to assess the 
effect of the substantial restoration efforts expected around the Gulf 
as a result of RESTORE Act and National Resource Damage Assessment 
(NRDA) generated funds. It will be important to know if these 
activities are having a positive effect not only on ecosystem health 
but economic well-being of the commercial and recreational fishing 
industries as measured by economic data. These aforementioned 
activities will only be accomplished if additional funding is provided. 
Funding for the Economic Data Program is only guaranteed through June 
2014.
SPORT FISH RESTORATION PROGRAM
    The Federal Aid in Sport Fish Restoration Act was enacted in 1950, 
having been modeled after the Federal Aid in Wildlife Restoration Act, 
passed in 1937. The Sport Fish Restoration Program proved to be an 
extremely valuable source of funding for fisheries work important to 
the states. The Sport Fish Restoration Administrative Program (SFRAP) 
was established by the GSMFC in 1987, and its primary goal is to 
provide coordination of the recreational fisheries programs in the five 
Gulf States. Historically, there were three major categories of this 
program, including anadromous fish restoration, artificial reefs, and 
fisheries data, all of which supported interstate fisheries management.
Monitoring Artificial Reefs
    One of the primary focuses of the SFRAP is artificial reefs. This 
component has established regional policies and planning documents, as 
well as discussed critical issues regarding reef deployment and 
monitoring. The recent hurricanes in the Gulf and the 2010 Deepwater 
Horizon oil spill disaster have underlined the fact that there is a 
need to establish baseline data on the vast artificial reef areas in 
the Gulf of Mexico. This data will allow states to determine how new 
artificial reefs are functioning in comparison to established ones, how 
they compare to the function of natural reefs, and allow them to assess 
impacts to artificial reefs from future natural and man-made disasters. 
There is concern within the fisheries community about the removal of 
these structures and the impacts it may have on the resources that rely 
of them for food, protection, habitat, etc.
    In an attempt to meet this need, the SFRAP is developing a Gulf-
wide standardized artificial reef monitoring program. The goal of this 
new program would be to establish baseline data on artificial reefs 
across the Gulf of Mexico. The standardized monitoring protocols and 
gear types utilized in this program would match, as close as possible, 
to those used in ongoing long-term monitoring of natural reef areas in 
the Gulf of Mexico by NOAA Fisheries and SEAMAP. By doing so, this 
program would provide standardized data, on currently unmonitored 
habitats, for commercially and recreationally important species for use 
in more accurate stock assessments. It would also go a long way in 
alleviating the concerns of the fishing public about the lack of data 
from artificial reef habitats being used in the assessment of heavily 
managed species like red snapper. If a secure source of funding can be 
established to support this new component, it would allow the program 
to compile a sufficient set of baseline data that could be used in 
making scientifically based decisions about the management of 
artificial reefs and the fish populations they support.
Invasive Species Monitoring Efforts
    One of the ongoing efforts under the SFRAP is a pilot study looking 
at the extent of the lionfish (Pterois volitans and Pterois miles) 
invasion in northern Gulf waters and conducting diver assessments of 
the native fish community for future evaluation of impact. Lionfish 
have proven to be extremely adaptable to their invaded range which now 
incorporates a large portion of the Eastern Atlantic, throughout the 
Caribbean and in recent years the Gulf of Mexico. They are the first 
marine finfish to become established, and the full impact they will 
have on the natural environment and native species is still widely 
unknown. However, recent studies suggest that these impacts could be 
severe.
    The area covered by this pilot study is on the leading edge of the 
invasion, making it a great location to investigate the impacts of this 
invasive species. This pilot project is a cooperative effort between 
the Gulf States Marine Fisheries Commission, Mississippi Department of 
Marine Resources, Alabama Department of Natural Resources, the National 
Park Service and the U.S. Fish and Wildlife Service. The objectives of 
this new project are to:

    1.  Establish a lionfish monitoring program at established sites in 
the near coastal waters between Pensacola, FL and the Mississippi River 
Delta to monitor and track the invasion.
    2.  Perform diver surveys of density and richness of associated 
species at all sites to aid in future assessment of impacts as a result 
of the invasion.
    3.  Removal of lionfish encountered during normal monitoring 
operations.
    4.  Coordinate reporting activities with the established U.S. Fish 
and Wildlife Service hotline and the U.S. Geological Survey online 
reporting system.
    5.  Establishment of a ``Strike Team'' to harvest lionfish at 
locations beyond regular sampling sites.
    6.  Engage in outreach activities in the region to help inform the 
public about the seriousness of the lionfish invasion.

    This pilot project will give us a clear picture of where we stand 
in regards to the invasive lionfish population in northern Gulf waters, 
and will provide much-needed information for future management 
decisions. It is the intention of the group to try and secure funding 
that would allow for annual surveys to be conducted which would provide 
much-needed data on the full impacts of lionfish on the native fish 
communities in northern Gulf waters.
                                 ______
                                 
    Dr. Fleming. Thank you, Mr. Donaldson. And thank you all 
for your testimony. At this point we will begin questions of 
our witnesses. To allow our members to participate, and to 
ensure we can hear from all of our witnesses today, Members are 
limited to 5 minutes for their questions. However, if Members 
have additional questions, we can have more than one round of 
questions. The Chairman now recognizes himself for questions.
    Dr. Merrick, included in the NOAA budget request is an 
increase of approximately $6 million for annual stock 
assessments and improving data collection activities. And an 
increase of $3 million for ``survey and monitoring projects.'' 
How will these increases be prioritized? Where is that money 
going to go?
    Dr. Merrick. The survey and monitoring funds, the $3 
million increase, those will be directly supporting surveys. So 
they are basically used to pay for charters. So in Alaska, for 
example, there are four or five pollock surveys that occur each 
summer. Those are all done through charters. So those increased 
funds that go to that line will basically be used to support 
the charter work.
    Dr. Fleming. OK. How much of this increased funding will go 
for new fisheries surveys, for fisheries which have not been 
surveyed, say, within the last 5 years?
    Dr. Merrick. Under the expanded annual stock assessment 
line, the one with the $6 million increase, funds there will be 
used to support these new surveys. Part of this will go toward 
a territorial initiative that is basically directed toward 
specific islands, the Western Pacific, and also toward the Gulf 
and Caribbean to begin to survey stocks that are in areas that 
we have traditionally not been able to get to.
    Those funds will also be able to support some of the 
advanced sampling technology work, particularly for the work 
with video cameras on bodies so that we can develop ways to 
survey reef fish. If you notice the number of stocks that are 
data poor, many of those are in those complexes, or reef 
fishes, simply because we can't get to a reef and do an actual 
good survey without disturbing it. So that is the general 
thrust of those funds.
    Dr. Fleming. I didn't quite catch everything you said. If I 
understand that $6 million is going to go for new surveys. Is 
that part of what you said?
    Dr. Merrick. Parts of that will go for that.
    Dr. Fleming. Parts of it?
    Dr. Merrick. Yes.
    Dr. Fleming. Will that increase bring us up to date, so 
that all the major fisheries in the U.S. will have had a survey 
within the last 5 years?
    Dr. Merrick. Stocks. There are approximately 580 stocks. 
There are some stocks that will still remain unsurveyed, 
because the technologies may not exist at that point. We will 
have catch data, but we won't have what is called fisheries-
independent data for some of those stocks. That is our goal, to 
get there. But to be realistic, I could not guarantee you that 
within the next 5 years we will be able to do surveys for all 
those.
    Dr. Fleming. OK. Can you tell us whether red snapper in the 
Southeast or the Gulf of Mexico will be surveyed in Fiscal Year 
2014?
    Dr. Merrick. Yes.
    Dr. Fleming. OK----
    Dr. Merrick. For the Gulf of Mexico. In the South Atlantic 
stock, what we are developing there are alternative approaches 
to surveys there, but largely working with industry. There was 
cooperative research that is going to go on, both within the 
Carolinas and Georgia, as well as in Florida, to begin to 
develop measures of CPUE, biological characteristics of the 
stocks as well.
    Dr. Fleming. The electronic means that we have been 
discussing here today, do you see that replacing some of the 
techniques that we have used before, so that we can do better 
stock assessments, say, with less cost? Or do you think that is 
a supplement to what we have already been doing?
    Dr. Merrick. I think it would be both. For catch data, the 
electronic monitoring systems that are being developed will 
replace paper log books, for example, that will remove some of 
the work the fishermen have to do, and it will get the data 
back to us quicker. So we can turn around catch monitoring much 
faster.
    Using electronic means such as video cameras will provide, 
in some situations, very good data to track discards that occur 
at sea, and probably much more rapidly in some ways than other 
techniques. It most likely will be cheaper than using 
observers. So our vision is that as that technology comes on, 
we will see less use of observers. And we would like to take 
funds that we are using there for observers to help support the 
development of electronic monitoring techniques.
    Dr. Fleming. Right. OK. Changing the subject a little bit, 
I am sure you have seen the video of red snapper, dead red 
snappers, floating in the water after decommissioning an oil 
and gas platform, I guess because of the explosives used. If 
this is an ongoing and perhaps increasing activity, how does 
NOAA account for this mortality?
    Dr. Merrick. It is used directly within the stock 
assessments.
    Dr. Fleming. Well, just the observation that it seems that 
when we decommission these rigs that we see a bunch of dead 
fish around, obviously that is a little counter-productive to 
what we are trying to do.
    Dr. Merrick. We agree completely.
    Dr. Fleming. I am sorry?
    Dr. Merrick. We agree completely. But unfortunately, it is 
not something we have regulatory control over. If they were 
blowing up an enlisted species, there there is an intersection 
with the ESA, so we could do something there. But with respect 
to Magnuson-Stevens, under Magnuson-Stevens, as it exists now, 
we do not have the regulatory authority to prohibit those 
activities.
    What we can do is we include that as a separate form of 
mortality in the stock assessment. So the red snapper 
assessment that is about to go to the Gulf council will 
explicitly incorporate that mortality.
    Dr. Fleming. OK. Thank you. I yield to the Ranking Member 
for 5 minutes.
    Mr. Sablan. Thank you very much, Mr. Chairman. Dr. Merrick, 
I am going to start with you, because you mentioned the Pacific 
Islands and the Gulf States, of course, so that makes us very 
happy here, caught my attention.
    But in your testimony you stated that getting the data 
necessary to manage fisheries is costly. This is especially 
true in the Western Pacific, particularly out in the islands, 
not only for the agency, but also for fishermen. So, can you 
please give us some example of how NOAA is working to get 
useful data at lower cost to the taxpayers and the regulated 
industry?
    Dr. Merrick. Well, if I may go outside the Pacific Islands, 
in the Gulf right now we are working with shrimp fishermen to 
transition the monitoring system--catch monitoring system and 
reporting system they have to an electronic system that uplinks 
the information by cell phone, so we get it much faster. And 
like with VMS, the vessel monitoring system, this is something 
different, in that it is giving us back information on catch. 
But we will work out a relationship with industry so that we 
will cover the cost of the unit, and then the fishermen would 
cover the cost of the data transmission. So that would lower 
the cost, as compared to an observer, and it will get us back 
the information much quicker. That is one example.
    And the use of electronic monitoring, our commissions are 
helping us with that. I would expect to a certain degree we 
will see more of that within the Pacific Islands.
    Mr. Sablan. Thank you. Mr. Fisher, Chairman Hastings 
alluded to this earlier, sir--with electronic monitoring, there 
is something that seems to--like it is ready to be implemented 
in many fisheries around the country, but it is stalled for 
some reason. I am not going to say that it is lawyers, but the 
Chairman has a point there, that it stalled for some reason.
    But can you give us your perspective on why electronic 
monitoring hasn't been adopted in the fisheries management 
commission, and what it would take for you to be able to 
utilize that technology?
    Mr. Fisher. Thank you. Yes. On the West Coast we are 
involved in electronic monitoring. This year, for instance, we 
are going to have cameras on 7 fixed-gear boats, 2 whiting 
boats, and 14 trawl boats. The problem, basically, is on the 
West Coast the Council had passed a regulation that says that 
you have to have a human being as the observer. So that process 
will have to be changed. And I think it is similar in the North 
Pacific Council, also.
    So, the regulatory process has to be able to be changed in 
order for us to actually have the cameras on the boats, instead 
of a human being. So that is the process that we are in, and 
that will probably take maybe 1 or 2 years.
    Mr. Sablan. All right. And so, Mr. Beal, you mentioned, 
sir, in your testimony, that electronic dealer reporting 
requires the entry of data such as species, day landed, gear 
type, and quantity. Wouldn't sending this information through 
the supply chain to make seafood traceable from boat to plate 
have economic benefits for fishermen and consumers?
    Mr. Beal. I am not sure I heard your question.
    Mr. Sablan. All right. Wouldn't sending information that 
you mentioned, the electronic dealer reporting requires the 
entry of data such as what kind of fish, when they were caught, 
and what kind of gear, was it net or line.
    So, wouldn't sending this information, taking all this 
different information through the supply chain to make the 
seafood traceable from the catch to when it was served, to 
plate, have economic benefits for fishermen and consumers?
    Mr. Fisher. Yes. The short answer is yes. The Atlantic 
Coastal Cooperative Statistics Program can work as the backbone 
of that data collection program. Most of those data elements 
are currently being collected. And it can with the inclusion of 
a couple additional data elements that could provide that 
traceability from essentially harvest to plate, it will take 
some modifications to the program, but it can be done, yes.
    Mr. Sablan. All right. So, again, I am going to go back, 
Dr. Merrick. I have one more question, if I may.
    Your agency's use of methods to assess data-poor stocks, 
are you confident that the methods you use represent sound 
science that adequately informs fishery management?
    Dr. Merrick. Yes. Most of those methods involve catch data. 
And the science that goes into using catch data as an estimator 
of stock abundance has become pretty robust. We have been 
through a series of external workshops looking at these 
methods. And they seem to have found that those methods are, in 
many cases, equivalent to the more data-intense stock 
assessment models that we use for the more expensive, more 
important stocks, such as pollock.
    Dr. Fleming. The gentleman yields back. Let's see. Mr. 
Wittman is now recognized for 5 minutes.
    Dr. Wittman. Thank you, Mr. Chairman. Gentlemen, thank you 
so much for joining us today. I want to go directly to Dr. 
Merrick and Mr. Beal. I wanted to ask you, in looking at how 
species are managed, if you see a benefit in managing 
recreational species like red snapper by harvest rates rather 
than by poundage quotas, and would the management structure for 
how striped bass is managed, would that be a good structure to 
look at, using another species, especially ones that have a 
variety of different user groups that target them?
    And I will ask for Dr. Merrick and Mr. Beal to give me your 
perspectives on that.
    Dr. Merrick. I will deal with the first one. In the stock 
assessment process, ultimately it doesn't really matter. The 
currency of biomass or numbers of fish are equivalent. So if we 
determine that we were going to manage the recreational fishery 
based on numbers of fish, we have the equivalencies that can go 
back to biomass so we could do our stock assessments. So that 
is really just a management decision, ultimately.
    The second question about whether we should deal with 
striped bass and red snapper in equivalent ways, I will turn 
that to Bob.
    Dr. Wittman. OK. Mr. Beal?
    Mr. Beal. Thank you. You know, striped bass has been one of 
the great success stories along the Atlantic Coast. And the 
recreational fishery has had stable regulations: two fish at 28 
inches for the coast, generally, since 1995. And the stock has 
continued to do well.
    A number of other fisheries that are managed on quotas--
summer flounder, black sea bass, a lot of the Mid-Atlantic 
species--those regulations have varied each year since the late 
1990s. It is a complex system, and it is a difficult system for 
the fishermen to keep up with. So, I think there is some merit 
in exploring ways to dampen out the highs and lows and frequent 
changes in those other recreational fisheries.
    The difficulty is in the way that Magnuson-Stevens is 
written now, the accountability measures and annual catch 
limits. The regulations have to be crafted so that recreational 
harvest limits are not exceeded each year. So that is what 
creates the highs and lows. And also, the other part of that 
is, as I mentioned in my testimony, the MRIP program really 
isn't designed for high-resolution, State-specific harvest data 
for recreational species.
    So, some of the management programs that we have along the 
Mid-Atlantic coast are asking a lot from the data that we do 
have.
    Dr. Wittman. Right.
    Dr. Beal. So, looking at ways to dampen out those highs and 
lows, I think, is a good step forward.
    Dr. Wittman. Thank you. I understand certainly your 
frustrations as I have the frustrations with the ACL as they 
kind of force a monolithic approach to species management 
versus other ways that I think would, as you said, dampen out 
the highs and lows and create some certainty for both the sport 
fishing community and the commercial fishing community.
    Let me ask you this. You spoke specifically about data 
collection, which I think is critical, too, because obviously 
there is not enough data for all 538 of the stocks. So in 
absence of data, then we end up making management decisions 
that attract, obviously, a lot of lightning. I want to get your 
perspective, both Dr. Merrick and Mr. Beal, and any other panel 
members, too, about what can we do to advance the collection of 
data.
    And we know that we are in a resource-challenged 
environment, so I think we have to look well beyond the current 
practices of how data is collected. I think there is a lot of 
other data out there that is collected with new technology. 
There is a massive amount of data that I think would be 
available from a variety of different sources. And I think an 
aggressive effort to collect that data and to assimilate it 
would create much, much better management regimes for the 
different bodies involved in management.
    So, I would like to get your perspective on what you see as 
opportunities to gather more data from a variety of different 
sources.
    Dr. Merrick. One of the biggest areas from the fisheries-
independent--the survey side that could gather more data is the 
use of acoustics. And we have started to use that extensively 
in Alaska. It is growing more in the Northeast. And that was 
one of the specific reasons why I hired Bill Carp there, 
because he comes from a strong acoustics background, and I 
wanted to see that occur more on the East Coast.
    Dr. Wittman. Dr. Merrick, I have just got about 30 seconds 
left, so I want to interject there and ask this specifically.
    Would you entertain that data coming from other sources 
besides government sources, i.e. academic institutions, i.e. 
fishermen, both commercial and sport fishermen?
    Dr. Merrick. Yes. We have an effort right now in Alaska to 
work with commercial fishermen to calibrate their sounders as a 
way of gathering acoustics data there. I would like to see more 
of that.
    Dr. Wittman. OK. Very good. Any other panel members wish to 
comment? Mr. Beal?
    Mr. Beal. I will comment very briefly. Yes, I think we are 
going to hear in the next panel quite a bit about the NEAMAP 
program----
    Dr. Wittman. Yes.
    Mr. Beal [continuing]. Along the Atlantic Coast. And that 
is a cooperative program, it is a commercial vessel, it is an 
academic institution. It is the Atlantic States Marine 
Fisheries Commission. It is funded by research set aside, which 
is a portion of the quota set aside to fund fisheries research.
    And I think examples like that are things we need to 
explore. They don't cost the taxpayers, they cost, essentially, 
the users of the resource, the set-aside of that quota. And the 
cooperative nature through academics and commercial vessels, I 
think it is a great example of what we need to look at in the 
future.
    Dr. Wittman. Very good. Thanks, Mr. Chairman. I yield back.
    Dr. Fleming. The gentleman yields back. The Chair 
recognizes Mr. Pallone for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman. I am glad today's 
hearing is dedicated to data collection, because it underpins 
our ability to properly manage our Nation's fisheries. And, 
unfortunately, there is not much confidence in the data that is 
collected or the management of our fisheries.
    The Magnuson-Stevens Act mandates strict compliance with 
catch limits and severe accountability measures that require 
fisheries closures and quota payback, but there is a disconnect 
between what Magnuson-Stevens requires fisheries managers to 
do, and what fisheries managers are able to do with the 
information they have at their disposal. And I am interested in 
how we remove this disconnect, and I am committed to ensuring 
reauthorization means a better Magnuson-Stevens Act.
    I wanted to ask Mr. Merrick. I believe that we must give 
fisheries managers a level of discretion and flexibility in how 
to apply Magnuson-Stevens, so that when the disconnect between 
the rigid requirements and the available data is so great, that 
they can ensure a fair and reasonable outcome. So, Dr. Merrick, 
I would like you specifically to comment on what additional 
authority and investments are needed to eliminate the buffer or 
reduction in quota that fisheries managers put in place to 
account for inadequate science and data.
    And I would also like to hear whether you believe the new 
MRIP program meets expectations in terms of being an 
improvement over the past, and whether you would support a new 
National Research Council report reviewing the status of 
recreational data collection. And I have to get to Bob also, so 
those three things: any additional authority or investments; 
comment on the MRIP; and the National Research Council, if you 
could.
    Dr. Merrick. MRIP. Recognize there are two real distinct 
parts to MRIP. One is the estimation technique, once you get 
the data, and the other is data collection.
    The estimation technique was really the first part that was 
implemented. So when we started using the MRIP estimates in 
2012, they represented basically the science that the National 
Academy study was proposing us to use. It is new statistical 
techniques. So now, any cod assessment, for example, in New 
England uses the new estimates. Anything that uses recreational 
data on the East Coast and the Gulf we use those new estimates. 
Those are good.
    Where we hope to continue to expand the capabilities is the 
sampling part, and we are learning more there. Dr. Breidt will 
probably comment a little bit on that, but we have made 
significant progress. Things like iSnapper potentially could 
become a fundamentally important part of the MRIP protocol, and 
we just have to evaluate that.
    Mr. Pallone. What about the National Research Council 
report reviewing the status of recreational data collection? 
Would you support a new National Research Council report?
    Dr. Merrick. We would like to have either a National 
Academy study review, once it is full implemented within the 
next few years, or some other form of external peer review. 
Yes, we would support that.
    Mr. Pallone. And any suggestions about what additional 
authority or investments are needed to eliminate this buffer or 
reduction quota that the managers put in place to account for 
inadequate science or data? You have any suggestions or 
additional authority or investment that would be needed?
    Dr. Merrick. Sir, there is an alternative approach to that, 
in the sense that we can get really precise estimates of 
biomass and still see fluctuations in the ACL that are 
problematic to the industry. So one of the things----
    Mr. Pallone. So you don't see anything else that could be 
done at this point, other than what you are doing.
    Dr. Merrick. New England and the Northeast, we are doing a 
pretty good job. Most of those stock assessments are quite 
good. There are other areas, as we discussed earlier, there are 
data-poor stocks, where we can develop new methodologies to 
better survey those. And as that develops, we will see the 
precision of those estimates improve, and we will see the 
buffers go down.
    Mr. Pallone. All right. Let me ask Mr. Beal same thing. How 
do we get management and science and data collection in line? 
Do you see what type of challenges the Commission face, or what 
types of additional flexibility authority investments would 
help the Commission address these data collection challenges?
    Mr. Beal. I think the authority is there to address the 
data collection challenges right now. I think finding creative, 
efficient ways to collect the data through new technologies is 
important. I think the full implementation of MRIP is going to 
be a big help in that.
    I think the Commission right now has been level-funded, and 
a lot of our survey efforts have been level-funded for a number 
of years. And we have had surveys drop off for horseshoe crabs 
in New Jersey, red drum, lobster, a number of other things. 
Just as costs have gotten higher and we have been level-funded 
for a number of years, those surveys have dropped off. So we 
have actually lost ground over the last 5 years on the data 
that we have to support fishery stock assessments.
    So, I think the authority is there. I think we need to 
continue to explore research set-asides and other programs so 
we can find funding in creative ways to support the fishery 
science up and down the East Coast.
    Mr. Pallone. All right, thank you. Thank you, Mr. Chairman.
    Dr. Fleming. The gentleman yields back. The Chair 
recognizes Mr. Runyan for 5 minutes.
    Mr. Runyan. Thank you, Chairman and gentlemen, thanks for 
your testimony. The first two questions--and I have a third one 
for Mr. Beal if I get to it, but the first two are for Dr. 
Merrick.
    I think we can all agree cooperative research is extremely 
important, I expect, of collecting fisheries data. And I think 
many people will agree that New Jersey fishermen were among the 
hardest working with the scientists to lead the charge on 
tagging Atlantic sturgeon and gathering DNA data prior to the 
ESA listing over a year ago. My concern is that there is a 
budget request, a $2 million increase, in Fiscal Year 2014 of 
cooperative research. But as we go back through and look at the 
Atlantic sturgeon, that data wasn't used in the determination 
of that ESA declaration.
    Now, we want to be helpful, we want to make sure it is 
done. But does NMFS plan on using the DNA data when compiling 
biological opinions in the future? And is there a way that we 
can make sure that that data is--obviously valid, but being 
used?
    Dr. Merrick. Specifically speaking to the DNA data, that is 
crucial in the designation of distinct population segments. And 
why it was not used here is--I cannot answer that. But if you 
want to--we can answer that later. I can provide you something 
more concrete. But those data, particularly the tagging data, 
are now crucial to the ASMFC stock assessment. So at the time, 
the best available scientific information was not considered to 
include those, perhaps because it was all still preliminary. 
But the subsequent analyses done by the Center has led to the 
estimates of increased stock size that are supporting the ASMFC 
stock assessment.
    Mr. Runyan. Well, I look forward to getting to the bottom 
of it. Because, obviously, at the end of the day, it is an 
investment of taxpayer money into data I don't think a lot of 
people would be--agree that is being used, which leads me to my 
next question.
    In 2006, Congress had passed amendments to the Magnuson-
Stevens Act which required creating a new recreational 
fisheries data collection program. And it has been 7 years and 
has not been fully implemented. And there is dissatisfaction 
among recreational fishermen. What is NOAA doing to implement 
the new program and get better buy-in from recreational 
fishermen?
    Dr. Merrick. MRIP estimation methods were implemented in 
2012. So basically, any stock assessment that occurred from 
2012 on includes MRIP estimates. The only thing that has not 
been implemented now are some of the new survey methodologies, 
and those are continuing to evolve because things like iSnapper 
continue to appear as ways that we could better sample the 
recreational industry.
    Mr. Runyan. Are there any other issues that have arisen 
that set back the full implementation of the program?
    Dr. Merrick. We don't really feel it has been set back. It 
has been implemented.
    Mr. Runyan. You just said, though, it wasn't fully 
implemented.
    Dr. Merrick. The estimation technique, which is the key 
part and was the statistical issue that provoked the National 
Academy review, and a lot of the initial concern, has been 
implemented.
    Mr. Runyan. OK.
    Dr. Merrick. Survey techniques evolve, whether they are in 
a recreational fishery or commercial fishery. And that is what 
is happening within the recreational sampling now under MRIP.
    Mr. Runyan. OK.
    Dr. Merrick. For example, the old estimates were based on 
phone surveys. Phone surveys don't work any more. So we have 
had to develop an angler registry and new approaches to 
sampling recreational fishermen. Six years ago, when this 
process started, the idea of iSnapper, no one would ever have 
thought of that. Apps didn't exist.
    So we are adapting MRIP to evolving technologies, both for 
sampling and home surveys, and also for at sea.
    Mr. Runyan. Do you--I mean just talking about the buy-in of 
the fishermen in general, do you realize how you are trying to, 
I guess, circumvent those problems of the distrust or the ever-
changing way you are going to try to implement it to get what 
you need, is there any outreach there to make sure that they 
are part of the program?
    Dr. Merrick. We continue to reach out to industry, both the 
recreational and the commercial, through a variety of methods.
    Mr. Runyan. Being?
    Dr. Merrick. OK. There is the MRIP 101, a program that the 
Northeast Center is working with the Gulf of Maine Research 
Institute, where they bring in fishermen and actually run them 
through the process, teaching them how you do fishery science. 
We have more people on the docks talking to industry.
    As part of stock assessments, one of the processes we are 
trying to implement now is an initial meeting with fishermen to 
understand what they have seen in the stock over the period 
since the last assessment, so they can incorporate that into 
the stock assessment. We are attempting to make most of the 
data more available to industry for individuals to look at.
    Mr. Runyan. OK----
    Dr. Merrick. And we actually welcome suggestions. If there 
are more ways that we can inform the industry, whether 
recreational or commercial, and keep them more up-to-date on 
data, on the assessment process, on what we are doing, we 
welcome that advice.
    Mr. Runyan. Well, thank you for that. My time has expired. 
I yield back.
    Dr. Fleming. The gentleman yields back. The Chair 
recognizes the gentlelady from Guam.
    Ms. Bordallo. Thank you, Mr. Chairman. And good morning, 
gentlemen. Thank you for being here. The Magnuson-Stevens Act 
mandates that fisheries conservation and management measures 
must be based upon the best scientific data available. I think 
we all agree with that.
    Unfortunately, Guam--and I will include the Northern 
Marianas in this--is the most data-poor region. According to 
NOAA, 70 percent of stocks in the Western Pacific have no stock 
assessments--70 percent. Yet, in the Mid-Atlantic region, all 
fishery stocks have been assessed.
    Dr. Merrick, in the Central and Western Pacific, there is a 
very high occurrence of illegal, unreported, and unregulated 
fishing. This results in fewer fish for legal harvests, and 
produces inaccurate estimators used to calculate abundance and 
catch limits. How does unknown IUU fishing mortality manifest 
itself into our stock assessments? And do you agree that IUU 
fishing, especially in the Pacific, could be a big problem for 
getting accurate data?
    Dr. Merrick. Agreed. We agree that it is a significant 
issue for--especially for highly migratory species. Tuna, for 
example.
    Ms. Bordallo. So you agree with that statement.
    Dr. Merrick. We agree.
    Ms. Bordallo. All right. Now----
    Dr. Merrick. And we are--our stock assessments attempt to 
adjust for that.
    Ms. Bordallo. Now, my next question, Dr. Merrick, is that 
given that the insular areas are so far behind the other 
regions in terms of stock assessments, what is the NMFS 
currently doing to assist our areas in improving data 
collection? And I know you referred to that in your opening 
statement about the Pacific area, to achieving the ability to 
conduct stock assessments and establish catch limits that 
reflect the true status of the stock.
    How can we ensure that NMFS is allocating resources equally 
to all of its regions? How is it that we have all the 
assessments for one region, and that is the Mid-Atlantic, and 
70 percent lacking in the Pacific area? How could this have 
happened?
    Dr. Merrick. If you follow the traditional ways of 
prioritizing, say, science efforts, government science efforts, 
it usually goes where the money is, to be honest. And since the 
Mid-Atlantic has a number of very valuable fish stocks, that is 
why they are well-assessed.
    That is not a good way to meet our conservation mandates, 
and that is one of the reasons we have been working with Kitty 
Simons in the Western Pacific Council to start to understand 
what better science can we provide in the territories further 
out in the Western Pacific to start to meet those deficiencies. 
So we explicitly will be devoting funding just to that. 
Separate from anything else that the Pacific Islands Center 
would use these funds for, they will be directed further out 
into Guam and Samoa----
    Ms. Bordallo. Northern Marianas?
    Dr. Merrick. Yes.
    Ms. Bordallo. What I am hearing from you is that you have 
very valuable stocks in the Mid-Atlantic region, but the 
Pacific is not that valuable. Is that what you are saying?
    Dr. Merrick. In terms of the wealth to the Nation, in terms 
of economic wealth, correct. Except for highly migratory 
species. But that is--I mean that is part of the problem with 
Magnuson-Stevens. On the one hand it wants us to conserve 
species, and the other hand we need to worry about the economic 
benefit to the Nation. I would lean more toward the need, as a 
scientist, to make sure all stocks are adequately assessed.
    Ms. Bordallo. Now, you said $6 million will be earmarked. 
Is that correct?
    Dr. Merrick. Excuse me?
    Ms. Bordallo. For this study. I heard you say that earlier.
    Dr. Merrick. That is--the $6 million is an increase in 
the----
    Ms. Bordallo. For the entire region?
    Dr. Merrick. Yes, for the expanding of stock assessments--
--
    Ms. Bordallo. How much--well, how are you going to allocate 
this now? Are you going to be fair and give the Pacific area 
some of this?
    Dr. Merrick. Right now we have asked the Council and we 
have asked the Pacific Island Center how much----
    Ms. Bordallo. I don't know that the Ranking Member--I am 
sure he is going to agree with me on this----
    Dr. Merrick. I am sure he will.
    Ms. Bordallo [continuing]. Because we feel it is a very 
valuable area there, too. We have a lot of valuable fish stock.
    Dr. Merrick. OK. We have asked the Pacific Island Center 
and the Council how much they need, so we are waiting to hear 
back from them. My expectation is it will be something in the 
range, initially, of $500,000 to start the process, in addition 
to the ship time what we normally give, and so on.
    Ms. Bordallo. Well, you think it will be a fair share now, 
as we go on?
    Dr. Merrick. I don't know how you define ``fair,'' to be 
honest.
    Ms. Bordallo. Well, I hope, Dr. Merrick, you will watch out 
for our area. OK?
    Dr. Merrick. That is why I am proposing this.
    Ms. Bordallo. You are what?
    Dr. Merrick. That is why I have proposed this.
    Ms. Bordallo. Good. OK, all right. All right. Well, thank 
you very much----
    Dr. Merrick. It is also the same thing in the Caribbean, 
OK?
    Ms. Bordallo. Yes.
    Dr. Merrick. They have the same issues there.
    Ms. Bordallo. Absolutely. I am not questioning----
    Dr. Merrick. They have a similar initiative there.
    Ms. Bordallo. Well, we feel very strong about the 
territories.
    Dr. Merrick. So do we. Clearly, Kitty Simons feels very 
strongly about it.
    Ms. Bordallo. Thank you.
    Dr. Merrick. Every time I see her she talks about it.
    Ms. Bordallo. Thank you, Dr. Merrick. It is good to see you 
again. Thank you.
    I yield back, Mr. Chairman.
    Dr. Fleming. The gentlelady yields back. The Chair 
recognizes Mr. Southerland for 5 minutes.
    Mr. Southerland. Thank you, Mr. Chairman. I would like to 
thank all the witnesses for being here today. Dr. Merrick, I 
wanted to turn some of my questions to you at first, and I 
wanted to talk about the stock assessments.
    A few moments ago you made a statement that--for 2013 or 
into 2014, that there would be no stock assessment for the 
South Atlantic Snapper. You said you will use other techniques, 
or other--you will work with industry was your words that you 
stated.
    For the record, this particular stock has been closed for 
1,234 days with no stock assessment scheduled. And by your own 
admission, there won't be one. And I am trying to figure out 
why has it taken so long. By the time we--this stock was--the 
last stock assessment was 2008.
    I also noted in your written testimony that priorities are 
established--when you determine stock assessments, priorities 
are established by evaluating the commercial importance of a 
stock. Obviously, the red snapper in the South Atlantic has 
significant commercial importance. And I am just--why has that 
taken so long? Why can't we get this done? You have done 62 
assessments in 2012. Since the 2008 assessment, you could have 
conceivably done 240 stock assessments, and yet we have still 
not found the necessary time to do this for the red snapper.
    Dr. Merrick. Prioritization of stock assessments are done 
regionally.
    Mr. Southerland. I am sorry?
    Dr. Merrick. Prioritization of stock assessments is done 
regionally.
    Mr. Southerland. I can't hear you, sir, I am sorry. Is your 
mic on?
    Dr. Merrick. Yes.
    Mr. Southerland. OK.
    Dr. Merrick. Prioritization of stock assessments is 
performed regionally.
    Mr. Southerland. OK.
    Dr. Merrick. So that is a decision made between the 
appropriate council, the Center, the region, and then the 
Commission. There it is part of CDR. I would suggest that----
    Mr. Southerland. So you are suggesting, then, by that 
statement, that the Council doesn't have to listen to you in 
regards to a stock assessment that is so critical to the 
region.
    Dr. Merrick. That is correct. It is a decision made jointly 
between NMFS and the Council and the Commission.
    Mr. Southerland. Well, I will tell you the Gulf Council 
listens to everything you say.
    Dr. Merrick. OK.
    Mr. Southerland. And I have a representative at every Gulf 
Council meeting. And so, for you to say that they don't listen 
to you, and they don't have to listen to you, or they don't by 
choice, that is not occurring in the--I wish you could send an 
email and a memo to the Gulf Council, because they are not 
operating like that.
    Dr. Merrick. Well, I would hope they listen to us. But I 
hope they also have their own mind and make decisions that are 
regionally based.
    Mr. Southerland. Well, your regional director didn't get 
that memo, either. So I would--I just--it irritates me that--
and I think for the average fisherman to understand that when a 
stock has been closed for 1,234 days, and you just admitted 
that there is not going to be any plans to have a stock 
assessment done, it undermines the credibility of the intention 
for the well being of both human and our fish.
    Dr. Merrick. To be correct, I did not say we had no 
intention of doing a stock assessment. This was----
    Mr. Southerland. No, by 2014.
    Dr. Merrick. Yes.
    Mr. Southerland. By 2014. So you did say by 2014. And the 
last one was done in 2008. So, therefore, we will have a 
fishery that has been closed, by that time, my goodness, it 
could be approaching 2,000 days with no stock assessment.
    But in your testimony you said stock assessments are 
prioritized by their commercial importance. And yet we all know 
that the red snapper in the South Atlantic and the Gulf of 
Mexico, in our region in Florida, for recreational fishermen 
there is hardly a fish that has greater commercial 
significance. I see an inconsistency there.
    Dr. Merrick. Well, I do not prioritize the stock 
assessments. Your folks at the Council, at the Commission, and 
then our folks from the regional office and the Center are the 
ones that do the prioritization.
    Mr. Southerland. Can I ask you--moving on also to--on May 
9th, NOAA fisheries published a Federal registry, a final rule 
to implement Amendment 37 to the reef fishery management plan 
in the Gulf of Mexico regarding the trigger fish. The trigger 
fish--correct me if I am wrong, but the trigger fish is not 
really a primary fish, but more of a secondary by-catch. Is 
that----
    Dr. Merrick. I am sorry, I cannot answer that. I don't know 
about trigger fish. But perhaps the Gulf Commission could 
answer that better?
    Mr. Donaldson. It is more a secondary--yes.
    Mr. Southerland. OK. And let me say this, sir. You seem 
to--if you are familiar with this, it is a by-catch by 
recreational anglers going after what fish?
    Mr. Donaldson. Red snapper.
    Mr. Southerland. Red snapper. I am just curious, Dr. 
Merrick. Do you know--well, you don't know, you are not 
familiar with trigger fish. We will just keep it down here. Do 
you know the size hook that is used by an angler to catch 
snapper and grouper?
    Mr. Donaldson. Not really, no. I mean it is a normal-sized 
J-hook. I mean----
    Mr. Southerland. Well, it is a circle hook.
    Mr. Donaldson. Right.
    Mr. Southerland. OK? We mandate a circle hook.
    Mr. Donaldson. A circle hook, you are right.
    Mr. Southerland. OK? A 5/0, 6/0, 7/0, 8/0, 10/0, OK? 
Trigger fish have a much smaller mouth than snapper and 
grouper. Would anyone want to guess what the size hook is to 
catch a trigger fish?
    Mr. Donaldson. Smaller than a 5/0.
    Mr. Southerland. There you go. That is good. Smaller than a 
5/0. A 1/0 and a 2/0. OK. So for NOAA to come out and say this 
fishery is over-fished, when all the fishermen that go out into 
the Gulf of Mexico catch them as by-catch using 5/0, 6/0, 7/0, 
8/0, and 9/0, is really not true. There must be another reason. 
And I would state that today the greater reason is that the red 
snapper are so over-populated that they are hammering the 
trigger fish. And the trigger fish are, in fact, not over-
fished, they are over-eaten. And with that, I yield back.
    Dr. Fleming. The gentleman yields back. The Chair 
recognizes Ms. Shea-Porter for 5 minutes.
    Ms. Shea-Porter. Thank you, Mr. Chairman. In 2000, New 
Hampshire had 100 commercial groundfishing vessels. Last year 
there were 22. This year there are 14. Our industry is being 
absolutely decimated, as I know you are all aware. We have a 70 
percent reduction in catches now for cod, haddock, and 
flounder. And so many of the younger fishermen have just given 
up, and the older ones are wondering what is next for them. It 
is just being decimated. It is an economic industry and a way 
of life for the fishermen of the New England coastline, and I 
am very concerned about this, as I know we all are. We all care 
about what happens here.
    But there do seem to be some problems. And so, Dr. Merrick, 
I would like to ask you if you could explain what progress NMFS 
has made in addressing the data gaps in cod assessments 
highlighted by the New England Fishery Management Council's 
Scientific and Statistical Committee and the Stock Assessment 
Review Committee.
    Dr. Merrick. Well, the first key one was the concern that 
the 2011 assessment was not adequate. The review committee said 
it was, but the SSC was concerned. And there was such concern 
that we did the assessment again in 2012, and we found the same 
results again.
    But in between the two there were--there are several issues 
that we attempted to resolve that the SSC and the original 
review committee had pointed out. One of those was that they 
wanted to use--they wanted to have the improved recreational 
data, the MRIP data, used in the next assessment, which it was. 
They were concerned about discard mortality. At that point we 
were using 100 percent mortality from all discards, even though 
there was some limited scientific information that suggested 
otherwise. We met to discuss with industry a better approach to 
this. And so, when the 2012 cod assessment occurred, we used 
those revised estimates.
    There was also concern about stock structure. We co-hosted 
a meeting with the Gulf Committee Research Institute from 
Portland to look at stock structure. We have not resolved that 
yet, so that is an ongoing area of research.
    And then, finally, there is the issue of using CPUE, catch 
per unit effort, as observed by the fishermen, whether we could 
use that as another index within the stock assessment. It 
appears we can. It was not particularly useful in the 2012 
stock assessment, we are going to continue to research that and 
work with industry to try to use that as a better indicator.
    Ms. Shea-Porter. OK, thank you. Also, given the need to 
maintain human observers while electronic monitoring methods 
are improved, what steps can be taken to ensure the cost of 
these observers isn't an undue burden on the small fishermen?
    Dr. Merrick. Well, one of the simplest may be to develop a 
better strategy for using observers versus electronic 
monitoring. Because I think there are many situations that we 
are using an observer now because it is the only way we have to 
collect data. Implementing electronic monitoring with cameras 
and modifying the way the fishery is managed may be the best 
solution to dealing with that. That should bring the cost down. 
And then we can use observers in a more parsimonious manner. To 
collect those data we really have to have an observer, which is 
basically where we need biological information or more detail 
on the way fish are caught.
    Ms. Shea-Porter. OK, thank you. And I would just like to 
say for the record, even though it has nothing to do with you, 
that this area has been considered a disaster in fishing there, 
and no funding has come, and I want to state for the record 
that the fishermen up and down the Eastern Seaboard and 
certainly in New England deserve to have these problems 
addressed.
    They all want what we all want. We want to make sure that 
we replenish these fish stocks and that we have fishing there 
for the next generation and thereafter. And we recognize that 
there are challenges. But to just simply say that they can't 
fish without offering anything else and coming forward with 
assistance for them just seems wrong on every level. Thank you, 
and I yield back.
    Dr. Merrick. We agree completely with that. As a closure 
from our side, that----
    Ms. Shea-Porter. I am sorry?
    Dr. Merrick. This may be the first of the commercial 
fishery disasters that is going to result from climate change. 
There may be more.
    Ms. Shea-Porter. And actually, I would like to comment. We 
just talked about climate change. Because I have been talking 
to a lot of the fishermen there, and also some in seafood 
restaurants. And they have great concerns. They observe 
changes. And so I think we also need to be addressing that.
    And I don't want anybody finger-pointing back and forth, 
whose fault that is. I just want to see us address that and 
address the economic disaster that our fishermen are 
experiencing as we take the science and do the right thing by 
the American people. Thank you, I yield back.
    Dr. Fleming. The gentlelady yields back. The Chair 
recognizes Mr. Lowenthal for 5 minutes. Oh, Mr. Lowenthal 
declines for this panel.
    Therefore, our panel of witnesses, I do thank you for 
coming and giving your expert testimony today. Members of the 
Subcommittee may have additional questions for the witnesses, 
and we ask you to respond to these in writing. The hearing 
record will be open for 10 days to receive these responses.
    We are now ready for our second panel. Thank you, 
panelists.
    [Pause.]
    Mr. Sablan. Mr. Chairman, Chairman Fleming, I ask unanimous 
consent to allow Representative Keating to join us today and 
participate in today's hearing.
    [No response.]
    Dr. Fleming. Hearing no objection, so ordered.
    Mr. Sablan. Thank you very much, Mr. Chairman.
    Dr. Fleming. OK. Among our panelists today we have Ms. 
Linda Behnken, Mr. Christopher Bonzek--let's see. Ms. Behnken 
is the Executive Director, Alaska Longline Fishermen's 
Association. Mr. Bonzek, Fishery Data Analyst, NorthEast Area 
Monitoring and Assessment Program, Department of Fisheries 
Science, Virginia Institute of Marine Science, College of 
William and Mary.
    Dr. Breidt, Professor of Statistics and Associate Chair, 
Department of Statistics, Colorado State University, and member 
of the National Research Council's Committee on the Review of 
Recreational Fisheries Survey Methods.
    Mr. Christopher Horton, Midwestern States Director, 
Congressional Sportsmen's Foundation and member of the Marine 
Fisheries Advisory Committee's Recreational Fisheries Working 
Group.
    Dr. Kevin Stokesbury, Associate Professor and Chair, 
Department of Fisheries Oceanography, University of 
Massachusetts-Dartmouth School for Marine Science and 
Technology.
    Captain Mike Colby, President, Double Hook Charters, 
Clearwater, Florida.
    Panel, you may have seen the previous instructions. 
Basically, make sure that when you speak, that you push the 
button to turn it on and make sure the tip of the microphone is 
close by. You have 5 minutes to give your testimony. You will 
be under the green light the first 4 minutes, a yellow light 
the last minute. And then, if it turns red before you are done, 
please go ahead and wrap up as soon as possible, because your 
testimony will appear in full in the record.
    Therefore--let's see. The Chair recognizes Mr. Keating for 
an introduction.
    Mr. Keating. Thank you, Mr. Chairman. And thank you, 
Ranking Member Sablan, for holding today's hearing. And I also 
want to thank Ranking Member Markey for his invitation to 
introduce one of today's witnesses. I have the honor of 
representing the port City of New Bedford in Massachusetts, 
home to the esteemed Kevin Stokesbury, who is an Associate 
Professor and Chair at the Department of Fisheries and 
Oceanography at the University of Massachusetts-Dartmouth 
School for Marine Science and Technology.
    Dr. Stokesbury received his bachelor's of science in marine 
biology and master's of science in marine ecology at Acadia 
University in Nova Scotia in 1984 and in 1987. He then went on 
to complete his Ph.D. in marine ecology at the Universite Laval 
in Quebec City, Quebec, in 1994. From 1994 to 1996 he worked as 
a research assistant for the Center of Marine Science and 
Research at the University of North Carolina at Wilmington 
before moving on to the University of Alaska Fairbanks, as a 
research assistant until 1998.
    It was then, nearly 15 years ago, in September 1998, that 
he first joined the School of Marine Science and Technology, 
SMST, at the University of Massachusetts-Dartmouth as an 
associate fellow, and where he quickly became an associate 
professor 2 years later. Since 2005, Dr. Stokesbury has served 
as the Chair of the Department of Fisheries and Oceanography.
    Kevin's contributions to SMST, fisheries research, and the 
fishing community both within and outside of Southeastern 
Massachusetts is immeasurable. His innovative approaches to 
mapping scallop populations have revolutionized scallop 
management by using still photos and now high-resolution 
videos, as he has paved the way for groundbreaking cooperative 
research involving members of the fishing industry.
    I think Kevin is a tremendous asset to the marine science 
community. I look forward to his testimony and I thank you for 
allowing me to introduce him.
    Dr. Fleming. The gentleman yields back. The Chair, 
therefore, recognizes Mr.--I am sorry. Yes, here we are. The 
Chair recognizes Ms. Behnken for 5 minutes.

STATEMENT OF LINDA BEHNKEN, EXECUTIVE DIRECTOR, ALASKA LONGLINE 
                    FISHERMEN'S ASSOCIATION

    Ms. Behnken. Thank you, Mr. Chairman and members of the 
Committee. I work with a group of fishermen who understand the 
importance of good data to sustainable fisheries management, as 
well as the need to use a diverse set of monitoring tools to 
gather good data. We have partnered with NMFS on a number of 
research projects to advance data collection. Our most recent 
project was a joint cooperative project in electronic 
monitoring. That will be my focus today.
    EM is in use or in development in Canada, Europe, 
Australia, and New Zealand. In the U.S. there have been 20 
pilot programs to test EM. In my written comments I cited a 
number of the pilot programs and provided information on the 
very successful EM system that monitors halibut and groundfish 
off of the west coast of Canada.
    To summarize, EM systems now generally achieve 98 percent 
reliability at catch monitoring, 94 to 96 percent of the fish 
can be identified to the species level, and EM achieves a 40 to 
60 percent reduction in the cost over human observers for 
monitoring. Multiple studies have compared EM to human 
observers on providing catch composition data and found EM 
equally effective.
    For example, a 2011 study concluded EM has been 
demonstrated to be an effective tool for at-sea monitoring, 
delivering fishing effort and catch data comparable to on-board 
observers. ALFA, the group that I run, our pilot program 
focused on refining EM deployment, operations, and cost in the 
hook-and-line halibut sable fish fishery off of Alaska.
    NMFS's role in the pilot was to identify data collection 
objectives, performance standards, and the regulatory structure 
necessary to integrate EM with the restructured observer 
program that went into place in Alaska in 2013. I included a 
copy of ALFA's EM pilot program report to the fleet with my 
written comments, but I will just summarize here.
    EM systems were deployed on 41 longline trips and monitored 
215 longline hauls. EM systems captured a complete video record 
of 95.3 percent of the hauls. EM proved reliable and fully 
capable of providing the assessment of catch and catch 
composition that NMFS had identified as their pilot program 
objectives. And at $200 to $330 per sea day, EM monitoring 
costs were far less than the human observer program in Alaska, 
and a third of the human observer cost under the new, 
restructured program.
    Despite this success, EM is not yet available to our fleet 
as an alternative to human observers. Concerns still linger 
about collecting biological data and length/weight data on 
released fish. I want to briefly address those concerns and put 
them to rest.
    In Alaska's halibut sable fish fishery, biological data is 
collected during annual surveys through dockside sampling of 
catch and by observers on the larger boats. Relative to length/
weight data on released fish, our Canadian neighbors use a 
measurement board outboard of the hauling station, which is a 
brightly painted board with contrasting stripes of color. Fish 
are held for three seconds in front of this board to allow the 
video to capture the length of the fish, and a reviewer to 
calculate the weight. This low-tech strategy works, as does EM, 
for monitoring catch and by-catch. This system may be automated 
in the future, but reliable and statistically viable systems 
are available now, and currently in use.
    In short, EM offers benefits for a number of U.S. 
fisheries. EM is urgently needed as an at-sea monitoring 
alternative by the small boat vessels that cannot afford the 
cost, safety concerns, logistical challenges, and intrusions 
imposed by observers.
    Our fleet pays an assessment. Everybody in the fishery is 
paying for the program to monitor all these fisheries. It is an 
industry-funded program. What we are looking for is a program 
that works on our small boats. What we see is that EM collects 
necessary data without any of the issues, costs, or intrusions 
associated with a human observer.
    In conclusion, the U.S. needs to move from pilot program to 
full implementation of EM as an alternative to human observers. 
In doing so, managers need to recognize that EM supplements 
stock assessment surveys, dockside sampling, and observations 
for larger boats. EM technology will continue to evolve. But, 
as I said, the perfect should not be the enemy of the good. 
Reliable systems are available now to assess catch, and should 
be used.
    Specific to our fisheries in Alaska, what we need is a 
percentage of the fees that are collected from our fleet to be 
dedicated to EM deployment in our fleet. We need waivers from 
human observer coverage from boats that are carrying EM. And 
finally, we need NMFS to provide a vehicle to implement EM in 
2014. Thank you, and I would be happy to answer questions.
    [The prepared statement of Ms. Behnken follows:]

            Statement of Linda Behnken, Executive Director, 
                Alaska Longline Fishermen's Association

    Chairman Fleming and Members of the Subcommittee, thank you for 
this opportunity to testify on data collection in our Nation's 
fisheries.
    I am a commercial fisherman and have been for 30 years. I served on 
the North Pacific Fishery Management Council from 1992-2001 and 
continue to actively participate in the Council process. I am the 
Executive Director of the Alaska Longline Fishermen's Association 
(ALFA), based in Sitka, Alaska, and am representing ALFA's over 100 
members with this testimony.
    ALFA members participate in the halibut/sablefish catch share 
fisheries, which are fixed gear or hook and line fisheries managed with 
Individual Fishing Quotas (IFQ). Our members are deckhands or owner/
operators of vessels that range in size from open skiffs to 72 foot 
vessels, but the majority of the vessels are less than 60 feet in 
length. ALFA is a community-based organization with a strong commitment 
to sustainable fisheries and healthy fishing communities.
    ALFA recognizes the importance of accurate data collection and the 
role it plays in science-based fisheries management. Over the years, 
our Association has engaged in multiple research projects, including a 
number of cooperative research projects with the National Marine 
Fisheries Service (``NMFS'') in order to improve the data collection 
program so that we can better manage our Nation's fisheries. Of 
particular relevance to this hearing is ALFA's recently completed two-
year electronic monitoring pilot program. This pilot program was funded 
by a National Fish and Wildlife Foundation Fisheries Innovation Fund 
grant. Our project partners were the NMFS Alaska Fisheries Science 
Center and other Alaska-based fishing organizations. Our goal was to 
assist in developing an electronic monitoring (``EM'') system that 
could be used to improve fisheries data collection when Alaska's 
Restructured Observer program would be expanded to include small boats. 
We were specifically interested in improving deployment efficiencies 
and paving the way for a full scale cost effective EM program that met 
NMFS' data needs in the halibut/sablefish IFQ fisheries. More on that 
project later; but first some background on Alaska's observer program.
North Pacific Observer Program
    The Alaska groundfish industry has operated with an industry-funded 
observer program for over 20 years. Until 2013, observer coverage 
requirements were based on vessel size, with vessels between 60 feet 
and 125 feet required to carry observers for 30 percent of their 
fishing time, and vessels over 125 feet operating with 100 percent 
coverage requirements. Halibut boats and boats less than 60 feet were 
exempt from coverage. Vessel owners were responsible for arranging 
observer coverage with observer contractors. Vessel owners also paid 
for that coverage through a ``pay-as-you-go'' system--vessels that 
carried an observer paid a daily fee to the observer contractor. 
Vessels that did not carry an observer, or were exempt from coverage, 
did not pay a fee. For years, NMFS has managed major groundfish 
fisheries based on the data collected from these observers and has 
opened and closed target fisheries when bycatch caps for halibut, 
salmon or crab were reached. NMFS and the International Pacific Halibut 
Commission (``IPHC'') have also successfully managed the non-observed 
groundfish and halibut fisheries relying on stock assessment surveys 
and dockside sampling for biological data and shore-side delivery 
systems for catch accounting.
Restructuring the North Pacific Observer Program
    In 2010, the North Pacific Fishery Management Council (``Council'') 
initiated amendments to change the observer fee structure and the 
observer service delivery model for partial coverage vessels. The 
Council also identified an interest in additional at-sea monitoring of 
halibut vessels and groundfish vessels less than 60 feet. NMFS 
clarified that the agency's ``primary monitoring need'' for the 
halibut/sablefish fleet was ototal catch composition and species 
discards, to complement the existing [International Pacific Halibut 
Commission] dockside monitoring program.'' \1\
---------------------------------------------------------------------------
    \1\ http://alaskafisheries.noaa.gov/npfmc/PDFdocuments/
conservation_issues/Observer/311_OACreport.pdf.
---------------------------------------------------------------------------
    In 2013, the restructured observer program was implemented. Under 
the new program, all fishermen operating in federally managed halibut 
and groundfish fisheries off Alaska pay a percentage-based observer fee 
on ex-vessel price \2\ of the fish they deliver, whether the boat 
carries an observer that year or not. The program also authorizes NMFS 
to require observers on any size vessel and, for the first time, on 
halibut vessels. In these first years of the program, boats 40 feet and 
longer are being randomly selected for coverage.
---------------------------------------------------------------------------
    \2\ In theory, the observer fee is to be paid equally by fishermen 
and processors. In practice, NMFS and the Council acknowledge that the 
entire fee will likely be charged to fishermen.
---------------------------------------------------------------------------
    Early in the restructuring process, ALFA and other organizations 
representing small, fixed-gear boats made clear to the Council and NMFS 
that our members support at-sea monitoring and are willing to pay a 
fair share of at-sea monitoring costs. We believe in improved data and 
support that objective. However, small boats represent 90 percent of 
the vessels directly regulated under the new observer program, and 
placing human observers on these vessels presents special problems.
    Two options are available for gathering at-sea data: human 
observers or EM. EM uses cameras, video equipment, and sensors on 
fishing vessels to record catch and vessel position. For the small boat 
fleet, EM is a better option to gather needed data. EM is a better 
option because working space on Alaska's small boat fleet is limited 
and living space is cramped at best. Fishermen, fisher women, and 
fishing families spend months living in a space that is roughly 
equivalent in size to a station wagon. Fishing time is weather-
dependent, and boats can wait in town for weeks for fishable weather. 
Few boats have an extra bunk to offer an observer, and almost none can 
provide privacy. Observers must be fed and housed during and between 
fishing trips and vessel owners must purchase personal indemnity 
insurance and add safety equipment to accommodate observers. Observers 
need space for their sampling equipment and room to work both on deck 
and in cramped living quarters. In sum, human observers impose costs, 
safety issues, intrusions, and disruptions for small fishing boats and 
their crews.
    In contrast, EM equipment collects necessary data without any of 
these issues. An EM unit sits idle while the boat waits for safe 
fishing weather, requiring neither a hotel nor food. EM units do not 
need bunk space to sleep. EM units do not get seasick, nor are they 
precluded from working on deck by safety concerns during particularly 
rough weather.\3\ Vessel owners do not have to buy additional safety 
equipment or purchase liability insurance for EM units. EM 
automatically turns on when a boat sets or hauls gear, providing an 
accurate and re-creatable record of catch. And EM is accurate. To quote 
a 2009 article that evaluated EM monitoring of yelloweye rockfish:
---------------------------------------------------------------------------
    \3\ http://www.afsc.noaa.gov/Publications/AFSC-TM/NOAA-TM-AFSC-
213.pdf. See page 54.
---------------------------------------------------------------------------
        Since these data come from video footage collected at the 
        moment of capture, the video estimate cannot be corrupted by 
        misreporting of discards or by dumping fish after being 
        retained. Thus, the video data provide an 
        unbiased and virtually independent catch estimate--rare in 
        fisheries 
        monitoring--that captures the extent to which the official 
        catch accounting systems might be biased.\4\
---------------------------------------------------------------------------
    \4\ http://dx.doi.org/10.1577/C09-005.1.
---------------------------------------------------------------------------
    Alaska's halibut/sablefish fleet uses hook and line gear to harvest 
fish. Fish are hauled aboard one at a time, which makes this fleet 
particularly well suited to EM. As each fish is brought aboard, it can 
be recorded on video. Likewise the gear, a single line with hooks 
attached, is deployed from one point on the boat and can easily be 
video monitored. In short, EM can be used to secure the catch and 
bycatch data NMFS identified as its objective for this fleet.
    To ensure EM was ready for implementation concurrent with the 2013 
launch of the restructured observer program, ALFA initiated the EM 
Pilot Program mentioned in the opening paragraphs of this testimony. 
Likewise, the Council signaled its intent that EM be used as an 
alternative to human observer coverage. The Council stated:
        ``The Council also approved a motion to task the Observer 
        Advisory Committee, Council staff, and NMFS staff to develop 
        electronic monitoring as an alternative tool for fulfilling 
        observer coverage requirements with the 
        intent that it be in place at the same time as the restructured 
        observer 
        program.'' \5\
---------------------------------------------------------------------------
    \5\ http://alaskafisheries.noaa.gov/npfmc/PDFdocuments/
conservation_issues/Observer/ObserverMotion610.pdf.
---------------------------------------------------------------------------
    In the pilot program, ALFA's responsibility was to refine EM 
deployment and operation, capturing costs and equipment effectiveness. 
NMFS' role was to identify the performance standards and regulatory 
structure necessary to integrate EM with the restructured observer 
program. As the Council noted, the pilot program was ``intended to 
provide operational experience and thus a basis for adding any 
necessary specificity to the regulations.'' \6\ I have included a copy 
of ALFA's EM Pilot Program Final Report with this testimony, but have 
summarized the results below.
---------------------------------------------------------------------------
    \6\ http://alaskafisheries.noaa.gov/npfmc/PDFdocuments/
conservation_issues/Observer/Council_EMLtr051412.pdf.
---------------------------------------------------------------------------
    EM lived up to the fleet's expectation regarding performance, 
dependability and costs. ALFA contracted with Archipelago Marine 
Services (AMR), the Victoria-based company that has so successfully 
developed and deployed EM systems on Canadian halibut and groundfish 
vessels, to provide the necessary hardware and software for the pilot 
program. AMR's expertise and knowledge of the fishing fleet were 
significant factors in the pilot program's success. Over two years, EM 
systems were deployed on 41 fishing trips and monitored 215 longline 
hauls. The EM systems captured a complete video record of 95.3 percent 
of the hauls. Notably, 94 percent of captured fish were identified by 
species, with the remainder identified to a species grouping (e.g., 
rougheye/shortraker rockfish). It is also significant that at $200-$330 
per day, EM monitoring costs were less than observer costs under 
Alaska's previous ``pay as you go'' observer program and less than \1/
3\ of the observer costs under the 2013 restructured observer program. 
In short, EM proved reliable, cost effective, and fully capable of 
providing the assessment of catch and catch composition that NMFS 
identified as the primary monitoring objective for this fishery.
    Bolstered by this success, EM was included as an alternative to 
human observers for the halibut/sablefish IFQ fishery in the proposed 
rule that was reviewed by the industry and recommended by the Council. 
To our dismay, NMFS subsequently dropped EM as an alternative to human 
observers, stating the observer amendment lacked the necessary 
specificity. In its place, NMFS is providing a voluntary EM pilot 
program that supplements, rather than acts as an alternative, to human 
observer coverage.
Where We Are Now
    Although the cooperative research program conducted by ALFA and 
NMFS, the Canadian experience, and 20 other EM pilot programs 
demonstrate the success of EM, NMFS remains reluctant to use EM as an 
alternative to human observers. We understand that the technology will 
continue to evolve and improve but we feel strongly that we should not 
let the perfect be the enemy of the good. Alaska's small boat fishermen 
believe NMFS' fears are inconsistent with the proven history of EM in 
the U.S. and Canada, and that adequate technology is available now to 
integrate EM with Alaska's restructured observer program. I would like 
to take this opportunity to address some of the issues that have been 
raised and to relate some of the ways those issues have been resolved.
What EM Can Do
            Biological data

    NMFS and the IPHC currently secure ``biological sampleso'' from the 
sablefish and halibut stock assessment surveys and from the commercial 
fishery through at-sea and/or dockside samplers to meet stock 
assessment needs. Both sablefish and halibut fisheries have annual, 
resource-funded surveys (i.e., the fish are sold to off-set survey 
costs) that collect most of the information needed for stock 
assessments. The sablefish stock is managed with an age structured 
model that uses approximately 1,200 otoliths, or ear bones, collected 
from harvest in the commercial fishery each year. Currently, observers 
at-sea and in shore-based processing plants collect 3,000 to 5,000 
sablefish otoliths each year, but only 1,100 to 1,200 are actually aged 
and used in the assessment.\7\ The IPHC uses dockside samplers to 
collect biological information from the commercial fishery for the 
halibut stock assessment.\8\ This collection program is funded and 
conducted independent of the observer program. Of the bycatch species 
taken in these fisheries, only rougheye rockfish has an age structured 
model and this model uses approximately 300 to 400 otoliths in total 
which are currently collected from the fixed gear and trawl fisheries. 
All other rockfish species taken as bycatch have stock assessments that 
do not rely on biological samples from the commercial fisheries. In 
other words, EM does not need to provide biological data for the 
halibut/sablefish fisheries. A working system is already in place.
---------------------------------------------------------------------------
    \7\ http://access.afsc.noaa.gov/al/searchform.cfm.
    \8\ http://www.iphc.int/publications/rara/2010/
2010.67.Commercialcatchsampling.pdf.
---------------------------------------------------------------------------
    When designing a monitoring program, it is essential that managers 
first conduct this kind of fishery specific assessment. Managers should 
ask: what data and biological samples do fishery managers need and how 
much of that data will be used? These questions should be separated 
from: what data and biological samples can be gathered? For example, if 
stock assessment scientists are not using an age structured model, how 
relevant is age data? If they are using an age-structured model and 
that model requires 1,000 samples--who benefits by observers collecting 
3,000 samples?
    Second, managers need to consider the full suite of management 
tools available to collect necessary data, including biological 
samples. To quote one of the Guiding Principles identified by a team of 
fisheries experts who met in April, 2011 to develop guidelines for 
fisheries monitoring programs: ``Monitoring programs should consider a 
comprehensive suite of monitoring options and should be as thorough as 
possible at the outset of the program.'' \9\ Can the data be collected 
shore-side through dockside sampling? Can sufficient samples be 
collected from survey boats or larger commercial boats harvesting the 
same species? If some at-sea biological sampling is needed beyond what 
is currently gathered--how much? Collecting more data than NMFS has the 
resources to analyze or use accomplishes nothing at great cost to the 
industry. A careful evaluation of the data that is actually needed 
dictates the type of data collection program that is required. As to 
our fisheries, biological data is already being gathered. If there is, 
in fact, a need for more such data, it can be gathered when the vessels 
bring their catch to shore or by the larger vessels participating in 
the fishery.
---------------------------------------------------------------------------
    \9\ http://www.archipelago.ca/docs/
GuidingPrinciplesForMonitoringPrograms.pdf, p. 23.
---------------------------------------------------------------------------
            Length and Weight Data

    EM is currently used to gather length and weight data from 
commercial fisheries. In Canada's west coast halibut and groundfish 
fisheries, vessel owners have the option of attaching a brightly 
painted ``measurement board'' sporting horizontal stripes of 
contrasting colors to the side of their boat where the fish are brought 
aboard so the EM unit can record the length of any released fish. 
Remember that in these hook and line fisheries fish are brought aboard 
one at a time, with the ``rollerman'' carefully assisting each fish 
onto the boat. For catch that is retained, weight and length data are 
captured when the catch is brought to shore. To secure length data from 
fish that will not be retained, these Canadian fishermen are required 
to hold the fish over the measurement board for 3 seconds, which allows 
video reviewers to estimate length. Length is then converted to weight 
using species specific tables that have been developed over the years 
during stock assessments and catch monitoring. If the footage fails to 
adequately capture length, or a measurement board is not used, an 
average length and weight is assumed and assigned.\10\ This low 
technology alternative is effective and time tested. It can be deployed 
immediately in Alaska's small boat fishery.
---------------------------------------------------------------------------
    \10\ http://www.iphc.int/documents/commercial/bc/ifmp2011.pdf, 
Appendix 2.
---------------------------------------------------------------------------
    In time, EM systems can be expected to automate the length/weight 
conversion process and we are prepared to work with NMFS to test and 
improve automated systems. In the meantime, we should be using reliable 
and cost effective monitoring technology to gather the necessary data. 
That technology and equipment exist, are dependable, and are already in 
use.
            Species Identification

    Multiple pilot studies have compared the ability of human observers 
and EM to identify fish to the species level. While some species (small 
flounder and some rockfish) are more difficult to identify than others, 
when data produced by human observers and trained EM reviewers are 
compared, there is almost no difference in species identification 
accuracy. A 2010 IPHC study that compared human observers to EM 
reported:
    Comparison of species identification of catch between standard 
observer estimation, complete hook-status observer coverage, and EM 
coverage showed statistically unbiased and acceptable comparability for 
almost all species except for some that could not be identified beyond 
the species grouping levels used in management. Similarly, comparisons 
of total species-specific numbers of fish estimated using EM collected 
and hook-status observer-collected data showed few statistically 
significant differences. Based on this study, although limited in 
scope, EM can provide an additional tool for catch monitoring in the 
commercial halibut fishery.\11\
---------------------------------------------------------------------------
    \11\ http://www.afsc.noaa.gov/Publications/AFSC-TM/NOAA-TM-AFSC-
213.pdf, p. iii.
---------------------------------------------------------------------------
    The 2011 Morro Bay pilot program concluded:
        Consistent with the findings of the 2008 study, EM has been 
        demonstrated to be an effective tool for at sea monitoring, 
        delivering fishing effort and catch data comparable to on-board 
        observers. There is no need for continuing to concentrate 
        future research efforts on comparing EM data with 
        observers.\12\
---------------------------------------------------------------------------
    \12\ http://www.pcouncil.org/wp-content/uploads/EM_AttB2b-
Att1_FG_MorroBayPilot.pdf, p. 36.
---------------------------------------------------------------------------
    Likewise in the previously referenced 2011/12 ALFA pilot program, 
94 percent of the fish captured were identified to the species 
level.\13\ EM can and is identifying fish to the species level and EM 
compares very favorably to human observers in doing so.
---------------------------------------------------------------------------
    \13\ http://www.alfafish.org/observer-programelectronic-
monitoring.html.
---------------------------------------------------------------------------
            Cost Data

    When NMFS analyzed options to restructure the North Pacific 
Observer Program, the agency estimated an observer day would cost 
$467.\14\ When the 2013 Annual Deployment Plan was released last fall, 
the cost of an observer day had increased to $980. (4,153 days 
purchased with $4.4 million.) \15\ Although Federal startup funds are 
paying 2013 observer costs, fees are being collected from the industry 
this year and the industry will foot the entire bill from here forward.
---------------------------------------------------------------------------
    \14\ http://alaskafisheries.noaa.gov/npfmc/PDFdocuments/
conservation_issues/Observer/Observer_restructuring910.pdf, p. A-23.
    \15\ http://alaskafisheries.noaa.gov/npfmc/PDFdocuments/
conservation_issues/Observer/2013DeploymentPlanFiinal.pdf.
---------------------------------------------------------------------------
    In comparison, EM pilot programs in the U.S. and the EM program on 
the West Coast of Canada have daily costs that range from $194 per day 
to $580 per day, with the upper end cost in a Canadian trawl fishery. 
\16\ Costs in ALFA's EM halibut/sablefish pilot program were $200 per 
day for Sitka-based boats and $330 per day for Homer-based boats. In 
short, EM promises significant cost savings to the fishing industry, 
where observer programs are industry funded, and savings to NMFS where 
the Federal government is footing the bill.
---------------------------------------------------------------------------
    \16\ http://www.pcouncil.org/wp-content/uploads/EM_AttB2b-
Att1_FG_MorroBayPilot.pdf, p. 31.
---------------------------------------------------------------------------
            Funding EM

    Section 313 of the Magnuson-Stevens Act authorizes the North 
Pacific Council, in consultation with the Secretary of Commerce, to 
establish a fee system to fund Alaska's observer program. That fee may 
be used to ``. . . station observers or electronic monitoring systems 
on board fishing vessels . . .'' \17\ At present, the full revenue 
stream from the industry is dedicated to deploying human observers on 
boats in Alaska and EM deployment is dependent on grant money or other 
opportunistic sources. That needs to change. Since the our fleet is 
better suited to EM than human observers, EM is cost effective, and 
observers fees paid by the industry may be dedicated to EM deployment, 
some or all of the observer tax revenue generated by the sablefish/
halibut fleet should be dedicated to EM deployment in this fleet. Then 
EM will have a sustained, industry-funded revenue source.
---------------------------------------------------------------------------
    \17\ http://www.nmfs.noaa.gov/sfa/magact/.
---------------------------------------------------------------------------
Why Not EM?
    EM provides a verifiable and permanent record of catch. EM can be 
used as part of an integrated monitoring program to meet identified 
management needs. EM is currently used with a high degree of accuracy 
to identify fish at the species level and to obtain length/weight 
measurements. EM is cost effective, less intrusive, and avoids safety 
issues associated with accommodating extra people on small boats. The 
fleet supports data gathering through EM. Yet, right now in Alaska, 
long-time small boat owners are selling their quota and Federal 
licenses, unwilling or unable to bear the extra burden of carrying an 
observer. By way of example, ALFA has a member I will call Dave who has 
been halibut fishing for 40 years. Dave, like many fishermen, is more 
comfortable with fish than with people he doesn't know. Even the 
potential of being selected for observer coverage this year has caused 
him to place his quota on the market. Dave told me: ``I would rather 
face a gale than the strain of keeping someone I don't know safe and 
comfortable on my boat.'' The job loss and impacts to communities of 
this additional consolidation of the fleet will be long-term and 
irreversible unless EM is implemented as an alternative to human 
observers.
    In the Final Rule that implemented the Alaska restructured observer 
program, multiple commenters posed the question to NMFS: Why not EM? In 
one response, NMFS stated that EM cannot be required because the Agency 
has not yet ``developed performance standards and technical 
specifications'' but that they are committed to further development of 
EM.\18\ After 20 U.S. pilot programs and watching our Canadian 
neighbors successfully implement an integrated EM program we can only 
ask--what can we do to make sure this proven technology is used in 
2014? We thought we had done what was needed with our pilot program but 
are standing by to do whatever else is in our power to do to secure an 
EM alternative for our fleet by 2014.
---------------------------------------------------------------------------
    \18\ http://alaskafisheries.noaa.gov/frules/77fr70062.pdf, p. 
70081.
---------------------------------------------------------------------------
Building Better Data Collection Systems
    Data collection is critical to fisheries management. Monitoring 
fisheries catch is an important element of data collection. In 
designing monitoring systems, managers need to first identify goals and 
objectives. As a recently released document titled ``Fisheries 
Monitoring Roadmap'' states, ``once monitoring objectives are clearly 
identified, only then can an appropriate combination of monitoring 
activities and tools be identified to successfully achieve these 
goals.'' \19\ (Emphasis added.) To ensure these tools are used in the 
most effective, efficient and least burdensome way, stakeholders should 
be actively engaged in designing the monitoring program. To quote 
another monitoring study: ``From the outset of planning a monitoring 
program stakeholder engagement is crucial in effectively garnering 
support from diverse constituents to work toward common goals, avoid 
redundancies, and utilize knowledge within the fishery.'' \20\ Once 
objectives are indentified, stakeholders and managers can work together 
to identified the right suite of monitoring tools to secure the 
necessary data. We stand ready to work with NMFS to improve data 
collection and to add capabilities to the existing EM technology. But, 
as I stated earlier, we should use what we have that is proven. The 
perfect should not be the enemy of the good. Finally, we are willing to 
pay for EM deployment in our fleet and urge 30 percent of the observer 
program revenue collected from our fleet be dedicated to EM deployment 
on halibut/sablefish IFQ vessels.
---------------------------------------------------------------------------
    \19\ http://www.nmfs.noaa.gov/sfa/reg_svcs/Councils/ccc_2013/
K_FisheriesMonitoringRoadmap.pdf, p. 3.
    \20\ http://www.archipelago.ca/docs/
GuidingPrinciplesForMonitoringPrograms.pdf, p.5.
---------------------------------------------------------------------------
What Can Congress Do To Improve Data Collection?
    ALFA's recommendations for improved data collection on a National 
scale are:

      Direct NMFS to identify fishery specific monitoring objectives 
and to work with stakeholders to identify the right combination of cost 
effective monitoring tools to achieve objectives while ``providing for 
the sustained participation of . . . communities.''
      Direct NMFS to move beyond pilot programs to full integration of 
EM into fisheries monitoring programs, and to provide EM to small fixed 
gear boats now, as an alternative to human observer coverage, where at-
sea monitoring is required.

    Specific to improving data collection in the Alaska halibut/
sablefish IFQ fisheries, ALFA recommends the following:

      Integrate EM now, as an alternative to human observer coverage, 
in the halibut/sablefish IFQ fishery with the initial focus on 
assessing catch and estimating discards;
      Don't let the perfect be the enemy of the good: recognize that 
EM is part of an adaptive, integrated approach to at-sea monitoring 
that will accommodate additional or changing monitoring objectives and 
technological improvements;
      Work with industry and EM experts to deploy vessel appropriate 
and reliable technology, resolve logistical details, and achieve 
monitoring goals within cost targets;
      By 2014 and beyond, adequately and sustainably fund EM 
deployment by dedicating 30 percent of the observer fees collected from 
halibut and sablefish vessels to EM implementation in these fisheries;
      Release vessels carrying EM from human observer coverage in 2013 
and beyond, or change policy as needed to allow an Exempted Fishing 
Permit to engage the halibut/sablefish fleet in a full-scale EM program 
by 2014.

    Thank you for the opportunity to testify. I would be happy to 
provide any additional information that might help you in your work on 
this important issue.
                                 ______
                                 
    Dr. Fleming. Thank you, Ms. Behnken.
    Next, Mr. Bonzek for 5 minutes.

   STATEMENT OF CHRISTOPHER F. BONZEK, FISHERY DATA ANALYST, 
  NORTHEAST AREA MONITORING AND ASSESSMENT PROGRAM (NEAMAP), 
 DEPARTMENT OF FISHERIES SCIENCE, VIRGINIA INSTITUTE OF MARINE 
              SCIENCE, COLLEGE OF WILLIAM AND MARY

    Mr. Bonzek. Good morning. My name is Christopher Bonzek, 
and I serve as a member of the professional faculty at the 
Virginia Institute of Marine Science, which is a unit within 
the College of William and Mary in Virginia. Along with my 
research partners, Dr. Robert J. Latour and Mr. James Gartland, 
we serve as principal investigators for the Northeast Area 
Monitoring and Assessment Programs, Near Shore Fishery 
Independent Trawl Survey, or NEAMAP.
    While the label NEAMAP is most often associated just with 
our cooperative research survey, the trawl survey that we 
conduct is actually just one element under the larger Atlantic 
States Marine Fisheries Commission's coordination umbrella. The 
term ``cooperative fisheries research'' represents a continuum 
of partnerships between fishermen and scientists which, at its 
best, becomes collaborative research, in which a full and 
constant exchange of ideas takes place, with all parties 
understanding the goals of and the importance of the 
collaboration.
    We on the scientific side, along with our industry 
partners, Captain James Ruhle and his sons, have worked hard to 
make our survey a truly collaborative venture. When first 
conceived, our NEAMAP survey was not intended to necessarily be 
a cooperative research program. It is our great good fortune 
that it became one.
    Our survey is designed to complement, both geographically 
and temporally, the surveys conducted by NOAA's Northeast 
Fisheries Science Center. We cover a broad latitudinal range 
between Cape Cod and Cape Hatteras within about 20 miles from 
the shore line, where NOAA cannot presently sample, due to the 
large size of their research vessel. This relatively narrow 
band of water is heavily used by both fish and fishermen. Our 
current 6-year time series is just now reaching the point at 
which it will become most useful to assessment scientists and 
to fishery managers.
    Our work is presently funded in what I believe to be a 
unique mechanism for large-scale, multi-purpose survey work. 
Under the current Magnuson-Stevens authorizations, fishery 
management councils can remove, or set aside, small portions of 
the quotas for certain species to fund research. Each year the 
Mid-Atlantic Council's research set-aside program grants us 
fish, rather than dollars: for 2013, a total of about 2.5 
million pounds divided among 5 species. While our grant is 
administered by NOAA, no Federal dollars are expended. We raise 
research dollars by auctioning off our quota to fishermen, in 
partnership with the National Fisheries Institute, a private 
foundation.
    This market-based funding is appealing on many levels. For 
example, it literally provides buy-in from stakeholders, which 
I believe is one reason why our survey is viewed by many as 
being a good model. This funding mechanism is limited, however, 
in how broadly it could be expanded.
    Among other reasons why our survey is often thought of as a 
good model include both transparency and proprietorship. As to 
transparency, during so-called ``demo days,'' to date we have 
provided about 300 stakeholders, the press, office holders, and 
citizens with the opportunity to view firsthand the actual 
process that we undertake at each sampling location. Let me 
personally invite each of you to spend a few hours with us one 
day in the near future.
    As to proprietorship, I believe we are the only large-
scale, multi-purpose survey which is conducted by an entity 
other than an agency which also sets regulations. That 
separation of research and management functions provides for 
additional credibility and may be a model to follow in the 
future.
    A number of new technologies are becoming available which 
will have the potential to vastly increase the amounts and the 
quality of data provided by surveys such as ours. A few of 
these technologies are described in my written statement to the 
Subcommittee. Unfortunately, I don't have time to speak about 
them right here.
    Permit me to offer several recommendations for how fishery-
independent data collection might be improved through 
modifications to Magnuson-Stevens. These include, first, 
encourage the standardization of sampling gears among surveys; 
develop inter-survey and intra-survey calibrations; encourage 
the maximization of the amounts and types of data recorded by 
fishery-independent surveys; develop regional fish aging and 
fish diet centers; and last, and no doubt you will love it, 
provide adequate and stable funding for surveys. Details 
regarding these recommendations are included in my written 
submission.
    In closing, I would emphasize that fish stock assessments 
and fishery management actions can be no better than the 
underlying data upon which they depend. Further, it is a fact 
that lack of data results in uncertainty, and under the current 
Magnuson-Stevens Act--as you, Mr. Chairman, noted earlier--
uncertainty translates directly to lower quotas and lost 
dollars.
    While each of my recommendation would mean expenditure of 
scarce dollars, the costs are small compared to the potential 
that exists in providing for healthy fish stocks and, most 
importantly, in healthy fishing communities.
    I thank the Chair and the Subcommittee for the opportunity 
to play a role in the reauthorization process for Magnuson-
Stevens, and I stand ready to help you in any way that I 
possibly can.
    [The prepared statement of Mr. Bonzek follows:]

  Statement of Christopher F. Bonzek, Fishery Data Analyst, Northeast 
    Area Monitoring and Assessment Program (NEAMAP), Department of 
  Fisheries Science, Virginia Institute of Marine Science, College of 
                            William and Mary

    I thank the Committee for the invitation to relate our experiences 
with cooperative research and how such research has been and can be 
incorporated into the fishery stock assessment and management 
processes.
Credentials
    I serve at the Virginia Institute of Marine Science (VIMS), which 
is the legally assigned marine research agency for the Commonwealth of 
Virginia as well as the degree-granting School of Marine Science at the 
College of William and Mary. Along with my research partners Dr. Robert 
J. Latour and Mr. James Gartland, we serve as Principal Investigators 
for the North East Area Monitoring and Assessment Program's (NEAMAP) 
Near Shore Fishery Independent Trawl Survey in the Mid-Atlantic and 
Southern New England waters. I have been directly involved in fishery 
independent monitoring surveys since 1981 and have been responsible for 
the design and supervision of such surveys since 2000.
NEAMAP Background
    Though the term NEAMAP is most often associated only with the Mid-
Atlantic and Southern New England near shore trawl survey that we 
conduct, our survey is actually just one component under the larger, 
fishery-independent-surveys umbrella known as NEAMAP. NEAMAP was 
originally developed by the Atlantic States Marine Fisheries Commission 
(ASMFC) as a body to coordinate existing and future fishery-independent 
data collection efforts in the northeast and mid-Atlantic. Development 
of our survey was the first major task of NEAMAP to fill an appreciable 
gap in fishery-independent survey coverage in the coastal ocean between 
Cape Cod and Cape Hatteras.
    Now that our survey is fully operational, the NEAMAP oversight 
committees are beginning to expand their efforts to serve other 
coordination roles. These expanded roles include such activities as:
      Identifying other gaps in survey coverage and developing new or 
expanding current data collection efforts to fill data needs.
      Exploring standardization of data parameters collected among 
surveys.
      Exploring and evaluating new technologies (e.g. underwater 
cameras, current meters, bottom mapping equipment) that would either 
increase or streamline data collection efforts.
      Ensuring that data from fishery independent surveys are 
available to and included in the stock assessment process to the 
greatest extent possible.
      Holding a multi-surveys workshop at which survey personnel will 
describe and demonstrate their onboard data collection systems. The 
goal is to begin a process of data integration among surveys.
      Beginning to develop a web site at which multiple surveys will 
house their abundance indices at a one-stop address.
Cooperative Fisheries Research
    The term ``Cooperative Fisheries Research'' represents a continuum 
of partnerships between fishermen and scientists which at the top end 
becomes ``Collaborative Research'' in which a full and constant 
exchange of ideas takes place in an atmosphere of mutual respect with 
all parties understanding the goals of and the importance of the 
collaboration.
    When planned and executed properly, cooperative research efforts 
can yield results beyond answering the original scientific question. 
Being the perpetual and well-motivated students of natural processes 
that fishermen are, they will often make observations about phenomena 
which even an experienced scientist would never have considered. In a 
collaborative atmosphere, the scientists can take these observations 
which might otherwise be dismissed as ``anecdotal information'' and 
form testable scientific hypotheses.
    Most often, cooperative research efforts are relatively short term 
(1-3 years) projects designed to answer specific questions (e.g. to 
develop new fishing gear to reduce by-catch). In the Northeast, these 
projects are funded by the Cooperative Research Unit at the Northeast 
Fisheries Science Center. A number of excellent projects have been 
funded from that Unit.
    Less common, at least on the East Coast, are long-term monitoring 
programs conducted as cooperative or collaborative ventures. To the 
best of my knowledge, out of approximately 20 trawl-based estuarine and 
marine fishery-independent surveys on this coast, only two such 
programs exist:
      The Maine/ New Hampshire Inshore Trawl Survey. This survey has 
operated since 2000 in the near coast waters of Maine and New 
Hampshire. Funding is annual and has rotated among the Northeast 
Consortium, NOAA Cooperative Research, and Congressional line item 
funding. The survey now operates under the NEAMAP umbrella described 
above.
      The NEAMAP Mid-Atlantic and Southern New England Near Shore 
Trawl Survey. This is the survey which my partners and I operate. A 
full description of the survey and its funding is provided below. In 
many of my comments that follow, I will refer to our survey using the 
oNEAMAPo moniker even though the entire NEAMAP program encompasses a 
broader set of surveys.
NEAMAP Mid-Atlantic and Southern New England Near Shore Trawl
        Survey
    After successful completion of a pilot survey in the fall of 2006, 
funding was stitched together to begin full scale operations in the 
fall of 2007. Since then we have conducted two surveys per year, one in 
the spring and one in the fall, timed to complement but not to 
precisely match the Federal surveys. At the completion of our current 
spring 2013 survey, we will have completed six spring and six fall 
surveys. For many species, we are just now reaching the point at which 
our time series is long enough to reveal any underlying trends in 
abundance, or other biological characteristics, and to compare those 
trends with data from other sources.
    As previously mentioned, our survey covers the near shore waters 
between Cape Cod and Cape Hatteras. In the mid-Atlantic region our 
survey covers a strip of water between the 20ft. and 60ft. contours, 
which corresponds to a region that extends from just beyond the 
shoreline to between 3 and 25 miles offshore. In Southern New England 
we sample waters between 60ft. and 120ft., or to about 20 miles 
offshore (Figure 1). Most of these regions cannot presently be sampled 
by the Federal surveys conducted by the Northeast Fisheries Science 
Center due to the depth restrictions of the large survey vessel used 
since 2009. While the total sampling area of our survey is small 
compared to the Federal survey, the zones that we sample are heavily 
used by both fish and fishermen and without data such as ours, 
assessments would suffer and managers would lack important data upon 
which to base their actions.
    Both on the scientific side and our industry partners, Capt. James 
Ruhle, his sons, and his crew, we have worked hard to make our survey a 
truly collaborative venture. Nurturing such a relationship requires an 
ongoing effort. Our NEAMAP survey was not designed by ASMFC to 
necessarily be a cooperative research program. It is our good fortune 
that it became one.
    Data from our survey are viewed as being valuable and unbiased not 
only by scientists but by most members of both the commercial and 
recreational communities as well. Several factors contribute to that 
perception:
      We underwent an extensive and very positive peer review process 
in 2008.
      Both scientists and industry members know and trust that we and 
Capt. Ruhle will uphold the strictest standards for how our fishing 
gear is deployed and how data are collected.
      We have strived to be as transparent as possible and have 
conducted numerous `den days' during which we invite citizens, press, 
local, state, and Federal office holders, NGO's, and others to spend 
part of a day on our survey vessel to observe every detail of our data 
collection efforts. To date, approximately 300 individuals have direct 
experience observing our operations.
    It is worth special attention to note that the NEAMAP mid-Atlantic/
Southern New England survey is unique in that it not only is a prime 
example of collaborative research but that it is housed at an academic 
institution. All other large scale multi-species fishery independent 
monitoring surveys of which I am aware are operated by state or Federal 
agencies (other academic or private entities do conduct monitoring 
surveys but they tend to be very localized in geographic coverage). 
Most often these same agencies hold regulatory authority over fish 
stocks. Due to its designation as the mandated marine research arm for 
the Commonwealth of Virginia, VIMS has a long history of conducting 
similar surveys in Chesapeake Bay and along the Virginia coast so we 
were able to build upon that historical knowledge base when 
constructing the NEAMAP survey. While certain disadvantages may exist, 
operating surveys from such an institution has several distinct 
advantages:

      Most importantly, academic institutions do not hold any 
regulatory authority thus there can be no question about whether there 
exists any conflict of interest between the management and research 
missions. This is not to say that any other agency or survey has or 
would purposely skew its survey results, but that removing the 
perception of a conflict of interest can be just as important as an 
actual conflict.
      Conducting a fishery independent monitoring survey necessarily 
involves repetitive sampling, month after month, year after year. This 
can sometimes lead to complacency among survey investigators and staff. 
While this can be true no matter where such a survey resides, at an 
academic institution there is more of a tendency to view such surveys 
not only in the context of repetitive sampling but also in the larger 
context of providing a platform upon which to continually expand the 
scope of work. This adds considerable value to the surveys and also 
provides for new and more interesting tasks for staff.
      Because they have to respond to the requirements of multiple 
funding organizations, frequently on short notice, academic research 
institutions are often far more nimble in routine management functions 
(e.g. hiring, purchasing, contracting) than traditional state or 
Federal agencies.
NEAMAP Funding
    Our work is presently funded in what I believe to be a unique 
mechanism for large-scale survey work, namely through the Mid-Atlantic 
Fishery Management Council's (MAFMC) Research Set-Aside (RSA) program. 
This program was developed in previous Magnuson-Stevens authorization 
cycles. Under RSA, Councils can withhold (set aside) up to 3 percent of 
the total quota from certain species, to fund required research 
activities.
    For each of the past five years, the MAFMC has granted us portions 
of the quotas for several species. For 2013 we own a total of about 2.5 
million pounds of fish divided among five species.
    Our annual grant is administered by NOAA, though no Federal dollars 
are expended. We raise research dollars by auctioning off our quota in 
partnership with the National Fisheries Institute (NFI). Both 
commercial and charter industry captains can benefit from this auction 
because the RSA quota that they purchase can be used during closed 
seasons, thus increasing their profit and allowing us to use some of 
those extra dollars for research.

    This market-based funding is appealing on many levels. For example:

      As previously stated, no Federal dollars are expended (though 
considerable time is spent by Federal authorities in grant processing, 
permit processing, and enforcement).
      Industry literally has `buy-in' in regards to the funded 
projects.
      The total amount of research dollars available is more dependent 
on market conditions than on the Federal budget.

    For a number of reasons however, there are limitations on how 
widely this funding mechanism could be used to support more programs 
such as ours. These reasons include:

      The RSA quota must be harvested within the calendar year for 
which the project is granted. My Institute must `front' approximately 
$450,000 during the first half of each calendar year to pay for 
personnel, supplies, vessel charters, and so on before the first dollar 
is recovered from the auctioned fishes. Further, we are subject to 
varying market conditions. When we write our annual grant proposal we 
have to guess, about a year ahead of time, what the auction price will 
be for our RSA quota species, and then the fishermen have to guess at 
what their dockside sale price might be some months later when they 
harvest their RSA fishes. There is no guarantee that we will receive 
the anticipated research dollars. Many institutions could not support 
or would not allow such a situation.
      Because our program is so large and expensive, many other worthy 
and necessary projects are excluded from funding. Generally, after 
NEAMAP receives its quota assignments each year the remaining portions 
can support only one or two small projects. RSA was originally intended 
to fund smaller short term projects, not large long term monitoring.
      The RSA system depends upon there being more demand than supply 
for the fish species to be granted. In a future in which existed an 
overabundance of presently high value species such as summer flounder 
and black seabass, there would be little or no value in the RSA quotas.
      Similarly, if the portions of the quotas which could be used for 
RSA were to be increased, a situation could arise in which there was 
more RSA supply than demand. Only a subset of industry members can or 
will participate in raising RSA funds (e.g. through the NFI auction) so 
if there were more fish available than demand existed, the value of the 
quotas would decrease and the research could not be accomplished.
      Inequities can result from selling RSA quotas. Each pound of 
fish assigned to RSA is removed from the amounts available to the 
general industry and from recreational fishermen. Not all industry 
members can afford to participate in RSA fundraising or to wade through 
the required permitting process. People in the recreational sector may 
not feel the direct benefit of lowering their quota to support 
research.

    The NEAMAP survey was not developed under the assumption that it 
would be funded by the MAFMC's RSA program. ASMFC intended that 
dedicated funding would be acquired but after it was recognized in 2006 
that funding the NEAMAP survey was imperative, RSA was the only 
available mechanism. While the RSA system is currently working well for 
us, even in the depressed economy of recent years and even in a 
budgetary atmosphere in which many programs are seeing significant 
budget cuts, it is still a very unstable and unpredictable way to fund 
an ongoing, large scale, $1 million per year program.
NEAMAP Survey Data and Data Uses
    Our data have been examined for inclusion in all appropriate NEFSC 
and ASMFC assessments and assessment updates over the past two to three 
years. They have been incorporated as primary data sources for a 
smaller number of assessments. Where our data have not been included, 
it is universally due only to our still brief time series (six years). 
However, it is worth noting that our data have proved vital for both 
short-lived species such as Longfin squid and in NOAA's recent analyses 
of data on the extremely long-lived Atlantic sturgeon. Even for species 
for which our time series may still be too short, our biological data 
such as length-at-age have proven valuable. Further, our methodology 
for determining factors such as fish age for some species has forced a 
reexamination of the procedures used by other research groups. Our data 
have also been used by states to help set regulations such as size and 
creel limits.
    While our catch processing and data processing methods necessarily 
differ from those used on surveys from NEFSC, the end-product data 
elements from the two surveys are virtually the same (except that there 
is almost no geographic overlap of the surveys). Each survey routinely 
produces assessment-related data such as:

      Overall and age-specific abundance indices, expressed either in 
numbers or biomass
      Length-frequencies, overall and by sex
      Geographic distribution (within the respective areas surveyed)
      Age-frequencies
      Sex ratios, overall or by size/age class
      Diets

    It is worth noting that among large-scale surveys in the Northeast, 
the NEAMAP and NEFSC surveys (along with the ChesMMAP survey that our 
research group also conducts within the confines of Chesapeake Bay), 
are the only ones that routinely record such extensive biological data 
elements. Due to logistical, manpower, and historical constraints, most 
surveys record only fish counts and length measurements (see 
Recommendations below).
New Technologies
    As with every field of endeavor, technology is providing 
opportunities to collect more and better fishery-independent survey 
data and to provide it faster and more reliably. Affordable (given the 
importance attached to survey results) technologies exist to:

      Run scale model tank tests of fish trawls to determine the 
optimal shape while fishing. A fish trawl being used by a monitoring 
survey is a scientific sampling device and it should be viewed as being 
analogous to any piece of fine scale laboratory equipment. It must 
perform consistently.
      Allow researchers to constantly monitor the shape of their fish 
trawl to assure consistent performance within predetermined 
specifications as determined by the tank tests and to assure its proper 
deployment during each tow.
      Constantly monitor and record bottom type as the vessel conducts 
survey operations.
      Measure such parameters as temperature, salinity, depth, light 
intensity, pH, turbidity, and chlorophyll throughout the water column 
at locations where the trawls are deployed.
      Incorporate auto-sensing technologies using automatic recording 
of surface water quality parameters listed above using constant flow-
through systems.
      Document fish behaviors in proximity to trawls using underwater 
cameras and other remote sensing technologies to move toward estimates 
of trawl capture efficiency.

    A very exciting new technology which we plan to deploy later this 
year and in which we will collaborate with international partners from 
Norway, is a sophisticated camera and recording system which is 
installed near the aft end of a trawl and which documents the exact 
time when each specimen was captured. Fish can be identified to species 
and measured with surprising accuracy. A long list of research 
questions can be addressed with such technology, such as:

      Exactly when within a tow were specimens from each species 
captured?
      Within a tow, are some species typically captured together?
      For each species, are specimens typically captured in a group 
within a narrow time band or are they captured continuously throughout 
a tow?
      How long of a tow is long enough? A common criticism of 
monitoring surveys is that the tows are not long enough in duration to 
exhaust and capture larger specimens of some species. By fishing 
continuously over a very long duration and recording the exact time 
when each specimen is captured, this question can be addressed.
      Could adequate or even better data be obtained by fishing over 
long distances with an open-ended net, thus covering more ground but 
sacrificing fewer fish? This method would have to be supplemented with 
tows with a closed net to capture specimens for biological data (sex, 
maturity, age, diet, etc.).
Recommendations
    Any number of improvements could be made to the extant fishery 
independent surveys (as well as the development of new surveys) to 
improve the scientific underpinnings of the current fish stock 
assessment and management systems. Among the most important are:

      Encourage the standardization of sampling gears among surveys

        The so-called ``40012cm 3-bridle 4-seam'' trawl developed by 
        the former NEFSC Trawl Advisory Panel for use on the FSV 
        Bigelow and used by NEAMAP as well has proved to be a 
        remarkably stable and efficient scientific sampling device. The 
        gear has also been put into use by the Canadian Department of 
        Fisheries and Oceans. Scaled down versions either have been or 
        will be deployed in the Great Lakes and in Chesapeake Bay.

        Changes in sampling gear would necessarily disrupt the time 
        series of ongoing trawl programs. However, every survey must 
        periodically go through such perturbations, often caused by 
        unforeseen events such as loss of survey vessels or inability 
        to purchase materials to construct or repair nets. It is better 
        to plan for such events than to have them thrust upon you.

        A change in sampling gear for some surveys would also provide 
        an opportunity to reexamine issues such as stratification, site 
        selection, standardized data recording systems, and related 
        issues.


      Develop inter-survey and intra-survey calibrations.

        Every survey trawl operates according to its particular design 
        and has unique catch efficiency characteristics for each 
        species. For some fish stock assessment mathematical models, 
        these differences are immaterial, as each survey `index' is 
        treated independently. However, other models require relative 
        catch rate efficiencies among surveys to be well documented. A 
        mechanism to calibrate catch rates among surveys is to complete 
        multiple side-by-side tows. Such experiments can be quite 
        expensive.

      Encourage the maximization of the amounts and types of data 
recorded by fishery independent surveys.

        As mentioned above, due to logistical and historical 
        limitations, many existing surveys record only a small portion 
        of the biological data elements potentially available. Often, 
        only counts and length measurements are logged. It is our 
        experience that obtaining each specimen is expensive (i.e. 
        paying for vessel time and fuel, paying survey personnel, 
        purchasing nets, computers and other supplies) but that the 
        marginal cost of taking more data points from each specimen is 
        small. Some surveys are limited by vessel space and available 
        personnel though it is our experience that if something is 
        considered important enough it can usually be accomplished.

        Additional data elements which should be routinely recorded for 
        the maximum possible number of species include:

          <all>  Species total and individual specimen weights
          <all>  Sex, maturity, and reproductive stage on a subsample 
        of specimens
          <all>  Preservation of ageing structures (e.g. otoliths, 
        vertebrae) for the maximum possible number of species.
          <all>  Preservation of fish stomachs for development of diet 
        indices. These data are required to advance toward multi-
        species and ecosystem management.

        Obtaining these types of data from as many sources as possible 
        not only will lead to better stock assessments but will lead to 
        a better understanding of the marine environment as a whole, 
        thus providing the underpinnings for multi-species and 
        ecosystem models and management.

      Develop regional fish ageing and fish diet centers.

        Many state and regional surveys, as well as being constrained 
        in the types of data they feel able to collect, also do not 
        have the resources to process large numbers of biological 
        samples that may be preserved during field operations. A series 
        of laboratories, not necessarily centered only at Federal 
        facilities, where surveys could send such samples to be 
        processed would not only significantly add to the types of data 
        being collected but would assure a high level of 
        standardization. Some organizations and institutions (my own 
        being a good example) already have the infrastructure and 
        knowledge bases to support such efforts so the step to becoming 
        regional centers is one of scale rather than construction.

      Provide funding for surveys.

        Fish stock assessments and fishery regulations can be no better 
        than the underlying data upon which they depend. Fish stock 
        assessment methods have become increasingly sophisticated and 
        data intensive. Accurate, timely, and well-accepted 
        assessments, as well as the subsequent setting of reasonable 
        fishing regulations, depend upon accurate, timely, and well-
        accepted data. Fishery independent surveys are the primary 
        unbiased source of data which inform us about the present 
        status of most fish stocks.

        Under the current Magnuson law, lack of data literally means 
        that fewer fish can be kept and that dollars will be lost to 
        the fishing community. Due to the Magnuson provisions dealing 
        with uncertainty, when the Fishery Management Councils and 
        their respective Scientific and Statistical Committees set 
        their quotas, they must take into account the level of 
        uncertainty inherent in the associated assessments. The higher 
        the level of uncertainty, the lower the quota can be. Lack of 
        data means lower catch, lower income, and fewer jobs.

        Several references within this testimony speak to current 
        logistical limitations as to what data can be collected by some 
        surveys as well as to unpredictable or unstable funding sources 
        for surveys. These limitations and instabilities (as well as 
        accomplishing the other recommendations listed above) can only 
        be addressed through additional funding.

        While recognizing that providing such new funding is difficult 
        within the parameters of the current Federal budget, I simply 
        state the need that efficient and effective fishery management 
        requires it.

Figure 1. NEAMAP mid-Atlantic / Southern New England sampling area 
including region boundaries and depth strata.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
    Dr. Fleming. Thank you, Mr. Bonzek.
    Next, Dr. Breidt, 5 minutes.

STATEMENT OF F. JAY BREIDT, PH.D., PROFESSOR OF STATISTICS AND 
   ASSOCIATE CHAIR, DEPARTMENT OF STATISTICS, COLORADO STATE 
   UNIVERSITY, AND MEMBER OF THE COMMITTEE ON THE REVIEW OF 
             RECREATIONAL FISHERIES SURVEY METHODS

    Dr. Breidt. Thank you. Good afternoon, Mr. Chairman, and 
members of the Subcommittee. My name is Jay Breidt. I am a 
professor of statistics at Colorado State University.
    In 2006 I was one of 10 members of the National Research 
Council, NRC, Committee on the Review of Recreational Fisheries 
Survey Methods, assembled in response to a request from the 
National Marine Fisheries Service, NMFS. NMFS sought 
recommendation from the NRC on potential improvements to its 
Marine Recreational Fisheries Statistics Survey, MRFSS. MRFSS 
computes marine recreational catch by multiplying the number of 
trips by the catch per trip. The number of trips is estimated 
using an offsite survey consisting of telephone interviews of 
anglers in coastal households. The catch per trip is estimated 
using onsite surveys in which anglers are intercepted while 
they are fishing or at their access points.
    The NRC Committee concluded that the quality and timeliness 
of data from MRFSS were not adequate for effective management 
of recreational fisheries. The Committee focused primarily on 
MRFSS, but related surveys conducted by State agencies suffered 
from the same limitations.
    Among the findings and recommendations of the NRC report 
were the following specific needs: greater program support for 
MRFSS; both financial resources and technical resources needed 
to handle surveys of such complexity; revision of the 
statistical estimation procedures, which were not matched to 
the complex sampling design used by MRFSS, leading to the 
potential for bias in the estimates; revision of the telephone 
sampling method, which relied on random digit dialing of 
households in coastal counties--a comprehensive universal 
sampling frame, possibly in the form of a national registry of 
salt water anglers was recommended to increase efficiency; 
greater quality control in the onsite survey, in which onsite 
samplers were given considerable latitude in where, when, and 
for how long to sample; greater coordination between Federal 
and State programs, and better communication and outreach, 
since the cooperation of recreational anglers is essential.
    The findings and recommendations of the 2006 NRC report 
were arrived at by Committee consensus, and were subjected to 
NRC's review process. What follows are my observations, which 
do not represent Committee consensus or NRC review.
    In my estimation, NMFS has directly addressed the needs 
described in the NRC report, and has developed a transparent, 
dynamic statistical system with a sound scientific basis. NMFS 
first addressed the need for greater technical support by 
building a team of academic and industry consultants, including 
mathematical statisticians, survey methodologists, and 
information technology specialists. This team, including 
myself, has collaborated with NMFS in developing a new marine 
recreational information program, MRIP. One of MRIP's first 
tasks was addressing the mismatch between design and estimation 
in the intercept survey, leading to a complete revision of 
statistical methods for the intercept data. These methods were 
extensively peer-reviewed before revised estimates for 2004 to 
2011 were computed and released.
    The National Salt Water Angler Registry, which began with 
Federal regulations in 2008, offers potential for greater 
efficiency in the telephone survey. Most coastal States, 
however, are exempted from the registry, because they license 
their anglers and provide contact information. Gaps in survey 
coverage result from State license exemptions and problems with 
the contact information. To fill the gaps, MRIP has been 
experimenting with dual frame surveys, which combine angler 
license frames with household telephone or address frames. 
Designed experiments are underway to determine the most 
effective combination of telephone and mail data collection, in 
terms of getting good response rates and high-quality data in a 
timely manner.
    The need for greater quality control in the intercept 
survey has been addressed through a 2010 pilot study in North 
Carolina in which new field protocols were compared side by 
side to traditional MRFSS intercept methods. The new design 
removed much of the sampler's discretion in where and when to 
sample. After peer review of the pilot study results, the new 
intercept survey protocols have been adopted, and are being 
implemented on the Atlantic and Gulf Coasts.
    Coordination between State agencies and the Federal system 
has been a key feature of MRIP, which I have seen while taking 
part in the North Carolina pilot, and while assisting NMFSS in 
reviewing surveys for Oregon, Washington, California, and 
Hawaii. State agencies can obtain MRIP grant support to address 
recommendations arising in their reviews. The need for better 
communication and outreach has been addressed throughout MRIP. 
NMFSS staff responsible for outreach participate in technical 
meetings and produce press releases and educational videos 
explaining the revised methods to a general audience. 
Participation of the angling community is actively sought at 
all levels. For example, the technical redesign group for the 
large pelagic survey, on which I serve, includes two charter 
boat captains.
    I do not think that all possible issues in collecting data 
necessary to manage recreational fishing are resolved, since 
the problems are continually evolving. But MRIP is structured 
to adapt effectively to such changes by developing, testing, 
and implementing appropriate tools. MRIP is exactly the sort of 
statistical program envisioned in the NRC report.
    Thank you for inviting me to testify before the 
Subcommittee today. I am happy to answer any questions you may 
have.
    [The prepared statement of Dr. Breidt follows:]

 Statement of F. Jay Breidt, Ph.D., Department of Statistics, Colorado 
 State University and Member, Committee on the Review of Recreational 
 Fisheries Survey Methods, Ocean Studies Board, Division on Earth and 
    Life Studies, National Research Council, The National Academies

    Good morning, Mr. Chairman, Ranking Member Sablan, and members of 
the Subcommittee. My name is Jay Breidt. I am a professor of Statistics 
at Colorado State University, where I served as the Chair of the 
Department of Statistics from June 2005 until December 2010. I was also 
a member of the National Academies' National Research Council (NRC) 
Committee on the Review of Recreational Fisheries Survey Methods in 
2006. The National Academy of Sciences was chartered by Congress in 
1863 to advise the government on matters of science and technology.
    The NRC study was conducted in response to a request from the 
National Marine Fisheries Service (NMFS) for a review of methods used 
to collect and analyze recreational marine fisheries data for 
application to fisheries management.
    The NRC formed a committee of ten experts in fishery science and 
statistics. Dr. Patrick Sullivan, an associate professor in the 
Department of Natural Resources at Cornell University, served as the 
committee chair. After the study was released, Congress amended the 
Magnuson-Stevens Fishery Conservation and Management Act and included 
provisions to improve data collection regarding marine recreational 
fisheries. This written testimony reviews some major points from that 
report, titled Review of Recreational Fisheries Survey Methods, and 
describes progress made by NMFS on revising marine recreational data 
collection since 2006.
    Historically, marine recreational catch in the United States has 
been documented through the Marine Recreational Fisheries Statistics 
Survey (MRFSS), which was established by NMFS in 1979. As compared to 
commercial fisheries, collecting data on recreational fisheries is more 
difficult due to the number of recreational saltwater anglers, the 
diverse range of places in which they fish, and the many different 
methods of recreational fishing.
    Recreational catch is computed by multiplying the number of 
recreational trips by the catch per trip. MRFSS uses two complementary 
surveys to estimate the two terms in this product. The number of trips, 
or effort, is estimated using an offsite survey, consisting of 
telephone interviews of anglers in coastal households. The catch per 
trip is estimated using onsite surveys, in which anglers are 
``intercepted'' while they are fishing or at their access points. 
Biological samples are also collected from these onsite intercepts.
    It is now evident that for some fish stocks, the recreational 
fishery represents a significant component of the total catch. Since 
the establishment of MRFSS, marine fisheries management goals, 
objectives and context have changed. Management decisions are often 
made at finer spatial and temporal scales, the mix of recreational and 
commercial fishing has changed for many areas and species, and stock 
assessment models now make greater use of data from recreational 
fisheries. Accurate and timely data on catch and effort levels in 
recreational fisheries is imperative to ensure the sustainability of 
popularly targeted fish stocks.
    NMFS's request for a study recognized the limitations of the MRFSS 
program and the agency sought recommendations from the NRC on potential 
improvements and alternative approaches.

                 STUDY CONCLUSIONS AND RECOMMENDATIONS

    The NRC committee concluded that the MRFSS program was not adequate 
to meet the current demand for data, in terms of quality and 
timeliness, required for effective management of recreational 
fisheries. The committee's review focused primarily on MRFSS, but many 
related surveys conducted by state agencies suffered from the same 
limitations, and the committee's recommendations applied to those 
surveys as well. Greater coordination among Federal, state, and other 
survey programs was recommended to help gain a national perspective on 
the status of marine recreational fisheries.

               Sampling Issues with the Telephone Survey

    The committee identified several concerns with the telephone 
interview surveys. First, the increasing use of cellular telephones 
reduces the efficiency of the random-digit-dialing (RDD) telephone 
surveys conducted by MRFSS. The utility of RDD surveys targeted to 
coastal counties is reduced because cellular telephones are not 
geographically restricted (unlike land lines). Telephone surveys are 
also problematic because they depend on the accuracy of the angler's 
memory and their willingness to provide information to the caller.
    The committee determined that a comprehensive, universal sampling 
frame with national coverage would be an efficient way to improve the 
data. The committee also suggested that this could be implemented in 
the form of a national registry of saltwater anglers or, alternatively, 
a license program that allows for no exemptions. Telephone surveys 
would then be based on this more limited sampling frame, rather than 
the RDD frame which includes all households, not just those with 
saltwater anglers. The report also recommended consideration of dual-
frame surveys; for example, combining a sample from an incomplete list 
frame of anglers with an RDD sample of all households to ensure 
complete coverage.

               Sampling Issues with the Intercept Survey

    The committee identified various shortcomings in the intercept 
(onsite) survey methods. These methods do not account for anglers who 
have access to private fishing areas, and operate on the assumption 
that data from private areas would be similar to the data collected at 
public access sites. The committee further recommended that the onsite 
sampling frame, or list of access points, should be revised to account 
for low-activity access points.
    MRFSS onsite samplers were given considerable latitude in the 
selection of sites and the measurement protocols followed at a selected 
site. The committee noted that the sampling process required greater 
quality control, with less latitude on the part of the samplers.

                         Other Sampling Issues

    In addition to the suggestions on survey design, the report 
suggested further research to provide more reliable estimates of the 
number of fish caught in catch and release fisheries as well as a 
clearer understanding of mortality rates for fish caught and not 
brought to the dock.
    The committee concluded that all for-hire recreational fishing 
operations should be required to maintain logbooks of fish landed and 
kept, as well as fish caught and released. They should be required to 
provide the information in a timely manner to the survey program in 
order to remain eligible for operation, and all information provided 
should be verifiable.

                    Improving Statistical Estimation

    The study found that the sampling designs and data collection 
methods of recreational fishing surveys fell short of what was needed 
for management. Unverified assumptions may have interjected biases into 
some survey estimates. Understanding the extent of such biases would 
require testing the assumptions and determining the direction of bias.
    The report noted that current estimators of catch rate were likely 
to be biased, given a mismatch between the design and estimation 
procedures for the onsite survey. Further, the estimators of 
uncertainty associated with various survey products were likely to be 
biased and too low. The committee concluded that these properties 
should be determined, enlisting the expertise of an independent and 
permanent research group of statisticians for ongoing evaluation and 
advice on the design and adequacy of the survey methods.

        Incorporating Trends in Where, When, and Why People Fish

    Good surveying requires tracking data on the human dimension of 
fishing, including the social and economic factors that might affect 
the number and location of fishing access sites. The MRFSS program was 
not designed to incorporate this information, but largely focused on 
biological factors.
    The study recommended the implementation of a national trip and 
expenditure survey, which would support economic valuation studies, 
impact analyses, and other social and attitudinal studies. The study 
further recommended that the national data base on marine recreational 
fishing sites should be enhanced to support social and economic 
analysis. Examples of site characteristics that should be incorporated 
into the data base include: boat ramps, facilities, natural amenities, 
parking, size, and type.

               Need for Better Communication and Outreach

    Recreational anglers are the key source of information for the 
surveys and consequently their cooperation and support is essential to 
the success of the program. The committee concluded that if anglers 
understood the purpose of the surveys, the basic methodology, and the 
value of the data produced, they would be more likely to participate 
and provide reliable information.
    The study recommended improving outreach by advising anglers and 
managers on the various uses of the data collected. Outreach and 
communication were identified in the report as areas that should be 
integral parts of the revised survey program. Last, angler associations 
should be engaged as partners with survey managers, and local 
knowledge, education, and community activities should be incorporated 
into the process.

                    Need for Greater Program Support

    The NRC report concluded that a lack of resources had hindered the 
efforts of the MRFSS program staff to implement, operate, and improve 
the survey program. This included efforts to improve the program based 
on recommendations from earlier reviews. Financial resources available 
to the program were not sufficient to tackle the challenges associated 
with conducting an efficient and timely survey. Further, NMFS did not 
have sufficient technical expertise on its staff to handle surveys of 
such complexity.
    In addition to a redesign of MRFSS, the study suggested that 
provisions be made for ongoing technical evaluation and modification as 
necessary. The study recognized that additional funding would be 
necessary to design, implement, and maintain a new program and that 
this might require a survey office devoted to the management and 
implementation of marine recreational surveys.

                 WHAT CHANGES HAVE OCCURRED SINCE 2006

    The findings and recommendations of the 2006 NRC report were 
arrived at by committee consensus and were subjected to NRC's review 
process, including external peer review. I will now turn to my 
observations and opinions regarding changes to NMFS's recreational 
survey methods since the release of the NRC report. This reflects only 
my own experiences and does not represent either committee consensus or 
NRC review.
    In my letter of invitation to this Subcommittee meeting, I was 
asked for my thoughts on whether the new program has been fully 
developed and implemented and whether the program is meeting the goals 
envisioned by Congress. It is my opinion that the revised program is 
now fully developed in the sense that it is a dynamic system for 
implementing necessary revisions, creating state-of-the-art design and 
estimation procedures, and adapting to evolving scientific challenges. 
The program is transparent, accessible, and subjected to rigorous peer 
review. This is exactly the sort of statistical program envisioned in 
the NRC report: there could not be a static, one-time fix to the 
problems with MRFSS. I now turn to the experiences on which my opinion 
is based.
    In 2007, I was contacted by Dr. Dave van Voorhees of NMFS and asked 
to assist NMFS in their response to the NRC report, in developing a new 
Marine Recreational Information Program (MRIP). Since that time, I have 
acted as a consultant and have advised graduate students who have been 
supported on NMFS contracts. I have interacted with other consultants, 
including mathematical statisticians, survey methodologists and 
information technology specialists. This group includes academics and 
industry representatives. We have regularly collaborated with staff 
from NMFS and from state agencies.

                            Program Support

    The NRC report recommended the establishment of a permanent and 
independent research group to evaluate recreational fisheries surveys 
and to guide future innovations. The NRC committee's goals in making 
this recommendation included building stakeholder confidence in the 
statistical system by involving a group from outside the Federal agency 
and by subjecting all work to rigorous peer review. The consultant 
model adopted by NMFS is entirely consistent with these goals, in my 
opinion. Consultants in collaboration with NMFS staff are establishing 
nationally consistent standards for design of marine recreational 
fisheries surveys, producing detailed sampling designs and data 
collection protocols, documenting all revised design and estimation 
procedures, and conducting outreach to stakeholders and to the 
scientific community.

                    Improving Statistical Estimation

    One of the first problems addressed through MRIP was the mismatch 
between design and estimation in the intercept survey, potentially 
affecting the estimates of catch rate and their measures of 
uncertainty. The effect of the mismatch on the catch estimates was 
unknown, while the estimates of uncertainty were known to be biased and 
too low. I worked with other consultants and NMFS staff to revise the 
weighting procedure used for the intercept data, producing software and 
technical documentation that was then peer-reviewed by statisticians in 
industry, in academia, and in the Census Bureau. Revised estimates for 
2004-2011 were then computed and released after extensive review. The 
improved estimation method directly addressed NRC concerns, and is 
transferable to future onsite surveys, to some auxiliary surveys 
conducted by NMFS (such as the Large Pelagics Survey), and to some 
surveys conducted by state agencies.

               Sampling Issues with the Intercept Survey

    The NRC critique of the intercept survey included in particular the 
fact that samplers were given too much latitude in the sampling 
process, including the opportunity to change to alternate sites or 
alternate modes of sampling. Samplers also focused on the highest-
activity part of the day, under the untested assumption that this would 
be representative of catch rates at other times during the day. To 
address these concerns, NMFS undertook a pilot study in North Carolina 
during 2010, in which new field protocols were compared side-by-side to 
traditional MRFSS intercept survey methods. The new protocols included 
time-of-day stratification, to ensure some coverage at all times of the 
day and night. The new design eliminated much of the sampler's 
discretion in visiting sites, eliminating a source of variation that 
was of concern to the NRC committee. Unlike the traditional MRFSS, the 
survey design and estimation approach tested in North Carolina adhered 
closely to generally accepted statistical survey methods, while 
maintaining practical feasibility. Results of the pilot study were 
peer-reviewed and the final report was released earlier this spring. 
The new intercept survey protocols are now being implemented on the 
Atlantic and Gulf coasts.

               Sampling Issues with the Telephone Survey

    Implementation of the National Saltwater Angler Registry began with 
Federal regulations in 2008. States can be exempted from the registry 
if they license or register their anglers and provide sufficient 
contact information for those anglers for use in recreational surveys. 
Most coastal states qualify for this exemption. Gaps in survey coverage 
result from exemptions to state licensing requirements and problems 
with the contact information. MRIP, supported by statisticians and 
survey methodologists, has been experimenting with dual frame surveys 
of fishing effort to improve survey coverage. These methods combine 
angler license frames with household telephone or address frames. 
Surveys of effort are then conducted with a combination of telephone 
and mail data collection. Designed experiments are underway to 
determine the most effective contact options, in terms of getting good 
response rates and high quality data in a timely manner.

                         Other Sampling Issues

    One MRIP project has tested the use of on-board video cameras to 
capture data on the species, size, and release condition of 
recreational discards. This study is ongoing.
    MRIP has studied methods for collecting catch and effort data from 
the recreational for-hire sector, most recently focused on electronic 
logbook reporting coupled with dockside validation of the logbook data. 
These studies are ongoing.

              Establishing Nationally Consistent Standards

    A key feature of MRIP is cooperation between state agencies and the 
Federal system. I have personally observed this cooperation while 
taking part in the North Carolina Pilot Study, and while conducting 
reviews of the recreational fisheries survey methods for Oregon in 
2010, Washington in 2010, California in 2011, and Hawaii in 2012. Each 
review included NMFS staff and a team of consultants, and each resulted 
in a series of recommendations to the state agency on methods to 
improve their recreational fisheries surveys. The agency, in turn, 
could apply to MRIP for grant support to address those recommendations. 
This helps transfer best practices being adopted at the Federal level 
to the states, with appropriate modifications for the unique state-
level characteristics of the recreational fishery.

                       Communication and Outreach

    NMFS has embraced the NRC recommendation of better communication 
and outreach. Many of the MRIP projects have the active participation 
of the recreational angling community, including fishing club 
representatives and recreational angling advocates. For example, I 
serve on a technical working group considering redesign of the Large 
Pelagics Survey. Two other members of that group are charter boat 
captains. NMFS staffers responsible for outreach participate in 
technical meetings and produce press releases and educational videos 
explaining the revised methods to a general audience. These materials 
are of high quality, in my opinion. For example, one of these videos, 
in which my colleague and I described the statistical re-estimation 
procedures, was awarded a 2013 Gold Screen/Blue Pencil Award of 
Excellence from the National Association of Government Communicators. 
Materials related to the revisions, together with data, software, and 
technical documentation, are now readily available on the MRIP website.

                        WHAT HAS YET TO BE DONE

    One statistical issue in the NRC report that remains to be 
addressed is small area estimation, in which auxiliary data are used to 
produce estimates at finer spatial and temporal scales than would be 
possible using only the weighted survey data. This is an active area of 
statistical research, with applications throughout the Federal 
statistical system. It is natural that development of such estimators 
would come after resolving more fundamental design and estimation 
issues. According to the MRIP website, preliminary work on small area 
estimation has begun, including developing the necessary data base of 
auxiliary information, and constructing appropriate predictive models.
    In my estimation, the MRIP program has directly addressed the 
concerns noted in the NRC report and is now a complete statistical 
system with a sound scientific basis. This was not true in 2006. I do 
not think that all issues are resolved, or ever will be, since the 
problems in collecting data necessary to manage recreational fishing 
are continually evolving. But the system in place now is structured to 
adapt effectively to such changes, by developing, testing, and 
implementing appropriate tools.
    Thank you for inviting me to testify before the Subcommittee today. 
I am happy to answer any questions you may have.
                                 ______
                                 
    Dr. Fleming. Thank you, Dr. Breidt.
    Mr. Horton, you are recognized for 5 minutes.

 STATEMENT OF CHRISTOPHER HORTON, MIDWESTERN STATES DIRECTOR, 
   CONGRESSIONAL SPORTSMEN'S FOUNDATION AND MEMBER OF MARINE 
 FISHERIES ADVISORY COMMITTEE'S RECREATIONAL FISHERIES WORKING 
                             GROUP

    Mr. Horton. Good morning, Mr. Chairman and members of the 
Committee. My name is Chris Horton, and I am the Midwestern 
States Director for the Congressional Sportsmen's Foundation. 
In addition to working closely with State legislators in Texas 
and Louisiana on sportsmen-related issues including 
recreational salt water angling, I was recently appointed to 
the Recreational Fisheries Working Group of MAFAC.
    An avid angler myself, I began my career as a fisheries 
management--for a State agency before eventually having the 
opportunity to help represent both fresh water and salt water 
recreational anglers in my current role at CSF. I want to thank 
you for the opportunity to speak to you today about 
recreational data collection relative to the reauthorization of 
Magnuson-Stevens.
    Recreational salt water angling is an important component 
of our Nation's marine fisheries. In 2011, there were 11 
million salt water anglers who contributed $70 billion in sales 
impact, 22 billion of which was on fishing-related equipment.
    Now, when anglers buy rods, reels, lures, line, and other 
fishing-related equipment, in addition to the fuel for their 
boats, an angler-supported excise tax is paid into the Aquatic 
Resources and Boating Trust Fund, which is appropriated back to 
the States to reinvest in fisheries resources. These angler-
generated funds, along with the fishing licenses they purchase, 
are part of the American system of conservation funding. No 
other single group of marine users invest more in our marine 
fisheries resources. Recreational salt water angling is not 
only good for our economy, it is good for our fisheries, as 
well.
    Recreational fishing is not always about how many fish we 
can harvest. Recreational fishing is an opportunity to relax 
with family and friends, presents an enjoyable and rewarding 
challenge, and provides an opportunity to reconnect people of 
all ages with a genuine appreciation for our great outdoors. 
The methods, locations, and means of accessing our fisheries 
are as diverse as the fish that we pursue.
    Though MRIP has begun addressing many of the data 
collection problems outlined in the National Research Council 
report of 2006, further improvements to provide timely 
reporting require a significant increase in funding. And 
although we could spend more and might edge closer to the 
accuracy of the commercial data, the quality of the data will 
never be equal. It is simply impossible to make contact with 
every recreational angler, and count every fish they catch.
    However, the ability to count every fish isn't the problem. 
The problem lies with how the data is used for management. 
Although NOAA tries to treat them the same, commercial and 
recreational fisheries are fundamentally different, and they 
should be managed differently. Here is why.
    Commercial fisheries are pursued by relatively few fishers, 
with the same goal: harvest as many fish as allowed as 
efficiently as possible in order to maximize profit. Commercial 
landings can usually be counted and quotas enforced in real 
time. Thus, managing commercial fisheries based on biomass 
makes sense. However, managing the recreational component based 
on biomass doesn't.
    Recreational fisheries are very dynamic, and are enjoyed by 
11 million Americans. How often and why we go fishing is 
difficult, if not impossible to predict. So catch must be 
estimated, not counted, resulting in a significant lag time for 
producing such estimates. At best, 2\1/2\ months pass before 
the estimates are even available. Because of this delay, the 
real-time quota management necessary to be successful under the 
current NOAA management strategy is just not practical for 
recreational fisheries, or all recreational fisheries.
    As a former State fisheries manager, I can tell you that 
poundage-based management is not even considered by inland fish 
and wildlife agencies. The red snapper fishery in the Gulf of 
Mexico is a prime example of where this biomass-based system of 
management is having an unnecessary and devastating impact on 
recreational angling.
    In summary, MRIP is certainly an improvement in terms of 
survey methodology. However, a couple of serious and 
unavoidable problems remain: the time necessary to produce 
harvest estimates and a conversion of those estimates to 
pounds. Unfortunately, the current management method preferred 
by NOAA hinges on these two deficiencies to be successful. And 
it is not.
    We need to look at other proven strategies that can 
effectively use the current data, rather than continue to 
insist a commercial fisheries management strategy will work for 
every recreational fishery. For decades now, inland fishery 
stocks have been successfully managed based on population 
information and harvest rates, not on biomass. These same 
successful tools can be applied, in part, to marine 
recreational fisheries management. And, like on the inland 
waters, we can still protect the stock while maximizing 
benefits for recreational anglers and the economy. We can and 
must do better for recreational anglers.
    Last, I plan to submit an addendum to my written testimony 
to the Subcommittee that clarifies the importance of 
concurrently addressing not only how MRIP data should be used 
for the recreational sector, but also an examination of how the 
proposed strategy relates to and potentially affects the 
current recreational and commercial allocation quotes for some 
fisheries.
    Thank you for the time, Mr. Chairman.
    [The prepared statement of Mr. Horton follows:]

        Statement of Chris Horton, Midwestern States Director, 
                   Congressional Sportsmen Foundation

    Good morning Mr. Chairman, Congressman Sablan and members of the 
Committee. My name is Chris Horton, and I'm the Midwestern States 
Director for the Congressional Sportsmen's Foundation (CSF). 
Established in 1989, CSF works with Congress, Governors, and state 
legislatures to protect and advance hunting, recreational angling and 
shooting and trapping.
    In addition to working closely with state legislators in Texas and 
Louisiana on various sportsmen's related issues, including recreational 
saltwater angling, I was recently appointed to the Recreational 
Fisheries Working Group of the Marine Fisheries Advisory Committee. An 
avid angler myself, I began my career as a fisheries management 
biologist for a state natural resource agency where I was tasked with 
managing the most popular and sought after group of game fish in the 
state--bass. I later became the conservation director for the largest 
fishing organization in the world (B.A.S.S.) before having the 
opportunity to help represent both freshwater and saltwater anglers in 
my current role with the Congressional Sportsmen's Foundation.
    I sincerely thank the members of this Subcommittee for the 
opportunity to speak with you today about recreational data collection 
as you begin discussions on the reauthorization of the Magnuson-Stevens 
Fishery Management Act. Recreational saltwater anglers are an important 
and significant component of our nation's marine fisheries. According 
to the 2011 NOAA survey, there were more than 11 million saltwater 
anglers who took 70 million fishing related trips and who contributed 
$70 billion in sales impacts to our economy--resulting in 455,000 jobs 
(both full and part time) in that year alone.
    Another significant, yet often overlooked statistic is that 
recreational anglers spent $22 billion in 2011 on durable fishing-
related equipment. When anglers purchase rods, reels, lures, hooks, 
line, sinkers, trolling motors, marine electronics and other equipment, 
an angler-supported excise tax is paid into the Aquatic Resources and 
Boating Trust Fund, which is appropriated back to the states to 
reinvest in the fisheries resource. These funds, along with angler 
license purchases, are part of the American System of Conservation 
Funding, and the most successful conservation model in the world. No 
other single group of marine users gives back directly or as 
substantially for the management and enhancement of our fisheries 
resources. Recreational saltwater angling is not only good for our 
economy--it's good for our fisheries.
    Recreational fishing isn't about how many fish you can harvest. 
Granted, the ability to bring home a few fish for the family is 
certainly a bonus for recreational anglers. However, the ability to go 
fishing for the average American offers so much more in return than 
simply the fillets. It's an opportunity to relax with family and 
friends, presents an enjoyable and rewarding challenge of figuring out 
how to catch specific species and provides an opportunity to reconnect 
people, both young and old, with our outdoor heritage and the 
appreciation we have for our natural resources. The methods they employ 
to go fishing, the locations they fish and the species they try to 
catch are as diverse as this nation itself. The private boat angler in 
the Southeast has hundreds of inlets and passes to choose from to get 
to the ocean, while the Pacific Northwest angler is limited to a few 
dozen. Fishing by wading into shallow waters or casting from a beach, 
dock or pier is popular in some areas, while shoreline access may be 
limited for others.
    Unlike a commercial fisherman who has a personal financial stake in 
a fishery, and thus its successful management, a recreational angler 
just wants to go fishing. It is this individual that is the basis for 
the recreational data collection system. This is the critical 
difference that must be kept in mind when contemplating recreational 
data collection--recreational anglers number in the millions and are 
pursuing a hobby.
    In their review of the national marine fishery data collection 
system, the National Research Council (NRC) found significant problems 
with the catch estimation methodologies and suggested remedies. As 
other speakers note, NOAA has begun addressing those problems and the 
system in place today, the Marine Recreational Information Program 
(MRIP), is better than the old catch estimation system known as the 
Marine Recreational Fisheries Statistics Survey (MRFSS). But, the NRC 
also acknowledged the recreational catch will, in the vast majority of 
cases, be estimated using survey methodology. The current system, 
though an improvement from the last, would require a significant 
increase in funding to make it substantially better. And, although we 
could potentially get closer to the accuracy of the commercial 
fisheries data with additional investments, the quality of the data 
will never be equal. It is simply impossible to contact every 
recreational angler and count every fish they catch.
    Fortunately, it's not necessary that we continue to sink more money 
into a program that will never be 100 percent accurate. Instead, it 
would make more sense and be less costly to offer a different 
management approach for recreational fisheries. The real problem, as we 
see it, is not with the recreational data collection system. The 
problem lies with how the data is used for management.
    It must be recognized that commercial and recreational fisheries 
are fundamentally different activities, with dissimilar harvest data 
collection systems and thus require different management approaches. 
Yet, the last reauthorization of the Magnuson-Stevens Act, for all 
intents and purposes, uses the same management strategy for both 
recreational and commercial fisheries--primarily poundage-based hard 
quotas with accountability measures. Although the accuracy of the 
commercial fisheries harvest data is suited well for this approach, the 
accuracy and timeliness of recreational harvest data is not and likely 
never will be. Again, it is not possible to contact every recreational 
angler and count every fish they catch. Instead, we should develop a 
separate management strategy for recreational fisheries based on the 
data available.
    Commercial fisheries are managed for yield. They are pursued by 
relatively few fishers, all with (understandably) the same goal--to 
harvest as many fish as possible as efficiently as possible in order to 
maximize profit from the sale of whatever species they pursue. 
Commercial landings can usually be counted or weighed in real time, 
thus quotas can be enforced in real time. This allows managers to close 
a fishery before the allowable catch is exceeded. In short, a 
commercial fishery's catch can be managed in real time and based on 
verified landings. Managing commercial fisheries based on biomass or 
yield makes sense.
    Managing the recreational component of marine fisheries with 
similar yield-based parameters, on the other hand, does not. 
Recreational fisheries are dynamic in nature and enjoyed by millions of 
individuals with diverse goals. Again, some try to catch fish for food 
while others simply want to have fun catching and releasing fish and 
enjoying their time outdoors, either in solitude or in the company of 
friends and family. The frequency of their trips often depends on 
circumstances such as stock abundance, weather, the economy or any of a 
myriad of factors. Catch is estimated, not counted, with a significant 
time lag for producing such estimates. Landings estimates, at best, are 
compiled 45 days after the end of each two-month sampling wave; thus 2 
months pass before any estimate of what anglers are catching in a 
particular fishery can be developed. Unlike commercial fisheries 
management, real-time catch information for the recreational users is 
simply not practical (with very rare exception). For this reason, 
recreational fisheries cannot be fairly managed under the current 
management system.
    The Gulf of Mexico red snapper fishery is a prime example of where 
managing a recreational fishery based on total yield, rather than in 
relation to the health of the fishery, is having a devastating and 
unnecessary impact on recreational anglers and coastal economies. Even 
though methodologies to estimate recreational harvest have improved 
since the last Magnuson-Stevens reauthorization, recreational anglers 
continue to be penalized as stock biomass increases. The red snapper 
fishery is as healthy as it's been in decades, with more and bigger 
fish in the fishery. Because the average weight and abundance of red 
snapper has increased, seasonal opportunities to access the healthy 
stock are further reduced each year in order to keep the estimated 
recreational harvest in pounds under an ACL that is several years old. 
Ultimately, the healthier the Gulf of Mexico red snapper population 
gets, the less anglers can fish. It is absurd to manage fisheries in 
this way. The current management system simply doesn't work and is an 
injustice for recreational anglers.
    As a former state fisheries manager, I can tell you that poundage-
based management is never even considered when managing game, waterfowl 
or most inland fisheries where similar challenges to developing 
accurate data exist.
    Can you imagine a system where hard poundage quotas on squirrels, 
with in season monitoring, were implemented? Suppose the state of 
Louisiana was told they could only harvest 10,000 pounds of squirrel 
annually. Once they reached 9,999 pounds, they had to close the season 
or pay back any overages in the quota next year. That would be a 
nonsensical approach and hunters wouldn't stand for it. Yet, that is 
exactly what we do in marine fisheries management.
    Let's accept the fact we are always going to use surveys to 
estimate the vast majority of the recreational harvest. The system is 
not perfect, but given the resource available it is a very good system 
that produces good estimates of harvest for the more commonly caught, 
important species. However, a couple of significant short comings will 
inevitably persist. The weakest parts of the recreational data 
collection system are the time lag necessary to produce harvest 
estimates and the conversion of the recreational catch estimate to 
pounds. Unfortunately, the current management method preferred by NOAA 
is to measure harvest in pounds with a hard quota, implying that it is 
possible to have real time quota management when it is not. The result 
is that success of the current management strategies hinges on the 
weakest part of the recreational data collection system.
    Instead of trying to force a management system designed for 
commercial fisheries onto recreational fisheries, NOAA should be tasked 
with developing a rational recreational fishery management system that 
uses the data available to us now. State fishery and wildlife managers 
have done it successfully for decades; one need only look at the highly 
effective management of speckled trout (which was the leading 
recreationally caught species at 51 million fish in 2011), red drum and 
striped bass. They are for the most part abundant, healthy stocks that 
are managed primarily by harvest rates rather than poundage quotas.
    Let's look to successful management strategies that can effectively 
use the current data collections system, rather than continue to insist 
what is primarily a commercial fisheries management strategy will work 
for recreational fisheries. Inland fisheries stocks are successfully 
managed based on population information and harvest rates, not on 
biomass. The same successful tools can be applied to marine 
recreational fisheries management that still protect stocks while 
reducing costs and providing greater benefits for recreational anglers 
and the economy.
    Aldo Leopold once said that conservation is a state of harmony 
between men and land. I don't think he would mind if we extended his 
vision to the ocean. The goal for Federal fisheries management should 
not be to create a system that unnecessarily severs our connection to 
the oceans. Our goal should be to create a management system that 
fosters trust and cultivates a state of harmony between the American 
people and our marine environment.
                                 ______
                                 

          Clarification Addendum to Statement of Chris Horton

                   (Addendum submitted May 29, 2013)
    Although managing a fishery based on mortality or extraction rates, 
and not on poundage, may seem like a significant departure from the 
current management approach, in actuality it is not. If we stop 
thinking in terms of total allowable pounds we can harvest, and instead 
think of harvest in terms of a percentage of the population that can 
safely be extracted, we are essentially doing the same thing u keeping 
harvest below a level that would cause a population to be overfished. 
For recreational fisheries, a maximum fishing mortality rate (F) would 
become the MSY, and the actual target fishing mortality rate would be 
somewhere below that level as determined by the Commissions and the 
Council's SSC's. Contemporary estimates of harvest, effort and 
biological indices are necessary to adjust harvest regulations to 
achieve and maintain the appropriate rate of extraction from the 
recreational sector. With the improved ability for MRIP to collect 
fishery-dependent data, and with the state's ability to monitor 
population indices, these contemporary estimates of harvest and the 
effects on the population would be readily available to make 
adjustments to the fishing mortality as needed.
    Implementing this approach in predominately recreationally 
allocated fisheries would be relatively simple by capping the current 
commercial harvest to an appropriate poundage quota, accounting for 
that mortality in the F estimate and establishing an appropriate target 
rate of recreational fishing mortality that, combined with the 
commercial harvest mortality, has an extremely low probability of 
exceeding F in any given year.
    Where mixed-sector fisheries have both commercially important and 
recreationally valuable fisheries, there may need to be additional 
considerations. If the stock is rapidly rebuilding, again it might be 
possible to set the commercial poundage at or near current levels and 
allow recreational anglers to be managed for the remainder of the 
growing stock. While this approach wouldn't allow for additional 
commercial fishers to enter the fishery, it would ensure that those 
currently in operation would remain profitable and provide a product 
for American markets. However, this direct approach may not be possible 
for all the mixed-sector stocks. Where allocations were established 
decades ago, it may be necessary to re-examine quota allocations to 
determine the best value for the Nation based on current social, 
economic and environmental conditions. Actually, we in the recreational 
fishing community have been calling for an examination of allocations 
based on current values for several years now.
    Ultimately, not all fisheries need to be managed on the proposed 
model. Some fisheries, especially those in the Pacific Northwest, may 
be appropriately managed based on the current poundage-based system. 
However, the Gulf of Mexico and South Atlantic red snapper/grouper 
complex; summer flounder in the mid-Atlantic; black sea bass in the Mid 
and South Atlantic; and even black drum along the Atlantic seaboard are 
just some examples of where this management approach could be effective 
in solving many of the current problems associated with managing 
fisheries that are both recreationally and commercially important.
                                 ______
                                 
    Dr. Fleming. Thank you, Mr. Horton.
    Dr. Stokesbury, you are recognized for 5 minutes.

 STATEMENT OF DR. KEVIN D. E. STOKESBURY, ASSOCIATE PROFESSOR 
  AND CHAIR, DEPARTMENT OF FISHERIES OCEANOGRAPHY, SCHOOL FOR 
  MARINE SCIENCE AND TECHNOLOGY, UNIVERSITY OF MASSACHUSETTS-
                           DARTMOUTH

    Dr. Stokesbury. Thank you. Thank you very much for the 
introduction. And I thank the members of the Subcommittee for 
the invitation to testify before you today.
    I was asked to speak on fisheries data collection, 
specifically how we developed an alternative survey for the sea 
scallop fishery, and if similar techniques can apply for other 
fisheries.
    The critical thing about managing fisheries is collecting 
accurate data. The Magnuson-Stevens Act gives control of data 
collection to NOAA fisheries. However, I think there are 
cooperative ways to collect accurate data, as well. The sea 
scallops stock has rebuilt from a low harvest of $87 million in 
1997 to landings worth about $455 million annually, from 2003 
to 2012. The current situation with the groundfish industry is 
in stark contrast to the scallop fishery.
    Scientific uncertainties are huge, and many fishermen are 
saying this is it, it is over, it is the end of the fishery. 
How did the scallop stock rebuild so quickly? Can the 
groundfish stock rebuild, as well? To answer these questions, 
we need to be able to accurately measure the abundance and the 
spacial distribution of these animals.
    The primary sampling tool for most fishery stocks in the 
U.S. are a trawl or a dredge. With them you can say there was 
an average of 1,000 scallops per tow in 2012. But this doesn't 
mean anything unless you have other tows to compare it to. This 
is a relative estimate of a relative estimate. What you need is 
an absolute estimate. Then you can say there were 4 billion 
scallops on Georges Bank in 2012, which clearly means 
something. You can compare that number to other years, other 
animals, and you can decide how many of them you would like to 
harvest. Under the Magnuson-Stevens Act, uncertainty in stock 
assessment leads to more conservative estimates of allowable 
catch.
    I believe that the fisheries research should return to a 
fundamental principle of field ecology, seeking absolute 
measures, which is the numbers per unit area, and determining 
the associated uncertainties. For scallops, we set out to get 
an absolute measure. Working with the fishermen, we tried to 
avoid preconceived notions. We simply tried to estimate the 
number of animals at different sizes, and where they were 
located.
    The fishermen outlined their historic fishing grounds for 
us. We had very limited funds, so sampling gear had to be cheap 
and readily available. And with that we developed a video 
quadratic sampling pyramid and surveyed on a grid. Now we have 
completed 150 video crew surveys on Georges Bank and the Mid-
Atlantic. All the vessels have been donated, as well as most of 
the food, fuel, and fishermen's time. Within each quadrat, 50 
invertebrates and fish are counted, and the substrats are 
identified. Counts are standardized to individuals per meters 
squared, and these estimates are expanded by the area to give a 
population estimate.
    Our first surveys were used to support the opening of the 
Nantucket Lightship and closed area one scallop grounds, 
instantly increasing the harvest by 5.5 million pounds, worth 
$55 million. In 2003, we expanded our video survey to cover the 
entire scallop resource, and this doubled the estimate of 
abundance, which is worth approximately $2.4 billion, U.S.
    This system has been accepted by the National Marine 
Fisheries Service. It has been published in 25 peer-reviewed 
scientific papers, and over 100 students and fishermen have 
worked together on this research.
    So what is the future? The biggest question in fisheries 
continues to be what is the relationship between the spawning 
adults and the new recruits. The trick is having the scientific 
techniques to see the recruits as soon as it occurs, and the 
management structure in place to act quickly and protect it. 
The Magnuson-Stevens Act should include this.
    We are working on new ways to try and measure groundfish 
using acoustics and video techniques. We just conducted a 
preliminary survey placing a video camera system in the cod-end 
of a groundfish otter trawl. The results look promising, and we 
hope to develop into a full-blown survey. If so, it will sample 
an order of magnitude more sea floor than the conventional 
trawl surveys.
    To me, the way forward is to get out there and work with 
the fishermen, measuring what is going on. If we can use new 
technologies to look at these populations clearly and simply, 
perhaps we can start grasping their underlying dynamics. There 
is still an incredible amount of potential in the wild 
fisheries of New England, and the infrastructure and people 
willing to and invested in figuring out how to make it work 
sustainably. Thank you very much.
    [The prepared statement of Dr. Stokesbury follows:]

   Statement of Dr. Kevin D. E. Stokesbury, Department of Fisheries 
 Oceanography, School for Marine Science and Technology, University of 
                        Massachusetts Dartmouth

Fishery data collection, the example of the New Bedford scallop 
        fishery.
    I thank the members of the subcommittee for the invitation to 
testify before you today. My name is Kevin Stokesbury. I am a professor 
of Fisheries Oceanography, in the School for Marine Science and 
Technology at the University of Massachusetts Dartmouth. I was asked to 
speak on fisheries data collection, specifically how we developed an 
alternative survey for the sea scallop fishery and if similar 
techniques could apply for other fisheries.
    The critical thing about managing fisheries is collecting accurate 
data. The Magnuson-Stevens Act gives control of data collection to NOAA 
fisheries. However, I think there are cooperative ways of collecting 
accurate data.
    The sea scallop stock has rebuilt from a low harvest of 5,500 
metric tons in 1998 worth about $87 million to harvest above the 
estimated maximum sustainable yield. Landings from 2003 to 2010 
averaged 26,000 metric tons worth about $455 million, annually (Fig. 
1). New Bedford has been the number one fishing port by value in the 
U.S. for the last 14 years, due largely to scallop landings; the fleet 
landed $289 million worth in 2010 and $297 million in 2011 just in New 
Bedford alone (Fig. 2).
    The current situation with the groundfish industry is in stark 
contrast to the scallop fishery. The latest estimates of New England 
groundfish stocks are incredibly low, reductions of 60 percent to 77 
percent for Georges Bank and Gulf of Maine cod, respectively. 
Yellowtail flounder quota, which is divided between Canada and the 
U.S., is so low that it could shut down both the groundfish and the 
scallop fishery due to by-catch. The scientific uncertainties in these 
estimates are huge and many people are questioning the Federal surveys 
and stock assessments. Many fishermen are saying, ``This is it, it's 
over.'' The end of the fishery.
    How did the scallop stock rebuild so quickly? Can the groundfish 
stock rebuild as well? To answer these questions we need to be able to 
accurately measure the abundance and spatial distributions of these 
animals.
    Estimating the abundance of marine species is difficult. 
Traditional fisheries assessments generally use modified commercial 
gear or fisheries landing data to provide relative abundance estimates 
recorded in catch per unit effort such as kg per tow. These sampling 
approaches generally focus on the target species of the fishery, and 
collect information on other species incidentally (by-catch). The 
efficiency and selectivity of these collections are usually unknown. 
Selectivity is the range of sizes and morphologies of individuals 
captured by a specific gear, and efficiency is the proportion of 
individuals caught by the gear compared to the total number of 
individuals in the gear's path (Stokesbury et al 2008). Relative 
estimates are relative only to themselves. You have to compare one year 
to another, and if you see a change you assume it is occurring in 
nature because your sample design is the same. However, if you know the 
efficiency of the sampling gear you can use it to calculate an absolute 
estimate, the actual number of fish in the sample area. Then if you 
know the total area your resource covers you can multiply these values 
to give you the number of animals in the resource. It is this number 
(or biomass if it is in weight) that managers use to set the total 
allowable catch for a fishery. ``There was an average of 1,000 scallops 
per tow in 2012'' doesn't mean anything unless you have other tows to 
compare it too. ``There were 4 billion scallops on Georges Bank in 
2012'' clearly means something. You can compare that number to other 
years, other animals and you can decide how many of them you would like 
to harvest.
    Each of the parameters has an associated error in measurement and 
these uncertainties are often so large that they frequently mask real 
changes in populations. Under the Magnuson-Stevens Act uncertainty in 
stock assessments leads to more conservative estimates of allowable 
catch.
    I believe that fisheries researchers should return to fundamental 
principles of field ecology; seek absolute measures (numbers per unit 
area) and determine the associated uncertainties (Stokesbury et al 
2008). I'll describe the implementation of these principles using a new 
technology to examine the sea scallop fishery of the Northeast Untied 
States.
The U.S. Sea scallop Fishery
    Two spatial management changes drastically altered fishing 
distribution replacing the traditional unrestricted movement of the 
fleet from one scallop aggregation to another. In 1977, the Hague Line 
divided eastern Georges Bank between Canada and the United States. In 
1994 three large areas (17,000 km\2\) of the United States portion of 
Georges Bank were closed to mobile gear fisheries in an effort to 
protect depleted groundfish stocks (Murawski et al. 2000). These 
changes substantially reduced the scallop grounds available to the 
fishing fleet and concentrated intense fishing pressure on the 
remaining open areas.
    By 1998 the scallop fishery was facing severe restrictions. 
Fishermen were desperate for access into the large closed areas of 
Georges Bank that had supported their traditional fishery. However the 
National Marine Fisheries Service (NMFS) survey suggest that scallop 
abundance was not high within these areas (NEFMC 1999 SAFE Report page 
93). There were several reasons for this: violation of the assumptions 
of the sampling design and huge uncertainties associated with the 
efficiency of the fishing gear used.
    The NMFS scallop survey uses a modified New Bedford style 
commercial dredge towed by a scientific research vessel, and stations 
were selected using a stratified random survey design (Hart and Rago 
2006). In a stratified random survey the population is divided into 
subpopulations which do not overlap and which together make up the 
entire population. The animals within each subpopulation are assumed to 
be relatively evenly distributed. Each subpopulation or ``strata'' is 
randomly sampled and then these values are combined. On Georges Bank, 
strata roughly follow depth contours. The establishment of closed areas 
cut across strata and with the number of animals increasing within the 
closed area, the assumption of an ``even distribution within strata'' 
was violated. This results in taking only a few samples in areas that 
have high densities of animals.
    Another problem is that there is a great deal of uncertainty 
concerning the efficiency of the dredge, how many scallops a scallop 
dredge catches, and how many scallops it leaves on the sea floor. Small 
differences may have large effects on scallop estimates, especially 
when you are using samples to extrapolate estimates for an entire 
population.
The SMAST sea scallop video survey
    Working cooperatively with the scallop fishermen, we set out to 
develop a video survey using quadrat techniques based on SCUBA diving 
studies (Stokesbury and Himmelman 1993; 1995) that would provide 
spatially explicit, accurate, precise, absolute estimates of sea 
scallop density and size distributions along the off-shore northeast 
waters of the United States including the Georges Bank Closed areas 
(Stokesbury 2002; Stokesbury et al 2004).
    In designing this survey we tried to avoid the preconceived notions 
of formal fisheries stock assessments, such as:

    1) Estimating biomass rather than the number of individuals
    2) Assuming homogeneous densities within survey strata.

    We met with fishermen who outlined their historic fishing grounds. 
We had very limited funds, so sampling gear had to be cheap and readily 
available. In addition, we wanted a portable system, deployable from 
any commercial scallop fishing vessel, and we wanted to avoid the 
permitting process required to sample in closed areas with fishing 
gear, which often results in delay (or denial).

    Three scientific principles guided our design:

    1) Scale: According to scallop population biology sampling grain 
needed to be at the scale of cm (individual distribution) and to the 
extent of 100-1000 of km\2\ (bed-level distribution) (Stokesbury and 
Himmelman 1993; 1995)
    2) Experimentation: To measure the impact of the scallop fishery on 
the benthic habitats with a level of precision that allowed statistical 
testing a Before-After-Control-Impact experiment (Green 1979; 
Stokesbury and Harris 2006). We had to take enough measurements to be 
sure we could observe a change when it occurs.
    3) Continuity: Sampling in an expandable way such that subsequent 
surveys would build a mosaic suitable for mapping benthic substrates 
and macroinvertebrates. We have added to our system with improved 
technology but we've keep the basic sampling unit the same so that all 
our samples can be compared to one another and combined.
    We developed a video-quadrat sampling pyramid and selected a 
multistage centric systematic design with three station grid 
resolutions (1.6, 2.3 and 5.6 km). Since 1999, we have completed 150 
video cruises surveying Georges Bank and the Mid Atlantic (>1,000 days 
at sea) We began sampling the entire resource in 2003 and have done so 
until 2012 (Fig. 3). The system is composed of a mobile video recording 
system compatible with any scallop vessel wheelhouse layout, an 
electro-hydraulic winch and a sampling pyramid. In its present 
configuration the sampling pyramid, supports four cameras and eight 
lights (Stokesbury 2002; Stokesbury et al. 2004; Fig. 4).
    Within each quadrat, macroinvertebrates and fish are counted and 
the substrates are identified (Stokesbury 2002; Stokesbury et al. 2004) 
(Fig. 5). Counts are standardized to individuals m^\2\. This procedure 
has been published in 25 peer-reviewed scientific papers.
Results of the video survey.
    Small Scale surveys: Our initial work focused on estimating the 
density of sea scallops within the closed areas of Georges Bank. Sea 
scallops were highly grouped into patches (beds) on the scale of km\2\ 
and strongly associated with coarse sand-granule-pebble substrates. The 
three areas surveyed contained approximately 650 million scallops 
representing 17,000 metric tons of harvestable scallop meats. These 
data assisted in developing an access program in 1999-2000 that 
provided an instant increase in harvest of 5.5 million lbs, worth $55 
million (Stokesbury 2002).
    Large Scale Surveys: In 2003, at the request of the scallop fishing 
industry we expanded our video survey to cover the entire scallop 
resource in U.S. waters based on the footprint of the 2002 fishery. Sea 
scallop densities in the Mid-Atlantic and Georges Bank represented 
approximately 217,520 metric tons of scallop meats (approximately U.S. 
$2.4 billion); twice that estimated by the NMFS (J. Boreman Director of 
NEFSC statement to The Standard Times, New Bedford, MA, USA, 4 November 
2003). Sea scallops were highly aggregated in areas closed to mobile 
fishing gear. A large number of pre-recruit scallops were observed in 
the southern portion of the Hudson Canyon closed area extending south 
into open waters. This area, the Elephant Trunk, was closed in 2004 and 
sustained the fishery until 2011.
    I don't think people realize what a cooperative effort this was 
with the fishermen, particularly the New Bedford fleet. We had no money 
for those first trips; they were all backed by individual fishermen, 
people donating their time, vessels, know-how, food and fuel. Now 150 
week-long trips later and over 10 years of surveying the continental 
shelf from Virginia to the Canadian line 200 miles off shore on Georges 
Bank; that is still the case. The food, fuel, vessels and fishermen's 
labor are still all donated. The fishermen and my students have made 
our efforts a success. Our video survey is the largest in the world 
(that I know of). It provides an estimate of the numbers of scallops by 
size by location for the entire resource. This has enabled a rotational 
management plan that moves the fishing fleet around different closed 
areas on Georges Bank and in the Mid-Atlantic depending on how numerous 
and large the scallops are in each area. The system was presented at 
New England Fisheries Management Council sea scallop Plan and 
Development team meetings as well as the NMFS stock assessments. It was 
subjected to a number of critiques that resulted in further testing and 
development. Now, this system has been reviewed and accepted by the 
National Marine Fisheries Service and is combined with their research 
to provide yearly estimates of scallop abundance.
    So ``what is the future?'' The closed areas may have played a part 
in the scallop recovery but there was also a huge recruitment in the 
Mid-Atlantic in 2003 that has sustained the scallop fishery for the 
last 10 years. There seems to be a cycle in scallop populations. The 
biggest scientific question in fisheries continues to be ``what is the 
relationship between the spawning adults and the new recruits?'' I 
think there are several underlying patterns to recruitment. There can 
be a relatively low annual recruitment equal to around 25 percent of 
the populations and then, when the correct environmental conditions 
occur, a huge year-class (Fig. 6).
    That is what rebuilds a fishery. The trick is having the scientific 
techniques to see the recruitment as soon as it occurs and the 
management structure in place to act quickly and protect it. This just 
happened with scallops in 2012, we (our video survey and the NMFS 
scallops survey) saw another good recruitment in the mid-Atlantic and 
with the support of the fishermen, the management council quickly 
closed the area protecting the scallops and allowing them to grow 
undisturbed until they were ready to harvest. In considering the data 
requirements for the Magnuson-Stevens Act this should be considered, to 
look for and take advantage of significantly large year classes. It is 
very hard to rebuild a population with an average annual recruitment.
    We're working on new ways to try and measure groundfish using 
acoustics and video techniques. We just conducted a preliminary survey 
placing a video camera system in the cod-end of a groundfish otter 
trawl to see if we could accurately identify and count the fish as they 
passed through (Fig. 7). The results look promising and if we can 
refine this technique we will be able to greatly increase the area 
sampled for groundfish, which should reduce the scientific uncertainty 
in these estimates. To me the way forward is to reduce the scientific 
uncertainty and the best way to do this is to get out there with the 
fishermen and measure what's going on. If we can use new technologies 
to look at these populations clearly and simply, perhaps we can start 
to grasp their underlying dynamics.
    There is still an incredible amount of potential in the wild 
fisheries of New England, and the infrastructure and people willing to 
and invested in figuring out how to make it work sustainably.
    I suggest the following criteria in designing surveys and 
experiments (Stokesbury et al 2008):
    1. Always answer a question using a hypothesis driven approach with 
experimental design based on observations to determine the appropriate 
sampling design and scale; the temporal and spatial scales of the 
sampling design must match that of the hypotheses.
    2. Use as much information as possible in collecting initial 
observations; include historic literature, perspective of non-
scientists, and especially observations and perceptions from fishers 
and other resource users.
    3. Start as simply as possible with a scalable sampling design and 
build a mosaic as knowledge increases.
    4. Make your experimental design as adaptive to new technologies as 
possible; absolute measures are essential.
    5. Incorporate spatial and temporal variability in your 
experimental design (strongly consider systematic sampling designs).
    6. Use collection and analysis procedures that allow for the 
development and inclusion of your intuition and understanding of the 
ecosystem (automation can kill intuition) as well as new information 
and technology.
    Thank you.
                                 ______
                                 
Literature Cited
Green, R.H. (1979). Sampling design and statistical methods for 
            environmental biologists. John Wiley & Sons, New York.
Gunderson, D.R. (1993). Surveys of Fisheries Resources. John Wiley & 
            Sons, Inc. New York.
Hart, D.R., Rago, P.J. (2006). Long-term dynamics of U.S. Atlantic sea 
            scallop Placopecten magellanicus populations. North 
            American Journal of Fisheries Management, 26, 490-501.
Harris, B.P., & Stokesbury, K.D.E. (2006). Shell growth of sea scallops 
            (Placopecten magellanicus Gmelin, 1791) in the southern and 
            northern Great South Channel, USA. ICES Journal of Marine 
            Science, 63, 811-821.
Hilborn, R., & Walters, C.J. (1992). Quantitative fisheries stock 
            assessment: choice, dynamics and uncertainty. Chapman & 
            Hall, Inc., New York.
Murawski, S.A., Brown, R., Lai, H.-L., Rago, P.J. & Hendrickson, L. 
            (2000). Large-scale closed areas as a fishery-management 
            tool in temperate marine ecosystems: the Georges Bank 
            experience. Bulletin of Marine Science, 66, 775-798.
Stokesbury, K.D.E. (2002). Estimation of sea scallop, Placopecten 
            magellanicus, abundance in closed areas of Georges Bank. 
            Transactions of the American Fisheries Society, 131, 1081-
            1092.
Stokesbury, K.D.E. (2012). Stock definition and recruitment: 
            Implications for the U.S. sea scallop (Placopecten 
            magellanicus) fishery from 2003 to 2011. Reviews in 
            Fisheries Science 20:154-164.
Stokesbury, K.D.E., & Harris, B.P. (2006). Impact of a limited fishery 
            for sea scallop, Placopecten magellanicus, on the 
            epibenthic community of Georges Bank closed areas, Marine 
            Ecology Progress Series, 307, 85-100.
Stokesbury, K.D.E., Harris, B.P., Marino II, M.C. & Nogueira, J.I. 
            (2004). Estimation of sea scallop abundance using a video 
            survey in off-shore USA waters. Journal of Shellfish 
            Research, 23, 33-44.
Stokesbury, K.D.E., Harris, B.P., & Marino II, M.C. (2008). 
            Astonishment, stupefaction, and a naturalist's approach to 
            ecosystem-based fisheries studies. In The Future of 
            Fisheries edited by Rothschild, B.J. & Beamish, R. American 
            Institute of Fisheries Research Biologist (in press).
Stokesbury, K.D.E. & Himmelman, J.H. (1995). Biological and physical 
            variables associated with aggregations of the giant scallop 
            Placopecten magellanicus. Canadian Journal of Fisheries and 
            Aquatic Sciences, 52, 743-753.
Stokesbury, K.D.E. & Himmelman, J.H. (1993). Spatial distribution of 
            the giant scallop Placopecten magellanicus in unharvested 
            beds in the Baie des Chaleurs, Quebec. Marine Ecology 
            Progress Series, 96, 159--168.

FIGURE 1. UNITED STATES SEA SCALLOP LANDINGS (SOURCE: NOAA).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


FIGURE 2. DECK LOAD OF SCALLOPS IN THE NANTUCKET LIGHTSHIP AREA IN 
                    2006 DURING AN ACCESS TRIP (PHOTO BY BRAD HARRIS).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                    

FIGURE 3. MAP OF THE 2012 COOPERATIVE VIDEO SURVEY, EACH DOT 
                    REPRESENTS 4 DROPS OF THE PYRAMID WITH 4 CAMERAS 
                    RECORDING DATA, RED DOTS ARE THE NUMBERS OF 
                    SCALLOPS PER STATION.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                    

FIGURE 4. THE SMAST VIDEO SAMPLING PYRAMID MOUNTED ON THE SIDE OF A 
                    COMMERCIAL FISHING VESSEL.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                    
FIGURE 5. A DIGITAL STILL QUADRAT SAMPLE COVERING 1.13 M2 WITH 11 
                    SCALLOPS AND 1 STARFISH.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

FIGURE 6. RECRUITMENT OF JUVENILE SCALLOPS FORM THE SEA SCALLOP 
                    RESOURCE FROM 2003 TO 2011 (STOKESBURY 2012).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                    

FIGURE 7. A DIGITAL IMAGE OF GROUNDFISH FROM A TEST SYSTEM THAT MAY 
                    ALLOW THE SAMPLING OF FISH AS THEY PASS THROUGH AND 
                    THEN EXIT THE NET WITHOUT DAMAGING THEM.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
    Dr. Fleming. Thank you, Dr. Stokesbury.
    And finally, Captain Colby. You are recognized for 5 
minutes.

        STATEMENT OF CAPTAIN MIKE H. COLBY, PRESIDENT, 
           DOUBLE HOOK CHARTERS, CLEARWATER, FLORIDA

    Mr. Colby. Thank you, Mr. Chairman and Ranking Member and 
Subcommittee members, for giving me the opportunity to respond 
from a fisherman's perspective on data collection and how we 
move forward with MSA reauthorization. If I may quickly, I 
would like to recognize to the Ranking Member and your 
colleagues from the Pacific Rim that a week-and-a-half ago at 
the Managing Our Nation's Fisheries conference I had the 
pleasure of meeting some of those participants and staff in the 
Western Regional Council. It was entertaining and educational, 
and I felt that I needed to let you know that.
    Mr. Chairman, in your kind invitation to me you indicated 
that you had three comments, questions, or overarching ideas 
that you wanted me to address to the Subcommittee. And I would 
like to do that one by one, if I can.
    The first would involve your question about whether MRIP is 
operational and fully implemented. In terms of the full 
implementation, I know that we have small steps to go there. I 
think we have a mailing component that is going to be used, 
along with the phone canvassing, in addition to some other, I 
believe, enhancements to the dockside intercepts. So--and I 
would fully expect--and some fisherman think--that will happen 
certainly before the end of the year, or as soon as possible.
    In terms of it being operational, from a fisherman's 
perspective--and I am a charter-for-hire operator--the 
transition from the old system to the new system for us is 
seamless. It is without controversy. I mean we are reporting, 
anyway. We have been reporting, anyway. So it was a very easy 
transition into the new system. And I think, again, the 
challenges will be, for us, to identify in the broad component 
of the recreational fishery who is using MRIP. Are they 
satisfied with it? Certainly we will need a query or some kind 
of census, if you will, to find out if fishermen are enjoying 
the system and find it easy to use, and are willing to 
cooperate with it.
    The other was your interest in any new pathways or 
technology for data collection that we might use in 
reauthorization, or certainly use in the fishery. And we have 
one that is on our doorstep now, it is being used right now. It 
is right here, it is right on an iPhone, and it is called 
iSnapper. You can use it on an iPad or an iPhone. It has been 
tested several times by pilots using charter-for-hire fishermen 
in the Western Gulf, and some in the Northern Gulf.
    And Dr. Greg Stunz and the Harte Research Institute, Texas 
A&M, Corpus Christi, developed this. It is menu-driven. It is 
dumb-proof. It is easy to use. The fisherman goes out with 
this, they log in, the give near-to-real-time, while-they-are-
fishing estimates on catch and effort. On your way home you hit 
enter, and that is it. You can even go home and log in on the 
iSnapper website and look at a lexicon of your fishing 
activities over a period of time. It is a wonderful opportunity 
for recreational fishermen to become responsible and obligated 
to their fishery to use this.
    I think if you put iSnapper with some other validation or 
documentation component--for instance, a fish tag--in terms of 
validating that self-reported data, the fish tag being used 
only for effort purposes, I think you have a powerful tool that 
will immediately result in us setting better ACLs, or rather 
better annual catch targets, accepted biological catch, making 
determinations of optimum yield. We now have the badly needed 
fishery-dependent data that we have been waiting for.
    And the third thing was your question about whether I, as a 
fisherman, feel that MSA needs to be reauthorized, particularly 
in terms of data collection. And I think what I just said there 
was that if we already have those tools in place--the National 
Standard 2 is what it is. It is National Standard 2, requires 
the best-available science and data. It is time for fishermen 
to quit thinking of themselves as participants in the fishery, 
and become responsible for this fishery.
    Bring fishermen to the table. Start putting in good, real-
time, as best real-time data as we can. And I think you will 
see the workable Magnuson-Stevens Act that we need from them. 
Thank you.
    [The prepared statement of Mr. Colby follows:]

     Statement of Michael H. Colby, President, Double Hook Charters

    Chairman Fleming, Ranking Member Sablan, and Members of the 
Committee, thank you for the opportunity today to speak to you today on 
the importance of data collection in sustainably managing our nation's 
fisheries. My name is Mike Colby and I have been a participant in the 
Gulf of Mexico fishery for the better part of 50 years. I spent many 
years part-time in the for-hire fishery while I was a contractor for 
the U.S. Fish & Wildlife Service and an adjunct instructor in the 
environmental sciences. In 1986, I received my first Merchant Mariners 
Credential and became a full-time operator in 1995. I have always felt 
that the charter industry was my pathway to becoming an ambassador for 
our fishery.
    Over the past several decades, I began to see myself not just as a 
participant in the fishery, but as someone who is responsible for the 
fishery. This was a growth in perspective that I attribute to my 
background in the biological sciences and a true concern for natural 
resources. My involvement in current fishery management issues is the 
direct result of my vested interest in our fishery resources.
    This hearing and last week's Managing Our Nation's Fisheries 
Conference call attention to the importance of sustainable fisheries to 
our coastal communities and economies. NOAA, the National Marine 
Fisheries Service (NMFS) and regional fishery management councils have 
made strides over the past decade to rebuild stocks and to end 
overfishing and increase the number of stock assessments and status 
reviews. Since 2000, 32 fish stocks have been rebuilt and many more 
have been assessed; 11 have been rebuilt since I last testified in 
2011. The Magnuson-Stevens Fishery Conservation and Management Act is 
working and fish populations are rebuilding. This is good for fish, 
fishermen and the coastal economies that depend on a healthy resource.
    Science based catch limits and accountability measures are key 
components of the successes we have seen on the water in ending 
overfishing and rebuilding fisheries. National Standard two of the 
Magnuson-Stevens Fishery Conservation and Management Act requires that 
``Conservation and management measures shall be based on the best 
available science.'' Data collection in the recreational and commercial 
fisheries forms the basis for the best available science used when 
managing our nation's fisheries.
    As a young wildlife and fisheries student I can remember a fishery 
biologist telling me that he ``never saw a perfect data set''. He also 
reminded me that all data give us direction, trends and the need for 
more data. While I can think of no one who would argue the need for 
more reliable fishery data, we need to look at the existing science and 
scientific process we have now.
Existing Data Collection Methods for Gulf Recreational Fisheries
    Three separate programs are used to sample and calculate catch and 
effort estimates for the marine recreational fishery in Gulf of Mexico: 
the Marine Recreational Information Program (MRIP), Southeast Regional 
Headboat Survey (SRHS) and the Texas Marine Sport-Harvest Monitoring 
Program (TPWD).\1\
---------------------------------------------------------------------------
    \1\ National Research Council. 2006. Review of recreational 
fisheries survey methods. Committee on the Review of Recreational 
Fisheries Survey Methods, National Research Council. The National 
Academies Press. 187p.
---------------------------------------------------------------------------
    Before we address MRIP, we need to address its predecessor the 
Marine Recreational Fisheries Statistics Survey (MRFSS). The Magnuson 
Fishery Conservation and Management Act \2\ passage in 1976 mandated 
collection of data for both commercial and recreational marine 
fisheries by National Marine Fisheries Service (NMFS). NMFS established 
MRFSS as a program in 1979 to serve as a reliable data base for 
estimating the impact of marine recreational fishing on marine 
resources.\3\ A nationwide standardized data collection methodology and 
statistical estimation process began in 1981. All of the Gulf of Mexico 
states originally participated in MRFSS; however, Texas dropped out of 
the program in 1986 and returned to its original survey design. 
Louisiana, Mississippi, Alabama and Florida have continued to use MRFSS 
as their primary marine recreational fishery sampling methodology.
---------------------------------------------------------------------------
    \2\ 16 U.S.C.   1801-1884 (specifically  303 & 304(e)).
    \3\  http://data.recfin.org/mrfssov.htm.
---------------------------------------------------------------------------
    MRFSS was not specifically designed for management rather it was to 
estimate the impact fishing had on the resource; however, as this 
program was the main source for recreational fishery catch and effort, 
managers had to rely on it as there source of recreational information. 
As management needs evolved, MRFSS could not provide catch and effort 
estimates in a manner fitting to these needs. These concerns, and 
others, prompted a study by the National Research Council. In their 
final report, the NRC recommended a systemic overhaul of the survey 
methods of MRFSS and additional changes were mandated in the MSA 
reauthorization of 2006.
    MRFSS was thusly rebranded `Marine Recreational Information 
Program' (MRIP) and work began to redesign the survey. The redesigned 
system was supposed to be operational by 2009, however due to the 
complexity of the new system, it did not launch in 2013.
Marine Recreational Information Program (MRIP)

    The goal of MRIP (and MRFSS) is to provide a reliable data base for 
estimating the impact of marine recreational fishing on marine 
resources.\4\ The function of the survey is to provide Fishery 
Management Councils, Interstate Fisheries Commissions, and State and 
Federal fishery management agencies to draft fishery management plans, 
to evaluate future demands on fish stocks, to predict and evaluate the 
impact of fisheries regulations, and to develop recreational facilities 
for anglers. MRIP, like MRFSS, calculates recreational fishery catch 
and effort estimates for all water areas (inland, state and EEZ) and 
all species of recreational take, including discarded species.
---------------------------------------------------------------------------
    \4\ http://www.st.nmfs.noaa.gov/st1/recreational/pubs/data_users/
chap_1.pdf.
---------------------------------------------------------------------------
    Two regions and some U.S. territories, the 15 Atlantic States and 
four of the Gulf of Mexico States (Louisiana, Mississippi, Alabama, and 
Florida) participate in MRIP.\5\ The west coast, Texas and Alaska do 
not use MRIP.
---------------------------------------------------------------------------
    \5\ As of 5/2013.
---------------------------------------------------------------------------
    The basic design of MRIP is through two independent, yet 
complementary, surveys: a telephone survey of households \6\ and an 
intercept survey of anglers at fishing access sites. The telephone 
survey captures number of trips and other similar aspects; whereas, the 
intercept survey captures creel data, basic spatial data, time fished 
and avidity data.
---------------------------------------------------------------------------
    \6\ Note: effort data collection will incorporate mail based 
interview methods possibly by 2014.
---------------------------------------------------------------------------
    The telephone survey is completed in a two-week period that starts 
the last week of each wave through first week of the following new 
wave. Participants asked to recall on a trip-by-trip basis all marine 
recreational fishing trips made within their state during the 60 days 
prior to the interview. The two month period was selected as it has 
been shown this is the limit of reasonable data recall by multiple 
studies. Important to note, the original design limited the phone 
survey to coastal households. As the NRC found, and other critiques, 
this biased the data and potential resulted in under coverage of the 
angler frame.\7\ MRIP addresses this issue and will use an angler 
license data base and some random digit dialing to account for 
unlicensed anglers to accomplish the same task. This should result in 
better coverage of the sampling frame (i.e., anglers).
---------------------------------------------------------------------------
    \7\ National Research Council. 2006. Review of recreational 
fisheries survey methods. Committee on the Review of Recreational 
Fisheries Survey Methods, National Research Council. The National 
Academies Press. 187p.
---------------------------------------------------------------------------
    The intercept survey consists of onsite interviews which gather 
catch and demographic data from marine recreational anglers in three 
fishing modes: party/charter boat, private/rental boat, or shore based 
(e.g., man-made structures, beaches, and banks). The Gulf of Mexico 
MRIP has not collected catch data from headboats since 1985. This is 
covered by a separate survey, the Southeast Regional Headboat Survey, 
run by NMFS/SEFSC in Beaufort, NC.
    In the Gulf of Mexico, the Gulf States Marine Fisheries Commission 
(GSMFC) administers the survey. GSMFC is responsible for data entry.
MRIP Data Flow & Timeline:
    MRIP calculates catch effort estimates in two month `wave' periods. 
The following table and figure summarize the process. The gray shaded 
areas are the estimation period. In short, estimates, for any given 
wave, are not available until 45 days after the wave ends, e.g., May/
June (wave 3) estimates are available August 15.

------------------------------------------------------------------------
                       Post Sample to Next
        Step                  Level              Example Receival Date
------------------------------------------------------------------------
1                    Field Data: 2-7 days to  June 3
                      Supervisor
2                    2 days to GSMFC          June 9
3                    7-10 days to Data Entry  June 21
3.5                  July Data: 12 days to    July 22
                      GSMFC
4                    7 days to Final Data     July 29
                      Entry
5                    Telephone Data to GSMFC  July 29
6                    Estimate                 August 15
------------------------------------------------------------------------

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                              

FIGURE 1. GENERIC TIMELINE FOR MRFSS ESTIMATES. BASED ON SALZ & 
                    ROSSETTI, 2011.\8\
---------------------------------------------------------------------------

    \8\ www.countmyfish.noaa.gov/workshop/
Salz_Rossetti_lag_timeliness_workshop--final.pdf.

    MRIP was not designed as a management tool for in season 
management, it was designed to address the surveys biases identified in 
the NRC report. MRIP provides catch and effort estimates in six two-
month waves, over a calendar year. The estimates for each wave are 
produced 45 days after the wave ends, e.g., May/June (wave 3) estimates 
are available August 15. A final annual estimate is produced 
approximately two months after the start of the year, essentially a re-
run of the data to incorporate any corrections. Another important note 
is many fishing seasons are completed within a wave or straddle two 
waves. For example, the red snapper season is contained within a wave, 
but total catch estimates are not available until 45 days after the 
wave ends. MRIP does not have the ability to calculate in-season 
estimates or forecasts, which often leads to overfishing the quota in 
many species.
    Marine Recreational Information Program (MRIP) is relied upon to 
predict catch per unit effort for the recreational angler; not an easy 
task given there were more than 3 million recreational anglers in the 
Gulf of Mexico in 2011. This model is commonly referred to by some 
fishermen as ``junk science''. In August 2010 the Gulf Regional Council 
re-opened the Gulf red snapper season for a fall fishery after the BP 
Deepwater Horizon disaster based on data from MRFSS. The data indicated 
that the recreational quota had not been caught during the regular 
fishing season and that additional quota could be released to the 
recreational sector allowing for a fall fishing season. Recreational 
fishing organizations praised this decision. Yet, when MRFSS showed 
that a fishery closure was needed in the recreational greater amberjack 
fishery, it was dismissed as faulty data. Interesting, that the data 
are decried as ``junk science'' when they tell us what we don't want to 
hear, yet applauded when they give us the outcome we want.
MRIP vs MRFSS:
    While the NRC recommended a complete redesign of MRFSS to address 
survey biases, it did not dictate changes of monitoring a specific 
fishery. While NRC mentioned timeliness as a a needed component, the 
NRC focused on methods to ``improve its effectiveness and 
appropriateness of sampling and estimation procedures, its 
applicability to various kinds of management decisions, and its 
usefulness for social and economic analyses.\9\''
---------------------------------------------------------------------------
    \9\ NRC.
---------------------------------------------------------------------------
    The purpose of MRFSS was to establish and maintain a reliable data 
base of recreational catch and effort to better understand the Nation's 
impact on marine fisheries. The NRC report notes ``[MRFSS] mission is 
to provide accurate, precise, and timely fisheries-dependent 
information for U.S. marine waters through the coordination and 
administration of recreational fisheries surveys nationwide;\10\'' 
however, the term `timely' is difficult to define. Each fishery has 
different temporal data delivery needs, some need monthly estimates, 
while others can operate on annual estimates. MRIP, like MRFSS, is 
designed to provide estimates for the entire marine recreational 
fishery and not the fine scale management units currently employed by 
fishery managers to meet conservation goals. The levels of sampling for 
a national survey lack the precision necessary for reduced spatial and 
temporal scales. Therefore, to provide estimates for specific 
fisheries, using the scope at which MRIP operates, is impractical.
---------------------------------------------------------------------------
    \10\ National Oceanic and Atmospheric Administration. 2005. NOAA 
Recreational Fisheries Statistics Program. [Online]. Available: http://
www.st.nmfs.gov/ st1/recreational/index.html [2013, May 14].
---------------------------------------------------------------------------
    For example, in-season management has the most need of timely data 
delivery to prevent overrun of quota. This requires, in general, 
sampling the fishery at a very high rate at a smaller geographic scale 
and greatly increases the cost.
Texas Marine Sport-Harvest Monitoring Program
    The Texas program was established in 1974. The state was sampled by 
the MRFSS through 1985. The goal of this survey is to estimate 
participation in the Texas sport fishery. The primary focus of this 
survey is those anglers fishing in inshore and nearshore waters. There 
have been added components to capture EEZ fishery data, but at this 
time \11\ is not a high priority with the state. Currently, Texas has 
not performed shore based (i.e., man-made structures and beaches) creel 
surveys due to budgetary issues since 1992.\12\ The survey is focused 
on private boats and for-hire boats. federally permitted headboats are 
sampled by the SRHS.
---------------------------------------------------------------------------
    \11\ May 2013.
    \12\ Mark Fisher, TPWDs Science Director, stated they were to 
complete these surveys every 10 years.
---------------------------------------------------------------------------
    TPWD calculates catch and effort estimates based on field surveys. 
Unlike MRIP, Texas does not employ a phone survey component to obtain 
effort data. The components of the survey are an access point intercept 
survey for angler information and catch data and a roving count of 
effort at boat ramps.
    Whereas MRIP produce estimates based on a calendar year, TPWD does 
not. The basic timeline of TPWD's survey is based on High-Use (May 15-
Nov 20) and Low-Use (Nov 21-May 14) seasons Meaning, Texas does not 
follow the more common used scheme of Jan--Dec, but rather May to May. 
In general, final estimates are published 3-4 months after the survey 
year ends. Estimates are therefore a combination of 7 months of the 
first calendar year and 5 months of the following.
Data Flow & Timeline

------------------------------------------------------------------------
                       Post Sample to Next
        Step                  Level              Example Receival Date
------------------------------------------------------------------------
1                    7 days                   June 7, 2011
2                    2 months                 August 7
3                    Final estimate (annual)  June 1, 2012
------------------------------------------------------------------------

Southeast Regional Headboat Survey
    The SHRS has been administered since 1972 and is the one of the 
longest recreational fishery time series in the U.S.\13\ This survey 
started in the Gulf in 1986. The first goal of this survey is to 
collect, dockside, biological samples (length, weight, otoliths, etc.) 
from headboat landings. This is the primary source for SEDAR and stock 
assessment age-growth structures.\14\ The second goal of this survey is 
logbooks from each of the headboats. Crew completed logbooks are a 
mandatory requirement for all federally permitted headboats. Each boat 
must report, on a trip by trip basis, such information as location, 
anglers, fish (A, B1 &2).
---------------------------------------------------------------------------
    \13\ Brennan, Ken, Southeast Region Headboat Survey Program 
Description. SEDAR 24, South Atlantic Red Snapper Data Workshop, April 
28, 2010.
    \14\ http://www.sefsc.noaa.gov/labs/beaufort/sustainable/headboat/.
---------------------------------------------------------------------------
Data Flow & Timeline
    There are two components to the survey, biological specimen 
collection and logbook data. SEFSC samplers sample headboat catch to 
obtain biological data and obtain the logbooks from the vessels. 
Logbooks not collected by the sampler are sent to the Beaufort Lab 
monthly.\15\
---------------------------------------------------------------------------
    \15\ Note: As of 2014, all headboat logbooks will be electronic and 
sent on a more timely basis (weekly).

------------------------------------------------------------------------
                   Post Sample to Next
      Step                Level               Example Receival Date
------------------------------------------------------------------------
1                 7-30+ days             July 1, 2011
2                 14 days                July 15
3                  2-4 months            Sept-Nov
4                 3	4 months post new    March or April 2012
                   year
------------------------------------------------------------------------


Improving Data Collection in the Recreational Fishery:

    MRIP cannot address all the challenges with recreational data 
collection. With sufficient participation it can estimate catch and 
effort but to go above and beyond MRIP and improve timeliness in the 
data we need to have better industry and angler engagement. 
Recreational anglers have traditionally been participants, but as a 
user group that can have such a large impact on the resource, it is 
time that we fulfilled our role as stewards. Fishery managers are 
working to address problems on the water and it is now up to industry 
and anglers to find solutions that work for the fishery. There are a 
variety of methods we could employ to better track recreational catch 
effort
    1. Increase funding for data collection and monitoring: U.S. 
commercial and recreational fisheries represent a multi billion dollar 
industry and supports millions of jobs. Congress should invest in fish 
and fishermen through increasing funding for fisheries management. 
Increased funding would help provide additional stock assessments, an 
important tool in setting ACLs; improve recreational data collection 
and monitoring; and facilitate cooperative research.
    2. Promote innovation in fisheries data collection: One of the key 
ways NMFS could improve data collection without the need for 
Congressional legislation is to explore the use of modern, electronic 
methods for collecting data from fishermen. Electronic data collection 
can be more timely, accurate, and cost effective compared to 
traditional sampling methods. Recently a pilot study conducted by the 
Texas A&M Corpus Christi Hart Research Institute demonstrated that data 
could be collected from for-hire fishermen using a mobile device, in 
this case an iphone, and sent directly to the NMFS. This application 
collected catch, discard, location, fishing effort, and economic data. 
This data collection platform called isnapper has shown great promise 
in several pilot programs within the charter for-hire sector. Isnapper 
is a self-reporting electronic program that enables the user to collect 
and report on a daily basis. Using a tag or other harvest documentation 
in conjunction with isnapper could likely give managers the higher 
certainty in recreational harvest data that is needed. Congress should 
support efforts to modernize our fisheries data collection by funding 
efforts to expand these types of programs to support region-wide 
implementation.
    3. Use tags to measure effort: Tags are used to measure effort in 
numerous ways from land based hunting to salt water game fish like 
snook and tarpon. Tags can be used to supplement monitoring and 
enforcement and provide data on fishing effort. For the purposes of 
this testimony, tags would be used to estimate effort only and not to 
control effort.
    4. Bring fishermen to the table: This is where recreational fishing 
advocates and participants answer the challenge of improving fishery 
dependent data and collection. MRIP provides the platform, and now 
fishermen need to provide the near to real time harvest data that 
fishery managers need. As stewards of the resource it is incumbent on 
us to provide as much information as we can to state and Federal 
managers. Lack of information does not mean management efforts will 
cease; it unfortunately requires managers to estimate the needed 
information for reliable harvest numbers. I have heard from fishermen 
who are reluctant to participate in creel surveys (dock side 
intercepts) and many times do not participate in the random phone 
surveys. Our challenge is to inform fishermen of their obligation to 
provide badly needed fishery dependent data. As users of a public 
resource I believe it is our obligation to report our impact on that 
resource.
Conclusion
    Our Nation's fishery resources are an integral part of our coastal 
economies and cultural heritage. Healthy fisheries not only promote 
strong business and coastal jobs but also our way of life. Nationwide, 
progress is being made to end overfishing and as we look to reauthorize 
the MSA we need to ensure that we work to improve the law and not roll 
back the key conservation measures that are workings. Many of the ideas 
I have suggested can be done without reauthorizing the law and we would 
see benefits on the water sooner. Innovation in data collection and 
management that works for our country's fishing public will ensure the 
long-term prosperity in our coastal fishing communities. Thank you for 
the opportunity to share my thoughts on this important issue.
                                 ______
                                 
    Dr. Fleming. Well, thank you, Captain. And thank you, 
panel, for your testimony. At this point we will begin 
questions for our witnesses. And again, to allow all Members to 
participate, Members are limited to 5 minutes for their 
questions. However, if Members have additional questions, we 
can have more than one round. I now recognize myself for 5 
minutes.
    Dr. Breidt, I have a question. And just a quick response is 
all I need. I don't want to spend a lot of time on it. But what 
is the gold standard, when it comes to surveying a fish 
population? I mean there is--we have talked about different 
techniques, newer techniques. We have self-reporting, we have 
electronic monitoring. What is--if you had the perfect, or 
near-perfect test, and you had all the money and the time in 
order to perform it, what is the gold standard, from a 
statistical standpoint?
    Dr. Breidt. Yes. The gold standard would be--recalling that 
we are not trying to survey fish, but actually survey catch, we 
are trying to estimate catch--so if you had a complete, 
universal frame so that you could go out and find every fishing 
trip, every fish caught, sample those--you told me I had all 
the resources in the world? Well, then, I would measure every 
fish. But since I don't have that, I need to take a sample, a 
representative sample, so that I can generalize from that 
sample to the population. And I want to do that by some 
probability mechanism, where I know the probabilities. If data 
are sort of volunteered to me, I don't know those 
probabilities, so I can't extrapolate to the whole population. 
But if you really give me all the resource in the world, I will 
just measure everything.
    Dr. Fleming. So measuring the actual catches would give you 
the best data, if that were theoretically possible.
    Dr. Breidt. If you could just track every single fish that 
was harvested, and know that every released fish--you knew 
whether it lived or died, then you would be done.
    Dr. Fleming. So, really, the goal here is to find one or 
more methods that correlates best with the results you would 
get from that, I would infer from your statement, then.
    Dr. Breidt. Yes. And I think that if you have other methods 
that you want to bring in, other data sources, then if you have 
some baseline that includes representative sampling, then there 
are ways to do that. But without that baseline, it is hard to 
know how to assess the relative contributions of those 
different data sources.
    Dr. Fleming. Right. OK, thank you. Mr. Horton, if NOAA were 
to continue to manage the commercial fisheries in the Gulf--
like red snapper, for instance--the way they have been, how 
could they change the way they manage and allocate to the 
recreational sector without allowing too many fish from being 
taken and sending us right back into a situation that we have 
already been, over-fishing.
    Mr. Horton. Sure, Mr. Chairman. You know, the methodology 
or the strategy we are proposing works really well right off 
the bat, right out of the gate, it would work well for 
predominantly recreational fisheries. The striped bass example, 
Atlantic striped bass example that Congressman Hastings gave--
or that Congressman Wittman mentioned earlier, is--that was 
pretty much an 80/20 percent--80 percent rec, 20 percent 
commercial. So it was fairly easy to implement in that regard. 
And there are other recreational fisheries that are 
predominantly recreational that, again, it would be fairly easy 
to implement.
    There are some fisheries, like red snapper and some others, 
that are significant commercial fisheries as well as 
significant recreational fisheries. Can it be implemented 
there? Arguably, yes, it could. Would it require or potentially 
require a revisiting or re-examination of allocations? Yes. 
There is a potential we would have to re-examine allocations. 
And many of these allocations were determined years ago, 
decades ago. And I think the recreational fishing community in 
a way has been calling for a re-examination of those 
allocations, based on the latest social, economic, and 
environmental conditions and the changes we have had over the 
years.
    Dr. Fleming. OK, thank you. Let me ask you another 
question, Mr. Horton. You suggest that recreational fisheries 
be managed using a harvest rate. Would this change require a 
change in the Magnuson-Stevens Act?
    Mr. Horton. That is a good question, Congressman.
    Dr. Fleming. In your opinion. I mean, obviously, you are--
--
    Mr. Horton. I think what it would have to do--there would 
have to be some provisions, basically. We are not talking about 
writing specifically this--managing based on fishing mortality 
into Magnuson-Stevens. I think giving the councils and the 
commissions the latitude, like we do at the Mid-Atlantic 
striped bass fishery, to be able to manage a fishery that way, 
give the councils and the commissions the ability to do that, I 
think is the direction that we would like to see it go.
    Dr. Fleming. OK, thank you. The Chair recognizes the 
Ranking Member, Mr. Sablan.
    Mr. Sablan. Thank you very much, Mr. Chairman. And let me--
Mr. Horton, before we let you go, I have one other question.
    You pointed to management of terrestrial game as a model 
for management of marine recreational fisheries. And many game 
programs operate by requiring hunters to tag and report all 
animals harvested. Would you support a tagging program to help 
data collection in the recreational sector for important 
species like red snapper?
    Mr. Horton. Honestly, I think that would be a very 
difficult program to implement, again, just because of the 
sheer numbers of recreational snapper fishermen that are out 
there.
    Whenever you talk about tag reporting from a terrestrial 
aspect, typically we are talking about big game and big game 
management. We are not talking about--what would be comparable, 
I guess, to a snapper fishery would be water fowl harvest or 
dove--you know dove harvest, or dove seasons, where there is no 
tag reporting requirement for----
    Mr. Sablan. Thank you.
    Mr. Horton [continuing]. Those particular species.
    Mr. Sablan. I have 5 minutes. Thank you very much, though, 
Mr. Horton.
    Now, Dr. Stokesbury, welcome. You also talked about a 
couple of different data collection techniques that you have 
used, working with fishermen, to gather high-quality data at a 
low cost. So, in your opinion, are these type of solutions 
going to be necessary to meet our fisheries assessment and 
management challenges in the absence of a stronger Federal 
funding commitment? And could you or can you describe in 
greater detail the potential advantages of your video trawl 
technology?
    I'm sorry, English is my second language--did you get my 
question?
    Dr. Stokesbury. I get----
    Mr. Sablan. My two questions are, in your opinion, are 
these types of solutions going to be necessary to meet our 
fisheries assessment and management challenges, in the absence 
of a stronger Federal funding commitment, and can you describe 
in greater detail the potential advantages of your video trawl 
technology?
    Dr. Stokesbury. Yes. To answer the first question, I think 
they are. And I think even with more Federal funding, you are 
going to have to take that type of approach. As long as the 
fishermen and the scientific surveys disagree and argue over 
how it is being done, you are always going to have problems. 
And I think that we need to move forward.
    And I believe that the preliminary survey we did with the 
trawl video work is a step in the right direction, because we 
did have a member of the Marine Fisheries Service out there 
with us, their expertise helped with this. Now, that system is 
not rocket science, it is simply putting a video camera--Simrad 
donated the camera--and we basically just constructed a frame 
that we put in the cod-end of a otter trawl. And the idea is to 
count the fish that go through. And if you can get that count 
to be the same as if you dumped the fish on the deck, then you 
can trawl continually. And so you can increase the amount of--
where most scientific tows are only a half-hour long or so on 
Georges Bank, you could tow continually. And so you could 
greatly increase the time your net is in the water, and that 
would reduce some of the spatial holes that are presently in 
the survey.
    Mr. Sablan. All right, thank you. And I got to go to 
Captain Colby, because he has taken the time to meet my people.
    But Captain, Mr. Horton claimed that it is an injustice to 
recreational fishermen that, as the Gulf red snapper population 
gets healthier, anglers are allowed to fish less. While the 
population of red snapper may be growing, it is far from being 
rebuilt, and only a few years removed from being over-fished. 
Aside from abundance, what other measures are there of fish 
stock health, one. Number two, do you think they are moving in 
the right direction with the current management system by 
assessing the data and following the science, especially since 
the annual catch limit is increasing every year?
    Mr. Colby. Thank you, sir. I think abundance is certainly 
one index that gives us an idea of, I guess you could say, a 
healthy fishery, or at least, excuse me, is one--abundance is 
one index to certainly give you the idea of if it is a healthy 
fish or perhaps, more appropriately, a thriving fishery.
    When you look at other parameters like fecundity and age 
class structure, then you start getting a clearer picture of 
how a fishery looks, at least to a fishery biologist, in terms 
of its relative health. Gil McCrae, in our Florida Fish and 
Wildlife Commission, gave an interesting talk on the biology of 
red snapper. And, yes, we are seeing large numbers of red 
snapper. Fortunately, many of those in that population are 
teenagers.
    And, unfortunately, with a teenage red snapper--certainly 
one that can start spawning at 18 inches--the genetic fitness 
of that larva is far less than if you get up into the higher 
poundages, say 18, 20, and 25-pound egg-bearing females, who 
have a long-term genetic fitness for larval survival. 
Everything else in between are classes of fish that we need to 
see moving in to the next 2 or 3 or 4 years before we can 
actually say this is a healthy population of red snapper.
    If you roll in the unknowns in the BP oil spill, in terms 
of how that will affect fecundity of our egg-bearing females, 
you may have a recipe for caution, in terms of how we analyze 
that population.
    Mr. Sablan. All right. So--the Chairman is generous enough 
to allow me one more question. So, Captain, what are the 
potential downfalls of managing a stock like red snapper, based 
on harvest rates rather than on pound and space quotas?
    Mr. Colby. Well, I would agree, certainly, with Dr. 
Merrick, that there are iterations--or rather, internal 
derivations that we could do, going back from numbers to 
weight. The problem with that is it is kind of like passing a 
note among yourselves, and all of you asking to rewrite the 
note. You lose something in the translation every time that 
note is done.
    So, if we take away weight, which is certainly one of the 
tools we use to estimate spawning stock biomass, let's say, 
which helps validate the SPR, particularly for red snapper, if 
you go back to doing it with a harvest rate, the rate of 
removing an individual from a population, you are going to go 
through some changes in terms of the certainty of that 
information.
    And I believe that if you want to manage, if you want to 
assess a population of fish and manage it by rate of renewal, 
you darn well better be spot on with your stock assessments, 
because you are right back having the same problem as 
canvassing the recreational fishermen to gain that data of the 
rate of removal. High peak periods, low peak periods, when are 
people fishing? We are right back to the problem of having 
recreational fishermen step up to the plate and be responsible 
for----
    Mr. Sablan. Thank you, Captain. The Chairman is generous, 
but he is not that generous. But I just----
    [Laughter.]
    Mr. Sablan. Let me just make one observation, because you 
are agreeing with Dr. Merrick. And Dr. Merrick, apparently, and 
I need to have a meeting with Ms. Bordallo to determine how he 
values fish in the Pacific region, a region that supports the 
economy of South Korea, Japan, Thailand, and apparently, he 
feels that there is more value of fish elsewhere than in the 
area we live. But thank you very much, Mr. Chairman. Thank you, 
everyone, for being here.
    Dr. Fleming. The gentleman yields back. And I want to thank 
the panel for your valuable testimony today in answering our 
questions. Hopefully we are getting closer to better solutions 
to these problems. They have certainly been vexing ever since I 
have been on Natural Resources, which is now over 4 years.
    The hearing record will remain open for 10 days, so we 
might submit more questions in writing. So we would ask that 
you respond likewise.
    There being no further business before us, and without 
objection, the Committee now stands adjourned. Thank you.
    [Whereupon, at 12:48 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
